fHtuteb States: Court ot Appeals
for tfje filti) Circuit

£ *wsM M
sat

No. 19-30297

V

^^iTciSvl

A True Copy
Certified order issued Aug 25, 2020

W. OtMjfjt.

Hai Duong

Clerk, U.S. Court of Appeals, Fifth Circuit

Petitioner—Appellant,
versus
Darrel Vannoy, Warden, Louisiana State Penitentiary,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Louisiana

ORDER:
Hai Duong, Louisiana prisoner # 613130, has moved for a certificate
of appealability (COA) to appeal the district court’s denial of his 28 U.S.C.
§ 2254 application in which he attacked his convictions by a jury of one count
of aggravated rape, one count of attempted aggravated rape, two counts of
molestation of a juvenile, and one count of aggravated sexual battery. Duong
also moves for leave to proceed in forma pauperis (IFP) on appeal.
Duong argues that he improperly was denied a copy of various records
and transcripts during the state postconviction proceeding. He also contends
that the district court wrongly determined that he failed to exhaust and had
procedurally defaulted a claim of a Fifth Amendment violation related to the

APPENDIX

A

No. 19-30297

admission of recorded interviews by the victims. He additionally argues that
he should have been granted a new trial based on the references at trial to his
post-arrest exercise of his right against self-incrimination. To the extent that
Duong raised other claims in his § 2254 application, he has abandoned them
by not briefing them. See Hughes v. Dretke, 412 F.3d 582,597 (5th Cir. 2005).
A COA may issue “if the applicant has made a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003). If the district court denies relief on the
merits, the petitioner must establish that reasonable jurists would find the
district court’s assessment of the claims debatable or wrong. Slack v.
McDaniel, 529 U.S. 473, 484 (2000). If relief is denied on procedural
grounds, a GOA should issue if the petitioner demonstrates, at least, that
jurists of reason would find it debatable whether the application “states a
valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its
procedural ruling. ” Id.
Duong has not made the necessary showing. Accordingly, his motion
for a COA is denied. His motion to proceed IFP likewise is denied.
COA DENIED; IFP MOTION DENIED.

/s/ Carl E. Stewart
Carl E. Stewart
United States Circuit Judge

2

ct

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
HAI DUONG

CIVIL ACTION

VERSUS

NO. 18-900

DARREL VANNOY

SECTION “R” (4)
ORDER

Before the Court is petitioner Hai Duong’s petition for habeus corpus
pursuant to 28 U.S.C. § 2254.1 The Court has reviewed de novo the petition,
the record, the applicable law, the Magistrate Judge’s Report and
Recommendation,2 and the petitioner’s objections.3 The Magistrate Judge
correctly determined that petitioner’s claims are meritless,

Petitioner’s

objections merely rehash arguments made before the Magistrate Judge and
are without merit. The only new argument that petitioner raises in his
objections is that he is not required to have exhausted his procedurally
defaulted claim because he is a pro se litigant. All petitioners, including pro
se litigants, are subject to the exhaustion requirement. Saahir v. Collins, 956
F.2d 115, 118 (5th Cir. 1992) (pro se status and ignorance of the law do not

i
2
3

R. Doc. 4.
R. Doc. 21.
R. Doc. 22.
APPENDIX

B

3

excuse procedural default). Accordingly, the Court adopts the Magistrate
Judge’s Report and Recommendation as its opinion therein.
Rule 11 of the Rules Governing Section 2254 Proceedings provides that
“[t]he district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant. Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate
should issue.” Rules Governing Section 2254 Proceedings, Rule 11(a). A
court may issue a certificate of appealability only if the petitioner makes “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2); Rules Governing Section 2254 Proceedings, Rule 11(a) (noting
that § 2253(c)(2) supplies the controlling standard).

The “controlling

standard” for a certificate of appealability requires the petitioner to show
“that reasonable jurists couid debate whether (or, for that matter, agree that)
the petition should have been resolved in a different manner or that the
issues presented [are] ‘adequate to deserve encouragement to proceed
further.’” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (quoting Slack v.
MacDaniel, 529 U.S. 473, 475 (2000)).
For the reasons stated in the Report and Recommendation, petitioner
has not made a substantial showing of the denial of a constitutional right.

2

Accordingly, IT IS ORDERED that the petition is DISMISSED WITH
PREJUDICE. The Court will not issue a certificate of appealability.

New Orleans, Louisiana, this _!0th _ day of April, 2019.

SARAHS. VANCE
UNITED STATES DISTRICT JUDGE

3

5

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
HAI DUONG

CIVIL ACTION

VERSUS

NO. 18-900

DARREL VANNOY

SECTION “R” (4)
JUDGMENT

Considering the Court’s order1 on file herein,
IT IS ORDERED, ADJUDGED AND DECREED that Hai Duong’s
petition for habeas corpus relief pursuant to 28 U.S.C. § 2254 is DISMISSED
WITH PREJUDICE.

New Orleans, Louisiana, this

10th day of April, 2019

SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

i

R. Doc. 23.

(P

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
HAI DUONG

CIVIL ACTION

VERSUS

NO. 18-900

DARREL VANNOY, WARDEN

SECTION “R”(4)

REPORT AND RECOMMENDATION
This matter was referred to a United States Magistrate Judge to conduct hearings, including
an evidentiary hearing if necessary, and to submit proposed findings and recommendations
pursuant to 28 U.S.C. § 636(b)(1)(B) and (C), and as applicable, Rule 8(b) of the Rules
Governing Section 2254 Cases. Upon review of the entire record, the Court has determined that
this matter can be disposed of without an evidentiary hearing. See 28 U.S.C. § 2254(e)(2) (2006).1
I.

Factual Background
The petitioner, Hai Duong (“Duong”), is a convicted inmate incarcerated in the Louisiana

State Penitentiary, in Angola, Louisiana.2 On June 21, 2012, Duong was indicted by a Grand Jury
in Jefferson Parish for two counts of committing aggravated rape, two counts of committing
molestation of a juvenile, and one count of committing aggravated oral sexual battery.3 Duong
entered a plea of not guilty in the case.4

‘Under 28 U.S.C. § 2254(e)(2), an evidentiary hearing is held only when the petitioner shows that either the
claim relies on a new, retroactive rule of constitutional law that was previously unavailable or a factual basis that could
not have been previously discovered by the exercise of due diligence and the facts underlying the claim show by clear
and convincing evidence that, but for the constitutional error, no reasonable jury would have convicted the petitioner.
2Rec. Doc. 4-2, p. 47.
3St. Rec. Vol. 1 of 8, Bill of Indictment, 6/21/12.
4St. Rec. Vol. 1 of 8, Minute Entry, 7/18/12.

APPENDIX

C

The record reflects that the victims, Nicole and Janet,5 were 13 and 12 at the time of they
made the allegations in 1999 and were adults at the time of trial, which occurred 14 years later.6
Carl, the victims’ father, testified that he and Alice were previously married and had three
children, Nicole, Janet, and a son. Duong was married to Mary, Alice’s sister. Carl and Alice
divorced in 1995.

Alice had custody of their daughters, but they would stay with Carl on

weekends. In 1996, Duong and Carl began running an automotive repair shop out of Carl’s garage.
Carl testified that from 1996 until 1999, his daughters spent more time at Duong and Mary’s home
than with Carl. In 1999, Carl had a girlfriend so he did not spend much time with his daughters.
During that time, Carl’s daughters had overnight stays at Mary and Duong’s home. Carl recalled
that Duong had the opportunity to spend time alone with Carl’s daughters.
Carl was shocked when he learned of his daughters’ allegations in 1999. He testified that
he trusted Duong and never saw him touch his daughters inappropriately. Carl admitted that after
his daughters alleged that Duong abused them, Duong left without telling Carl where he was going.
Terry Ford, a human resources manager for the successor company of the Input/Output
Company, authenticated Duong’s employment records. According to the records, Duong began
working for Input/Output on January 28, 1982, and ended his employment by resignation on May
14, 1999. The records did not show when Duong gave notice of his intention to resign. The
records reflected that on May 19, 1999, Duong completed a “payout request form” requesting a
cash distribution from his retirement plan. The form was signed by both Duong and his wife.
Duong incurred a tax penalty for taking a cash distribution.

5In accordance with La. Rev. Stat. Ann. § 46:1844(W), the state appellate court used pseudonyms to refer the
sex crime victims as Nicole and Janet and their parents as Carl and Alice. This Court will do the same for consistency
with the state appellate court’s opinion.
6The facts were taken from the published opinion of the Louisiana Fifth Circuit on direct appeal. State v.
Duong, 148 So.3d 623 (La. App. 5th Cir. 2014); St. Rec. Vol. 6 of 8, 5th Cir. Opinion, 13-KA-63, 8/8/14.
2

1

Mary Duong, Duong’s wife and Alice’s sister, testified that she worked at Alice’s wig store
in the 1990’s. During that time, Duong and Mary lived in a house across the street from the
Catholic church. Janet and Nicole went to church multiple times a week to attend mass and
catechism classes and would visit Duong and Mary’s home on those days. The girls would
occasionally spend the night at the home. Mary testified that after Carl and Alice’s divorce, Nicole
began misbehaving. Mary explained that Nicole would not listen, would talk back and left the
house without permission to sleep over at a cousin’s house.
Mary testified that one day in 1999, while at Alice’s wig shop, Janet and Nicole made
troubling allegations against Duong. After Alice told Mary about the allegations, Mary had Duong
pick her up from the store and they went home. Mary claimed that she questioned Duong about
the allegations but that he Duong did not respond to her questions. Mary recalled having a
telephone conversation with Alice later that evening, but could not recall what was said during that
conversation.
On May 17, 1999, police came to her home looking for Duong. Mary did not recall what
she told police. Mary recalled that Duong ended his employment after the allegations. She went
with Duong to cash out his retirement plan and he gave her the money to support herself. She
testified that Duong left Louisiana because Carl threatened to kill him but he did not tell her where
he was going. Months later, Mary flew to another state to be with Duong. They later moved to
New Mexico. After his heart attack in 2010, they moved to Wyoming. During his time away from
Louisiana, Duong used the alias “Henry Tony” because he was hiding from the government
because they wanted him in connection with the victims’ allegations.
At some point, Mary attended her father’s funeral. She saw the victims at that time and
told them she was sorry for them. Mary testified that she never witnessed any of the acts alleged

3

by the victims. She explained that when she was not present in the home, Duong and his mother
watched the girls. She admitted that she could not be certain that her mother-in-law would always
see what was going on in the home.
Alice, Nicole and Janet’s mother, testified that after her divorce, the girls spent Saturdays
at Carl’s house and that Duong was always there working on cars. She recalled that sometimes
Nicole would complain that she did not want to stay at her Carl’s house. Alice testified she would
frequently bring her children to Doung and Mary’s house.
In 1999, Nicole was rebelling against her mother. During an argument at the wig store,
Alice questioned Nicole about her conduct. Nicole told Alice that Duong had been molesting her
and raping her at Carl’s house since she was young. When Alice questioned Janet about Nicole’s
allegations, Janet responded that Duong had sexually abused her as well. Alice recalled that both
girls cried. Later that evening, when Alice spoke with Mary on the phone, Mary told her that
Doung had admitted that the allegations were true. After Alice’s parents told her not to report the
allegations to the police, Alice encouraged her daughters to tell the school counselor and they did
so.

A detective eventually came to Alice’s home to ask questions. On May 17, 1999, Alice’s
daughters gave interviews at the Children’s Advocacy Center (“CAC”) and underwent medical
examinations at Children’s Hospital. Alice gave a recorded statement to Detective Broussard on
that date. According to Alice, the family did not discuss the abuse thereafter as it was awkward to
discuss. She recalled that the victims went to counseling for eight months.
Detective Broussard of the Jefferson Parish Sheriff’s Office testified that he first became
involved in the investigation of the alleged aggravated rapes of Nicole and Janet on May 10, 1999,
when he received a referral from a child protection agency. Broussard set up CAC interviews of

4

10

the victims. Immediately prior to the interviews, he met with Alice who related what she had
learned from her daughters. Each victim was interviewed separately by Omalee Gordon while
Broussard monitored the interviews from a separate room. Broussard watched the interview on a
television screen and was able to communicate with Gordon through a microphone in his room
and an earpiece that Gordon was wearing. Audio and video recordings of the victims’ interviews
were made. During the interviews, the victims detailed the allegations made against Duong which
they later testified to at trial. Those interviews were played for the jury.
During her interview, Nicole explained that Duong began molesting her when she was six
years old and that he touched her all over her body including her chest and vagina.

Nicole

described the incidents as occurring-in the bedroom and the computer room at Mary and Duong’s
house. Nicole stated that, when she was sleeping, Duong would wake her up and climb on top of
her and that he would do the same to Janet. She recalled that the incidents would occur during the
holidays and summer and that Duong told her not to tell anyone.
Nicole recalled that Duong raped her when she was eleven years old and that he had raped
her more than three times during the period of abuse. Nicole explained that she told her mom
about the incidents about a month prior to her CAC interview. About a week after she told her
mom, Nicole disclosed the abuse to a school counselor.
During her CAC interview, Janet told Gordon that Duong put his “ding-a-ling” in her
private and indicated to her crotch area. She completed a paper diagram marking the areas where
Duong touched her. Janet claimed that there was one instance of vaginal sexual intercourse.
After the interviews, the victims were examined at Children’s Hospital. In the meantime,
Detective Broussard and another officer went to Duong’s home to speak with him. Mary told them
that she did not know where Duong was and that the victims and Alice were lying. Broussard then

5

H

went Duong’s workplace and was told by various staff members that Duong had quit his job that
day. Broussard was unable to locate Duong and later secured a warrant for his arrest on May 25,
1999. Duong was arrested in Wyoming in February 2012, pursuant to an outstanding warrant, and
extradited back to Louisiana. Thereafter, Broussard met with Duong and advised him of his rights.
Duong told Broussard that he had retained counsel and had been advised not to talk to him. Several
months after his arrest and extradition, Mary solid her belongings and moved back to New Orleans.
Janet was twenty-six years old at the time of the trial. She testified that she and her sister
frequently spent time at Duong and Mary’s home when they were younger. After her parents’
divorce, she spent time at her father’s home. She testified that she and Nicole would sometimes
stay at their cousins’ homes but they always had permission to do so.
Janet explained that Duong began sexually abusing her when she was five or six years of
age. The incidents occurred at both Duong and Carl’s homes. Initially, the incidents occurred on
a bed and Duong touched her chest and genitals. Janet recalled that the incidents usually occurred
on Thursdays and Saturdays, the days when she and Janet attended church across the street from
Duong’s home and that Dung would abuse her when no one else was in the home other than Nicole
or when Duong’s mother was in a separate room. Janet became afraid to visit Duong’s home.
Janet explained that Duong would remove his clothes and make her touch him and that he
would insert his fingers inside of her vagina. Janet testified that Duong would sometimes use a
back massager on her genitals and showed her pornographic videos. Janet recalled that when she
was 11 or 12 years old, Duong had oral and vaginal sex with her on the living room couch at her
father’s house. She could not recall whether they had sex again after that incident. Duong always
gave her money. She did not tell anyone about the incidents because Duong told her she would
get in trouble.

6

Janet recalled that she admitted to her mother that Duong had sexually abused her when
mother told her about Nicole’s allegations. After Janet and Nicole made their allegations, Mary
and Duong fled. Janet testified that she went to counseling a few times. She explained that she
did not speak to Nicole about the abuse due to embarrassment. Janet testified that she did not want
to remember the abuse but that it still affected her and that she collected sexual offender
registration cards so she would know who was around her.
Nicole was 27 years old at the time of trial. She explained that after her parents’ divorce,
she visited her father on weekends. She recalled the Duong regularly worked on cars at her father’s
house and that she and her sister frequently went to Duong’s home, including on days they attended
church. Nicole admitted that she would sometimes leave her father’s house to spend the night at
her cousin’s house but testified that she always had permission to do so.
Nicole recalled giving the CAC interview. Nicole testified that her first memory of sexual
abuse by Duong was when she was 7 years old and that he put a back massager on her genitals.
She believed that the first time she had vaginal sex with Duong was when she was 7 Vi years old.
She explained that the sexual abuse continued for years. Duong would show her pornographic
videos. He would expose his penis to her and put his mouth on her vagina. Nicole testified that
on one occasion when she was at her father’s house, Duong put grapes in her vagina. She admitted
that she had not previously told anyone about the incident. She recalled another instance of vaginal
sexual intercourse that occurred around the time of Vietnamese New Year. She described another
instance of sexual intercourse that occurred at her father’s house in the salon room while her father
was in the garage.
Nicole explained that Duong told.her not to tell anyone about the incidents and gave her
money, which she stored in the back of her closet. Nicole testified that she did initially tell anyone

7

because she was embarrassed. Nicole explained that she told her mom about the sexual abuse in
1999, a few weeks after the last incident occurred at Duong’s house while his mother was in the
garden. Nicole said she saw a counselor for a time. She admitted that she had a boyfriend during
that the time of her allegations but said that she and he only kissed. She denied ever going out
with her boyfriend at night without telling her parents.
On May 17, 1999, Dr. Scott Benton, an expert in Pediatric Forensic Medicine and Child
Abuse, including Child Sexual Abuse, evaluated Janet and Nicole at the Audrey Hepburn CARE
Center at Children’s Hospital and created medical reports in connection with those evaluations.
Dr. Benton testified at that time Janet told him that her uncle had “raped” her, which she explained
meant “the boy puts his thing in the girls’ private,” and that it had last occurred in April 1999. She
also told Dr. Benton that Duong touched her all over. The results of Dr. Benton’s physical
examination of Janet were normal and her hymen was intact. Dr. Benton testified that normal
results were not necessarily inconsistent with sexual abuse as many sexual acts do not cause
trauma. He explained that lack of trauma can be due to the gentleness of the perpetrator or use a
lubricant. Dr. Benton also explained that the vagina, anus, and mouth are able to rapidly heal and
that events that cause scars are not common.
Dr. Benton testified that there was delayed disclosure in Janet’s case. He explained that
Janet exhibited some of the reasons for delayed disclosure including embarrassment. He stated
that she was also possibly conflicted regarding the abuse because Duong gave her money which
she spent on junk food. He explained children may disclose different details to different classes
of people and often disclose more information to doctors.
Dr. Benton interviewed Nicole prior to examining her. Nicole told Dr. Benton that Duong
began molesting her when she was six years old and started having sex with her when she was

8

eleven years of age. The last incident had occurred two months prior. Dr. Benton’s medical
examination of Nicole revealed a lack of continuity in her hymen, which indicated that Nicole’s
hymen had been previously injured and healed in that position. Dr. Benton believed the findings
were definitive of blunt penetrating trauma and consistent with rape. Dr. Benton testified that the
reasons for delayed disclosure in Nicole’s case were that her family did not talk about problems,
and Duong bribed and threatened her. He believed that Nicole displayed elements of sequential
disclosure in that she testified regarding an incident that she had not previously disclosed to
anyone.
Duong testified that he had never been, arrested for a crime before his arrest on the charges
in this case. Duong recalled that his wife did not appear to believe him when he denied doing
anything to the victims and an argument ensued. Duong claimed he packed some clothing and left
home without telling his wife, but in hopes that she would ask him to return. Thereafter, he slept
in his car for several days and then stayed with his uncle for a few days. He quit his job after
deciding to move away with a friend. He later learned that police were looking for him. Duong
spoke to others who he told that he could die if he lost his case. He denied consulting a lawyer
during that time. Duong claimed that, because he was scared and thought it was better to live
longer than to die, he decided to move out of state. Before leaving, he withdrew his money from
his retirement account and gave it to his wife.
Duong testified that he lived in Grand Junction, Colorado, for about seven or eight years
before moving to Las Cruces, New Mexico. During that time, he spoke to his wife on several
occasions. He then moved to Farmington, New Mexico, and his wife came to stay with him after
he had a heart attack. They moved to California, but eventually he moved back to New Mexico
and then to Wyoming in 2010. He was arrested in February or March 2012.

9

Duong denied doing any of the acts he was accused of, including having sexual intercourse
with Nicole and Janet, touching them inappropriately, and putting grapes in Nicole’s vagina. He
admitted that he worked on cars at Carl’s house nearly every Saturday, but claimed that Carl was
always present. Duong further admitted that the victims would come to his house to go to church
and that his wife helped out at Alice’s wig shop, including on Saturdays. He claimed that he never
watched that girls as he was always busy working. He further claimed that he' was never alone
with the girls from 1991 to 1999. Duong testified that his wife always watched the victims and
that she would.not go to the wig shop when she had to babysit. While Duong’s mother lived with
them, Duong claimed that she did not help watch the victims when they came over.
Duong admitted having a pornographic magazine but denied showing it to the victims and
also denied having a pornographic video. He admitted that he owned a back massager but denied
ever using it on the victims.
Duong claimed that more than a month before the victims made their allegations, Nicole
told him that she was on James Street when three boys pulled her into a white van. He testified
that Nicole told him that it was alright because she liked one of the boys. Duong testified that he
believed the false allegations against him arose because Nicole had a boyfriend, did not want to
stay home, and kept staying at other people’s houses, which caused Mary to worry.
Duong was tried by a jury on June 10 through June 12, 2013, and Duong was found guilty
as charged as to counts one, three, four and five and guilty of the lesser offense of attempted
aggravated rape of Janet as to count two7 The Trial Court denied Duong’s motions for new trial.8

7St. Rec. Vol. 1 of 8, Trial Minutes, 6/10/13; Trial Minutes, 6/11/13; Trial Minutes, 6/12/13; Verdict, 6/12/13;
St. Rec. Vol. 4 of 8, Trial Transcript, 6/10/13; Trial Transcript, 6/11/13; St. Rec. Vol. 5 of 8, Trial Transcript, 6/11/13
(con’t); Trial Transcript, 6/12/13; St. Rec. Vol. 6 of 8,Trial Transcript, 6/12/13 (con’t); St. Rec. Vol. 7 of 8, Opening
Statements Transcript, 6/11/13; Closing and Rebuttal Argument Transcript, 6/12/13.
8St. Rec. Vol. 1 of 8, Motion for New Trial, 6/17/13; Memorandum in Support of Motion for New Trial,
6/17/13; Supplemental Motion for a New Trial, 6/18/; Sentencing Minutes, 6/24/13; St. Rec. Vol. 6 of 8, Sentencing
10

On June 24, 2013, the Trial Court sentenced Duong to life imprisonment as to count one, 50 years
as to count two, 15 years each as to counts three and four, and 10 years as to count five, each term
to be served at hard labor without the benefit of parole, probation, or suspension of sentence, and
each sentence to run concurrently.9
On direct appeal, Duong’s appellate counsel asserted three errors10: (1) the Trial Court
erred in admitting the recorded CAC interviews of Nicole and Janet without strict compliance with
La. Rev. Stat. § 15:440.1, et seq. and in violation of his right to confrontation; (2) the Trial Court
erred in denying his motion for new trial premised upon the prosecutor’s reference to his post­
arrest exercise of the privilege of self-incrimination; and (3) the Trial Court erred in failing to grant
his motion for a mistrial premised upon the prosecutor’s reference to “other crimes” evidence in
his rebuttal argument. On August 8, 2014, the Louisiana Fifth Circuit affirmed the convictions
and sentences finding no merit in the issues raised, but remanded the case to the Trial Court with
instructions to provide Duong with written notice of his sex offender notification and registration
requirements by using the form set forth in La. Rev. Stat. § 15:543.1 and to correct errors in the
Uniform Commitment Order regarding the dates of the offenses.11
On September 8, 2014, Duong filed a pro se writ application with the Louisiana Supreme
Court.12 On April 17,2015, the Louisiana Supreme Court denied Duong’s writ application without

Transcript, 6/24/13.
9St. Rec. Vol. 1 of 8, Sentencing Minutes, 6/24/13; St. Rec. Vol. 6 of 8, Sentencing Transcript, 6/24/13.
l0St, Rec. Vol. 6 of 8, Appeal Brief, 13-KA-763, 1/14/14.
uState v. Duong, 148 So.3d 623 (La. App. 5th Cir. 2014); St. Rec. Vol. 6 of 8, 5th Cir. Opinion, 13-KA-763,
8/8/14.
l2St. Rec. Vol. 8 of 8, La. S. Ct. Writ Application, 14 KO 1883, 9/8/14 (dated 9/2/14).
11

stated reasons.13 His conviction was final under federal law ninety (90) days later, on July 19
2015, when he did not file a writ application with the United States Supreme Court. Ott v. Johnson,
192 F.3d 510, 513 (5th Cir. 1999) (period for filing for certiorari with the United States Supreme
Court is considered in the finality determination under 28 U.S.C. § 2244(d)(1)(A)); U.S. Sup. Ct.
Rule 13(1)).
On August 24, 2015, Duong submitted pro se to the Trial Court an application for post­
conviction relief and brief in which he raised the following grounds for relief:14 (1) ineffective
assistance of trial counseling in failing to (a) investigate the case; (b) object to voir dire; and (c)
raise a defense of false allegations; and (2) prosecutorial misconduct based on (a) the prosecution’s
systematic exclusion of minorities from jury; (b) knowingly presentation of false testimony, (c)
suppression of evidence that one of the victims had run away and that the families did not believe
the victims; and (4) threats made to the family members to force them to testify. Duong also filed
a motion for production of documents including a free copy of the trial record and specifically
claimed he needed the grand jury transcripts, all motions filed in the case, transcripts of all pretrial
hearings, the trial transcript, including voir dire examination, opening statements and closing
arguments, the Trial Court’s rulings on post-trial motions, and the sentencing transcript.15 He also
filed a motion for production of free copies of the District Attorney’s files.16

nState v. Duong, 168 So.3d 395 (La. 2015); St. Rec. Vol. 8 of 8, La. S. Ct. Order, 2014-KO-1883, 4/17/15.
l4St. Rec. Vol. 2 of 8, Application for Post-Conviction Relief, 8/28/15 (dated 8/24/15).
l5St. Rec. Vol. 2 of 8, Motion for Production of Documents under Particularized Need, 8/28/15 (dated
8/24/15); Motion for Production of the District Attorney’s Files, 8/28/15; Memorandum in Support of Application for
Post-Conviction Relief, 8/28/15 (dated 8/24/15).
l6St. Rec. Vol. 2 of 8, Motion for Production of the District Attorney’s Files, 8/28/15.
12

On September 21, 2015, the Trial Court found that Duong was not entitled to the grand
jury transcript and had not made a sufficient showing of particularized need for a free copy of the
other transcripts.17 The Trial Court found that Duong should request the District Attorney’s
records from the DA and that he should direct his request for trial records to the Clerk of Court for
Jefferson Parish.18
Duong filed a motion for stay of proceedings and an intent to seek writs and requested a
return date.19 The Trial Court, granted Duong’s motion for a stay and set a return date for
November 30, 2015.20 Duong filed an application for writs with the Fifth Circuit on October 20,
2015.21 On December 17, 2015, the Fifth Circuit denied Duong’s related writ application finding
no error in the Trial Court’s rulings.22 Duong sought a writ of review with the Louisiana Supreme
Court.23 On August 4, 2017, the Louisiana Supreme Court denied relief without stated reasons 24
In the interim, after the State filed a response and Duong filed a traverse, the Trial Court
denied the post-conviction application on March 2, 2016, finding Duong failed to show any

l7St. Rec. Vol. 2 of 8, Trial Court Order, 9/21/15.
,8M.
i9St. Rec. Vol. 2 of 8, Motion for Stay of Proceedings, 10/23/15 (dated 10/19/15); Notice of Intent to Seek
Writs and Request for Extended Return Date, 10/13/15 (dated 10/19/15).
20St. Rec. Vol. 1 of 8, Trial Court Order, 11/24/15; Trial Court Order, 12/7/15.
2lSt. Rec. Vol. 2 of 8, 5th Cir. Writ Application, 15-KH-662, 10/22/15 (dated 10/20/15).
22St. Rec. Vol. 2 of 8, 5th Cir. Opinion, 15-KH-662, 12/17/15.
23St. Rec. Vol. 14 of 15, La. S. Ct. Writ Application, 2015-KH-2128, 11/13/15.
uState ex rel. Duong v. State, 222 So.3d 720 (La, 2017); St. Rec. Vol. 8 of 8, La. S. Ct. Opinion, 2016-KH0073, 8/4/17.

13

deficiency in counsel’s performance or any resulting prejudice and failed to provide any evidence
demonstrating prosecutorial misconduct.25
Duong submitted a writ application with the Louisiana Fifth Circuit seeking review of the
Trial Court’s March 2, 2016 order denying post-conviction relief.26 On April 28, 2016, the Fifth
Circuit found Duong’s challenge to the trial court’s denial of his request for production of
documents was repetitive, that he failed to demonstrate deficient performance by counsel or
resulting prejudice, and that Duong failed to provide any evidence in support of his allegations of
prosecutorial misconduct.27
On August 4, 2017, the Louisiana Supreme Court denied writs finding that Duong failed
to show he received ineffective assistance of counsel under the standard of Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).28
II.

Federal Habeas Petition
On January 29, 2018, Duong filed a petition for federal habeas corpus relief in which he

asserts the following grounds for relief29: (1) he was denied his rights to equal protection and due
process when the state courts denied him discovery thereby preventing him from proving his
ineffective assistance of counsel claims; (2) he was denied his rights of equal protection and due

25St. Rec. Vol. 8 of 15, State’s Response to Application for Post Conviction Relief, 1/14/16; Traverse to
State’s Answer and Memorandum to Application for Post-Conviction Relief, 1/27/16 (dated 1/25/16)- Trial Court
Order, 3/2/16.
26St. Rec. Vol. 2 of 8, 5th Cir. Writ Application, 16-KH-187, 4/5/16 (dated 3/28/16).
27St. Rec. Vol. 2 of 8, 5th Cir. Order, 16-KH-187,4/28/16.
2SState ex rel. Duong v. State, 222 So.3d 703 (La. 2017) (per curiam); St. Rec. Vol. 8 of 8, La. S. Ct. Order
16-KH-1018, 8/4/17.
29Rec. Do'c. 4.

14

process when the state courts denied his request for discovery thereby preventing him from proving
his claims of prosecutorial misconduct; (3) the Trial Court erred in admitting the CAC videos in
violation of his Fifth and Sixth Amendment right of confrontation; (4) the Trial Court erred in
denying his motion for new trial; (5) the Trial Court erred in denying his motion for mistrial.
The State filed a response in opposition to the petition asserting that Duong timely filed his
federal petition and exhausted his claims with the exception of a portion of claim three in which
he alleges a Fifth Amendment violation.30 The State asserts that the remaining claims can be
dismissed as meritless.
Duong filed a reply reiterating his claims.31 He did not address his failure to exhaust his
Fifth Amendment claim.
III.

General Standards of Review
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104

132, 110 Stat. 1214,32 applies to this petition, which is deemed filed in this Court on January 29,
2018.33 The threshold questions on habeas review under the amended statute are whether the

30Rec. Doc. No. 18.
3lRec. Doc No. 20.
32The AEDPA comprehensively revised federal habeas corpus legislation, including 28 U.S.C. § 2254, and
applied to habeas petitions filed after its effective date, April 24, 1996. Flanagan v. Johnson, 154 F.3d 196, 198 (5th
Gif. 1998) (citing Lindh v. Murphy, 521 U.S. 320 (1997)). The AEDPA, signed into law on that date, does not specify
an effective date for its non-capital habeas corpus amendments. Absent legislative intent to the contrary, statutes
become effective at the moment they are signed into law. United States v. Sherrod, 964 F.2d 1501, 1505 n.l 1 (5th
Cir. 1992).
33The Fifth Circuit has recognized that a “mailbox rule” applies to pleadings, including habeas corpus
petitions filed after the effective date of the AEDPA, submitted to federal courts by prisoners acting pro se. Under
this rule, the date when prison officials receive the pleading from the inmate for delivery to the court is considered the
time of filing for limitations purposes. Coleman v. Johnson, 184 F.3d 398,401 (5th Cir. 1999); Spotville v. Cain, 149
F.3d 374,378 (5th Cir. 1998); Cooper v. Brookshire, 70 F.3d 377,379 (5th Cir. 1995). The clerk of this Court received
Duong’s original petition on January 30, 2018, and it was eventually filed on February 8, 2018, when it received the
filing fee. Duong dated his signature on the original pleadings on January 29,2018, which is the earliest date appearing
in the record on which he could have presented the pleadings to prison officials for filing with a federal court. The
fact that he later paid the filing fee does not alter the application of the federal mailbox rule to his pro se petition. See
Cousin v. Lensing, 310 F.3d 843, 847 (5th Cir. 2002) (mailbox rule applies even if the filing fee is not paid at time of
mailing) (citing Spotville, 149 F.3d at 376).
15

petition is timely and whether the claim raised by the petitioner was adjudicated on the merits in
state court; i.e., the petitioner must have exhausted state court remedies and the claims must not
be in “procedural default.” Nobles v. Johnson, 127 F.3d 409, 419-20 (5th Cir. 1997) (citing 28
U.S.C. § 2254(b), (c)).
The State concedes and the record shows that Duong’s federal petition was timely filed.
The State contends that petitioner did not properly exhaust his claim that the introduction into
evidence of the CAC videotapes violated his Fifth Amendment rights.
IV.

Exhaustion Doctrine and Procedural Default
“A fundamental prerequisite to federal habeas relief under § 2254 is the exhaustion of all

claims in state court prior to requesting federal collateral relief.” Whitehead v. Johnson, 157 F.3d
384, 387 (5th Cir. 1998) (citing Rose v. Lundy, 455 U.S. 509, 519-20, 102 S.Ct. 1198, 71 L.Ed.2d
379 (1982)); Nobles, 127 F.3d at 419. “A federal habeas petition should be dismissed if state
remedies have not been exhausted as to all of the federal court claims.” Whitehead, 157 F.3d at
387 (citing 28 U.S.C. § 2254(b)(1)(A); Rose, 455 U.S. at 519-20, 102 S.Ct. 1198).
The well-established test for exhaustion requires that the substance of the federal habeas
claim be fairly presented to the highest state court in a procedurally proper manner. Whitehead,
157 F.3d at 387 (citing Picard v. Connor, 404 U.S. 270, 275-78, 92 S.Ct. 509, 30 L.Ed.2d 438
(1971)).

“[Sjtate prisoners must give the state courts one full opportunity to resolve any

constitutional issues by invoking one complete round of the State’s established appellate review
process,” including discretionary review when that review is part of the State’s ordinary appellate
review procedures. O’Sullivan v. Boerckel, 526 U.S. 838, 845, 119 S.Ct. 1728, 144 L.Ed.2d 1
(1999). “A federal court claim must be the ‘substantial equivalent’ of one presented to the state
16

courts if it is to satisfy the ‘fairly presented’ requirement.” Whitehead, 157 F.3d at 387 (citing
Picard, 404 U.S. at 275-78, 92 S.Ct. 509). “This requirement is not satisfied if the petitioner
presents new legal theories or new factual claims in his federal application.” Id., 157 F.3d at 387
(citing Nobles, 127 F.3d at 420); Wilder v. Cockrell, 274 F.3d 255, 259 (5th Cir. 2001).
For exhaustion purposes, it also is not enough for a petitioner to have raised the claims in
the lower state courts if the claims were not specifically presented to the State’s highest court, and
vice versa.

Baldwin v. Reese, 541 U.S. 27, 32, 124 S.Ct. 1347, 158 L.Ed.2d 64 (2004).

Furthermore, a petitioner does not fairly present a claim to the State’s highest court if that court
must read beyond the petition or brief, such as a lower court opinion, to find a claim not otherwise
specifically raised. Id., 541 U.S. at 32, 124 S.Ct. 1347.
A review of the record shows that, while petitioner referenced the Fifth Amendment in his
Table of Authorities under “Statutory Authority,” he did not include any argument regarding the
Fifth Amendment in addressing his claim related to the CAC videos.34 In his brief in support of
his writ application to the Louisiana Supreme Court, Duong merely referenced the Fifth
Amendment, but once again never presented any argument that the admission of the CAC video
violated his Fifth Amendment rights to due process; rather he only addressed the Sixth Amendment
Confrontation Clause.35 As petitioner did not fairly present his Fifth Amendment claim to any
state court, he has not exhausted that claim.
Normally, the Court would recommend that Duong’s petition be dismissed without
prejudice to allow him to pursue exhaustion of his claim in the appropriate state courts. However,

34St. Rec. Vol. 6 of 8, Appellate Brief, 13-KA-0763, pp. 4, 13-19, 1/14/14.
I

35St. Rec. Vol. 8 of 8, La. S. Ct. Writ Application, pp. iii, 1, 8-13, 9/8/14 (dated 9/2/14).
17

unexhausted claims, those claims which were not “fairly presented” to the state courts, may be
considered “technically” exhausted if the habeas petitioner is now prohibited from litigating those
claims in the state courts because of some procedural rule. If that is so, then those “technically”
exhausted habeas claims might be considered procedurally defaulted.
If a claim has not been adjudicated on the merits in state court, federal review of that claim
may be barred by the doctrine of procedural default if the petitioner has failed to meet state
procedural requirements for presenting his federal claims, thereby depriving the state courts of an
opportunity to address those claims in the first instance. See Cone v. Bell, 556 U.S. 449, 465, 129
S.Ct. 1769, 1780 (2009) (noting that, “[w]hen a petitioner fails to properly raise his federal claims
in state court, he deprives the State of ‘an opportunity to address those claims in the first instance’
and frustrates the State’s ability to honor his constitutional rights”) (quoting Coleman v. Thompson,
501 U.S. 722,732 (1991)). When state court remedies are rendered unavailable by the petitioner's
own procedural default, federal courts are normally barred from reviewing those claims. See
Coleman, 501 U.S. at 722. “[I]f the petitioner failed to exhaust state remedies and the court to
which petitioner would be required to present his claims in order to meet the exhaustion
requirement would now find the claims procedurally barred,... [then] there is a procedural default
for purposes of federal habeas ...” Id., at 735 n. 1.
A petitioner has “technically exhausted” his claims if he fails to properly and timely present
them to each level of the Louisiana courts and thereafter would be barred from seeking relief in
those courts. Magouirk v. Phillips, 144 F.3d 348, 358 (5th Cir. 1998) (citing Coleman, 501 U.S.
at 731-33 and Sones v. Hargett, 61 F.3d 410, 416 (5th Cir. 1995)); Fuller v. Johnson, 158 F.3d
903, 905-06 (5th Cir. 1998). In such a case, there is no difference between non-exhaustion and
18

\

procedural default. Magouirk, 144 F.3d at 358. Accordingly, when a petitioner fails to exhaust
state court remedies because he has allowed his federal claims to lapse, those claims are
“technically” procedurally defaulted and may be dismissed. Id.
In this case, it is reasonable to conclude that Duong is now unable to litigate his claim that
admission of the CAC videos violated his Fifth Amendment rights in the Louisiana courts, and
that any attempt to litigate this claim would result in dismissal on state procedural grounds. Based
on the record, any attempt to litigate this claim now likely would be dismissed as repetitive under
La. Code Crim. P. arts. 930.4(D) or (E)36 or as time-barred by the provisions of La. Code Crim.
P. art. 930.8.37 Therefore, petitioner’s claim that admission of the CAC video violated his Fifth
Amendment rights is now considered procedurally defaulted. Sones, 61 F.3d at 416 (citing Steele
v. Young, 11 F.3d 1518, 1524 (10th Cir. 1993)). The procedural default doctrine bars federal
habeas corpus review if the state courts would now refuse to address a habeas petitioner’s
unexhausted federal claims because litigation of those claims would be barred by state procedural
rules.
Federal habeas review of a “technically” exhausted and now procedurally defaulted claim
is barred “... unless the prisoner can demonstrate cause for the default and actual prejudice as result
of the alleged violation of federal law, or demonstrate that failure to consider the claims will result
in a fundamental miscarriage of justice.” Coleman, 501 U.S. at 750-51, 111 S.Ct. 2546.

36Art. 930.4(D) provides that “[a] successive application may be dismissed if it fails to raise a new or different
claim.” Art. 930.4(E) also provides “[a] successive application may be dismissed if it raises a new or different claim
that was inexcusably omitted from a prior application.”
37Art. 930.8 provides a two-year period of limitations for filing applications for post-conviction relief and
that period generally runs from the date that the applicant’s judgment of conviction becomes final under Louisiana
law, which for Duong was July 19, 2015.
19

To establish cause for a procedural default, a petitioner must demonstrate that some
objective factor external to the defense impeded his efforts to comply with the state’s procedural
rule. Murray v. Carrier, All U.S. 478, 488, 106 S.Ct. 2639, 91 L.Ed.2d 397 (1986). The mere
fact that a petitioner or his counsel failed to recognize the factual or legal basis for a claim, or
failed to raise the claim despite recognizing it, does not constitute cause for a procedural default.
Id. at 486.
In this case, Duong has not offered any cause for the default which would excuse the
procedural bar. The Court’s review of the record does not support a finding that any factor external
to the defense prevented Duong from raising the claim in a procedurally proper manner. The
record also does not reflect any action or inaction on the part of the State which prevented him
from doing so.
Should Duong attempt later to argue to a reviewing Court that his appellate counsel was
ineffective in failing to raise the issue on direct appeal, such an argument would be unavailing.
Duong has not exhausted state court review of any such ineffective assistance of counsel claim
and therefore cannot rely on such a claim as cause to excuse the bar. See Edwards v. Carpenter,
529 U.S. 446, 452-54 (2000) (requiring exhaustion of a claim of ineffective assistance of counsel
as cause for procedural default).
“The failure to show ‘cause’ is fatal to the invocation of the ‘cause and prejudice’
exception, without regard to whether ‘prejudice’ is shown.” Hogue v. Johnson, 131 F.3d 466,497
(5th Cir. 1997) (citing Engle, 456 U.S. at 134 n.43, 102 S.Ct. 1558). Having failed to show an
objective cause for his default, the Court need not determine whether prejudice existed, and

20

petitioner has not alleged any actual prejudice. Ratcliff v. Estelle, 597 F.2d 474, 477-78 (5th Cir.
1979) (citing Lumpkin v. Ricketts, 551 F.2d 680, 681-82 (5th Cir. 1977)).
Duong s defaulted claim is therefore procedurally barred from review by this federal
habeas corpus court. See Trest v. Whitley, 94 F.3d 1005, 1008 (5th Cir. 1996) (habeas review
precluded where petitioner neglected to allege actual prejudice and cause of failure to comply with
state procedural rule concerning time restriction on filing for state post-conviction relief), vacated
on other grounds, 522 U.S. 87, 118 S.Ct. 478, 139 L.Ed.2d 444 (1998).38
Duong may avoid this procedural bar only when a fundamental miscarriage of justice will
occur if the merits of his claim is not reviewed. Hogue, 131 F.3d at 497 (citing Sawyer v. Whitley,
505 U.S. 333, 339, 112 S.Ct. 2514, 120 L.Ed.2d 269 (1992)). To establish a fundamental
miscarriage of justice, a petitioner must provide the court with evidence that would support a
“colorable showing of factual innocence.” Kuhlmann v. Wilson, 477 U.S. 436, 454, 106 S.Ct.
2616, 91 L.Ed.2d 364 (1986); accord Murray, All U.S. at 495-96; Glover, 128 F.3d at 902-03.
To satisfy the factual innocence standard, petitioner must establish a fair probability that,
considering all of the evidence now available, the trier of fact would have entertained a reasonable
doubt as to the defendant’s guilt. Campos v. Johnson, 958 F.Supp. 1180, 1195 (W.D. Tex. 1997)
(footnote omitted); Nobles, 127 F.3d at 423 & n.33 (actual innocence factor requires a showing by
clear and convincing evidence that “but for constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying offense.”).

When the petitioner has not

38The Supreme Court vacated the Fifth Circuit’s opinion on grounds that a court of appeals is not required
to raise the procedural default argument sua sponte but may do so in its discretion. Id.
21

adequately asserted his actual innocence, the procedural default cannot be excused under the
“fundamental miscarriage of justice” exception. Glover, 128 F.3d at 903.
Duong does not present any evidentiary support, and the record contains nothing, to suggest
or establish his actual innocence on the underlying convictions. In other words, he fails to present
any evidence or argument of the kind of actual innocence that would excuse the procedural default.
He, therefore, has failed to overcome the procedural bar to his claims, and his claim alleging the
admission of the CAC videos violated his Fifth Amendment rights should be dismissed with
prejudice.

22

V.

Standards for a Merits Review
The AEDPA standard of review is governed by § 2254(d) and the Supreme Court’s

decision in Williams v. Taylor, 529 U.S. 362 (2000). It provides different standards for questions
of fact, questions of law, and mixed questions of fact and law.
A state court’s determinations of questions of fact are presumed correct and the Court must
give deference to the state court findings unless they were based on an unreasonable determination
of the facts in light of the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d)(2)
(2006); see Hill v. Johnson, 210 F.3d 481, 485 (5th Cir. 2000). The amended statute also codifies
the “presumption of correctness” that attaches to state court findings of fact and the “clear and
convincing evidence” burden placed on a petitioner who attempts to overcome that presumption.
28 U.S.C. § 2254(e)(1) (2006).
A state court’s determination of questions of law and mixed questions of law and fact are
reviewed under § 2254(d)(1), as amended by the AEDPA. The standard provides that deference
be given to the state court’s decision unless the decision is “contrary to or involves an unreasonable
application of clearly established federal law” as determined by the United States Supreme Court.
Hill, 210 F.3d at 485. The “critical point” in determining the Supreme Court rule to be applied “is
that relief is available under § 2254(d)(l)’s unreasonable-application clause if, and only if, it is so
obvious that a clearly established rule applies to a given set of facts that there could be no
‘fairminded disagreement’ on the question.” White v. Woodall,

U.S._, 134 S. Ct. 1697, 1706-

07 (2014) (citing Harrington v. Richter, 562 U.S. 86, 103 (2011)). “Thus, ‘if a habeas court must
extend a rationale before it can apply to the facts at hand,’ then by definition the rationale was not

23

‘clearly established at the time of the state-court decision.’” White, 134 S. Ct. at 1706 (quoting
Yarborough v. Alvarado, 541 U.S. 652, 666 (2004)).
A state court’s decision can be “contrary to” federal law if: (1) the state court arrives at a
conclusion opposite to that reached by the Supreme Court on a question of law; or (2) the state
court decides a case differently than the Supreme Court has on a set of materially indistinguishable
facts. Williams, 529 U.S. at 405-06,412-13; Penry v. Johnson, 532 U.S. 782,792-93 (2001); Hill,
210 F.3d at 485. A state court’s decision can involve an “unreasonable application” of federal law
if it correctly identifies the governing rule but then applies it unreasonably to the facts. White, 134
S. Ct. at 1706-07; Williams, 529 U.S. at 406-08, 413; Penry, 532 U.S. at 792,
The Supreme Court in Williams did not specifically define “unreasonable” in the context
of decisions involving unreasonable applications of federal law. See Williams, 529 U.S. at 410.
The Court, however, noted that an unreasonable application of federal law is different from an
incorrect application of federal law. Id. “ ‘[A] federal habeas court may not issue the writ simply
because that court concludes in its independent judgment that the state-court decision applied [a
Supreme Court case] incorrectly.’ ” Price v. Vincent, 538 U.S. 634, 641 (2003) (quoting Woodford
v. Visciotti, 537 U.S. 19, 24-25 (2002)) (brackets in original); Bell v. Cone, 535 U.S. 685, 699
(2002)).

Thus, under the “unreasonable application” determination, the Court need not determine
whether the state court’s reasoning is sound, rather “the only question for a federal habeas court is
whether the state court’s determination is objectively unreasonable.” Neal v. Puckett, 286 F.3d
230, 246 (5th Cir. 2002). The burden is on the petitioner to show that the state court applied the
precedent to the facts of his case in an objectively unreasonable manner. Price, 538 U.S. at 641
24

(quoting Woodford, 537 U.S. at 24-25); Wright v. Quarterman, 470 F.3d 581, 585 (5th Cir. 2006).
In addition, review under § 2254(d)(1) is limited to the record before the state court that
adjudicated the claim on the merits. Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
VI.

Denial of Requests for Trial Court Records and Transcripts and District Attorney
Files (Claim Nos. 1 and 2)
Duong claims that he was denied equal protection, due process of law and the opportunity

to fully present and prove his claims of prosecutorial misconduct and ineffective assistance of
counsel presented in his application for post conviction relief when the state courts denied his
request for free copies of the trial court record and the District Attorney’s files.
In conjunction with his application for post conviction relief, Duong filed several motions
seeking free copies of the grand jury transcripts, the complete trial court record, including motions,
court rulings, and hearing and trial transcripts, as well as the District Attorney’s files.39 The Trial
Court denied his request and the Fifth Circuit found no error in that ruling, finding that Duong’s
conclusory allegations of inconsistencies between witnesses’ grand jury and trial testimonies was
not sufficient to meet an exception for disclosure of the grand jury transcripts and that he had not
shown a particularized need for the other requested documents.40 This was the last reasoned
opinion on the issue. Ylst v. Nunnemaker, 501 U.S. 797, 802, 111 S.Ct. 2590, 115 L.Ed.2d 706
(1991) (when the last state court judgment does not indicate whether it is based on procedural
default or the merits of a federal claim, the federal court will presume that the state court has relied
upon the same grounds as the last reasoned state court opinion).

39St. Rec. Vol. 2 of 8, Motion for Production of Documents under Particularized Need, 8/28/45 (dated
8/24/15); Motion for Production of the District Attorney’s Files, 8/28/15; Memorandum in Support of Application for
Post-Conviction Relief, 8/28/15 (dated 8/24/15).
40St. Rec. Vol. 2 of 8, Trial Court Order, 9/21/15; St. Rec. Vol. 2 of 8,5th Cir. Opinion, 15-KH-662,12/17/15.
25

Duong does not present a cognizable issue for federal habeas review based on his perceived
rights under state law. It is well settled that “it is not the province of a federal habeas court to
reexamine state-court determinations on state-law questions.” Estelle v. McGuire, 502 U.S. 62,
67-68 (1991); see also, Swarthout v. Cooke,---- U.S. -

■, 131 S.Ct. 859, 861 (2011) (federal

habeas review does not lie for errors of state law). A federal court does “not sit as [a] ‘super’ state
supreme court in a habeas corpus proceeding to review errors under state law,” Wilkerson v.
Whitley, 16 F.3d 64, 67 (5th Cir. 1994) (citation and quotation omitted).
Under federal law, on direct appeal, an indigent criminal has an absolute right to a trial
transcript, or an alternative device that fulfills the same function. Griffin v. Illinois, 351 U.S. 12,
18-20 (1956). There is no question that the trial transcript was in fact provided to petitioner’s
appellate counsel, which Duong does not deny. There is, however, no general due-process right
of access to state-court records on collateral review in criminal proceedings. See, e.g., United
States v. MacCollom, 426 U.S. 317, 323-24 (1976) (no constitutional right to transcripts on
collateral review of a conviction; a federal petitioner on collateral review must demonstrate that
his claims are not frivolous and that transcripts are needed to prove his claims before he is entitled
to a free copy of pertinent transcripts); Deem v. Devasto, 140 F. App’x 574, 575 (5th Cir. 2005);
Cook v. Cain, Civ. Action No. 15-1882, 2015 WL 6702290, at *2 (E.D. La. Nov. 3, 2015).
On collateral review, the burden is on the petitioner to positively demonstrate that there is
a particularized need for the requested documents and transcripts and that the request is not
frivolous. MacCollom, 426 U.S. at 326; Smith v. Beto, 472 F.2d 164,165 (5th Cir. 1973) (affirming
the lower court’s finding that there was no constitutional violation where the petitioner’s attorney
had access to the state court record and trial transcripts on direct appeal and where “the petitioner

26

did not need a transcript in order to establish his contention that he was denied effective counsel
at his state trial”). In the absence of a showing of a “particularized need” for such discovery,
petitioner is not entitled to habeas corpus relief, especially in the context of a request for grand
jury testimony. See Robinson v. Cain, Civ. Action No. 05-5478, 2011 WL 890973 at *8 (E.D. La.
Feb. 7, 2011) (Chasez, M.J.), adopted, 2011 WL 901193 (E.D. La. March 14, 2011)(Zainey,
J.)(citing Pittsburgh Plate Glass Co., v. United States, 360 U.S. 395, 399-01 (1959)(because
defendant failed to meet burden of showing “particularized need”, trial court did not err in refusing
to disclose grand jury testimony)).
Based on the unsubstantiated nature of Duong’s ineffective assistance of counsel and
prosecutorial misconduct claims, addressed below, all of which are meritless, vague, and
conclusory, Duong has not met his burden of showing particularized need for the records or
transcripts.
A. Ineffective Assistance of Counsel
Duong alleges that he was denied effective assistance of counsel. He claims his trial
counsel: 1) “failed to object during voir dire examination when the state systematically excluded
minorities from the jury [and] [t]he State was not required to give any race neutral reasons for the
exclusions;” 2) “failed to investigate the circumstances surrounding Nicole’s running away from
home to be sexually involved with her boyfriend;” and 3) failed to mount an actual
innocence/fabrication defense.41

41Rec. Doc. No. 4-2, pp. 20-23.
27

Duong asserted these arguments in his state application for post-conviction relief. The
Trial Court denied the ineffective assistance of counsel claims.42 The Louisiana Fifth Circuit
; *"

denied the related writ application.43 The Louisiana Supreme Court denied relief finding that
Duong had failed to show he received ineffective assistance of counsel under Strickland,44
1. Standards of Review under Strickland
The issue of ineffective assistance of counsel is a mixed question of law and fact. Clark v.
Thaler, 673 F.3d 410, 416 (5th Cir. 2012); Woodfox v. Cain, 609 F.3d 774, 789 (5th Cir. 2010).
The question for this Court is whether the state courts’ denial of relief was contrary to, or an
unreasonable application of, federal law as determined by the Supreme Court.
In Strickland v. Washington, 466 U.S. 668 (1984), the Court established a two-part test for
evaluating claims of ineffective assistance of counsel in which the petitioner must prove deficient
performance and prejudice therefrom. Strickland, 466 U.S. at 687. The petitioner has the burden
of proving ineffective assistance of counsel by a preponderance of the evidence. Montoya v.
Johnson, 226 F.3d 399, 408 (5th Cir. 2000); Jernigan v. Collins, 980 F.2d 292, 296 (1992). In
deciding ineffective assistance claims, a court need not address both prongs of the conjunctive
Strickland standard, but may dispose of such a claim based solely on a petitioner’s failure to meet
either prong of the test. Amos v. Scott, 61 F.3d 333, 348 (1995).
To prevail on the deficiency prong, a petitioner must demonstrate that counsel’s conduct
failed to meet the constitutional minimum guaranteed by the Sixth Amendment. See Styron v.

42St. Rec. Vol. 2 of 8, Trial Court Order, 9/21/15.
43St. Rec. Vol. 2 of 8, 5th Cir. Order, 16-KH-187,4/28/16.
44State ex rel. Duong v. State, 222 So.3d 703 (La. 2017) (per curiam); St. Rec. Vol. 2 of 8, La. S. Ct. Order,
16-KH-1018, 8/4/17.
28

Johnson, 262 F.3d 438, 450' (5th Cir. 2001).

“The defendant must show that counsel’s

representation fell below an objective standard of reasonableness.” Strickland, 466 U.S. at 68788. The analysis of counsel’s performance must take into account the reasonableness of counsel’s
actions under prevailing professional norms and in light of all of the circumstances. See Strickland,
466 U.S. at 689; Carty v. Thaler, 583 F.3d 244, 258 (5th Cir. 2009). The reviewing court must
“judge .. . counsel’s challenged conduct on the facts of the particular case, viewed as of the time
of counsel’s conduct.” Roe v. Flores-Ortega, 528 U.S. 470, 477 (2000) (quoting Strickland, 466
U.S. at 690). Petitioner must overcome a strong presumption that the conduct of his counsel falls
within a wide range of reasonable representation. Harrington, 562 U.S. at 104 (citing Strickland,
466 U.S. at 689). “[I]t is all too easy to conclude that a particular act or omission of counsel was
unreasonable in the harsh light of hindsight.” Bell, 535 U.S. at 702 (citing Strickland, 466 U.S. at
689). As a result, federal habeas courts presume that trial strategy is objectively reasonable unless
clearly proven otherwise. Strickland, 466 U.S. at 689; Johnson v. Dretke, 394 F.3d 332, 337 (5th
Cir. 2004) (counsel’s “ ‘conscious and informed decision on trial tactics and strategy cannot be the
basis for constitutionally ineffective assistance of counsel unless it is so ill chosen that it permeates
the entire trial with obvious unfairness.’ ”) (quoting United States v. Jones, 287 F.3d 325, 331 (5th
Cir. 2002)); Geiger v. Cain, 540 F.3d 303, 309 (5th Cir. 2008).
In order to prove prejudice, a petitioner “must show that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694; Williams v. Thaler, 602 F.3d 291, 310 (5th Cir. 2010).
Furthermore, “[t]he petitioner must ‘affirmatively prove,’ and not just allege, prejudice.” Day v.
Quarterman, 566 F.3d 527, 536 (5th Cir. 2009) (quoting Strickland, 466 U.S. at 695). In this
context, “a reasonable probability is a probability sufficient to undermine confidence in the

29

3S

outcome.” Cullen, 563 U.S. at 189 (quoting Strickland, 466 U.S. at. 694). This standard requires
a “substantial,” not just “conceivable,” likelihood of a different result. Harrington, 562 U.S. at
112. In making a determination as to whether prejudice occurred, courts must review the record
to determine “the relative role that the alleged trial errors played in the total context of [the] trial.”
Crockett v. McCotter, 796 F.2d 787, 793 (5th Cir. 1986).

Thus, conclusory allegations of

ineffective assistance of counsel, with no showing of effect on the proceedings, do not raise a
constitutional issue sufficient to support federal habeas relief. Miller, 200 F.3d at 282 (citing Ross
v. Estelle, 694 F.2d 1008, 1012 (5th Cir. 1983)).
On habeas review, the United States Supreme Court has clarified that, in applying
Strickland, “[t]he question is whether an attorney’s representation amounted to incompetence
under ‘prevailing professional norms,’ not whether it deviated from best practices or most common
custom.” Harrington, 562 U.S. at 105 (citing Strickland, 466 U.S. at 690). The Harrington Court
went on to recognize the high level of deference owed to a state court’s findings under Strickland
in light of AEDPA standards of review:
The standards created by Strickland and § 2254(d) are both highly deferential, and
when the two apply in tandem, review is doubly so. The Strickland standard is a
general one, so the range of reasonable applications is substantial. Federal habeas
courts must guard against the danger of equating unreasonableness under Strickland
with unreasonableness under § 2254(d). When § 2254(d) applies, the question is
not whether counsel’s actions were reasonable. The question is whether there is
any reasonable argument that counsel satisfied Strickland’s deferential standard.
Id. at 105 (citations and quotation marks omitted).
Thus, scrutiny of counsel’s performance under § 2254(d) therefore is “doubly deferential.”
Cullen, 563 U.S. at 190 (quoting Knowles v. Mirzayance, 556 U.S. Ill, 112 (2009)). This Court
must therefore apply the “strong presumption” that counsel’s strategy and defense tactics fall
“within the wide range of reasonable professional assistance.” Strickland, 466 U.S. at 690; Moore
30

v. Johnson, 194 F.3d 586, 591 (5th Cir. 1999).
Federal habeas courts presume that trial strategy is objectively reasonable unless clearly
proven otherwise by the petitioner. Strickland, 466 U.S. at 689; Geiger v. Cain, 540 F.3d 303, 309
(5th Cir. 2008); Moore, 194 F.3d at 591. In assessing counsel’s performance, a federal habeas
court must make every effort to eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct, and to evaluate the conduct from counsel’s
perspective at the time of trial. Strickland, 466 U.S. at 689; Neal, 286 F.3d at 236-37; Clark v.
Johnson, 227 F.3d 273, 282-83 (5th Cir. 2000). Tactical decisions when supported by the
circumstances are objectively reasonable and do not amount to unconstitutionally deficient
performance. Lamb v. Johnson, 179 F.3d 352, 358 (5th Cir. 1999) (citing Rector v. Johnson, 120
F.3d 551, 564 (5th Cir. 1997) and Mann v. Scott, 41 F.3d 968, 983-84 (5th Cir. 1994)).
a. Object to Voir Dire
Duong first claims that his trial counsel was ineffective for failing to object to the
prosecution’s systematic exclusion of minorities during jury selection.
In Batson v. Kentucky, 476 U.S. 79 (1986), the Supreme Court held that purposeful racial
discrimination in the use of peremptory strikes of prospective jurors violates the Equal Protection
Clause. Batson, 476 U.S. at 89. In evaluating whether a petitioner has established a Batson
violation, a three-step analysis is employed, with the first step requiring a petitioner to make a
prima facie showing that a peremptory challenge has been exercised on the basis of race. Stevens
v. Epps, 618 F.3d 489, 492 (5th Cir. 2010).
In the instant matter, Duong has not demonstrated a prima facie case of racial
discrimination.

The minutes reflect that the prosecution exercised only five peremptory

31

challenges.45 While he claims that the State “systematically excluded minorities from the jury,”
he provides no evidence to support his unsupported allegation that the State misused its peremptory
strikes. Nor does he offer any evidence of the racial composition of the venire or the racial
composition of the final trial jury. He offers no reasons for his failure to do so here or in the state
courts. While there is no transcript of the voir dire from his trial, given there was no Batson
objection made during jury selection, the transcript simply would not assist in analyzing Duong’s
claim as it would not have revealed the race of the prospective jurors.
Duong has failed to provide even minimal evidence in support of his claim, either here or
in the state courts. Accordingly, Duong has clearly failed to satisfy his burden of proof to show
that his counsel failed to make what would have been a meritorious objection which would entitle
him to relief under Strickland. See Turner v. Epps, No. 07-77, 2010 WL 653880, at *7 (N.D. Miss.
Feb 19, 2010) (“As Petitioner cannot establish that any minority venire person was struck by the
State, much less that they were struck with a discriminatory intent, he cannot establish ineffective
assistance of counsel on this conclusory argument”); Bell v. Director, TDCJ-CID, No. 03-36,2005
WL 977771, at *6 (E.D. Tex. Nov. 2, 2005)(citations omitted) (Petitioner’s claim that a juror was
improperly struck “is a conclusory allegation ... insufficient to support a petition for a writ of
habeas corpus.”); Eastridge v. United States, 372 F.Supp.2d 26, 61 (D.D.C. May 26, 2005)
(“Petitioners cannot establish improper application of peremptory challenges because they present
no evidence of selective exclusion and cannot produce evidence of the racial composition of the

45St. Rec. Vol. 1 of 8, Trial Minutes, 3/10/13.
32

If

venire.”)- Therefore, the state courts’ denial of relief on this claim was not contrary to, or an
unreasonable application of Strickland. Duong is not entitled to relief on this claim.
b. Investigate and Prepare a Falsification/Actual Innocence Defense
Duong claims his counsel was ineffective when he failed to investigate the case. He
specifically claims that had counsel investigated, he would have learned that Nicole had a
boyfriend with whom she was sexually involved and that she had a history of running away from
home. He also claims his counsel failed to present a fabrication defense.
When a habeas petitioner alleges a failure of his counsel to investigate, he “must allege
with specificity what the investigation would have revealed and how it would have altered the
outcome of the trial. *

n

Moawad v. Anderson, 143 F.3d 942, 948 (5th Cir. 1998) (citation omitted).

In other words, a petitioner cannot show prejudice with respect to a claim that counsel failed to
investigate without adducing what the investigation would have shown. Diaz v. Quarterman, 239
F. App’x 886, 890 (5th Cir. 2007) (citing Strickland, 466 U.S. at 696, 104 S.Ct. 2052, in
recognizing that some evidence is required to show that “the decision reached would reasonably
likely have been different.”). Instead, to prevail on such a claim, the petitioner must provide factual
support as to what exculpatory evidence further investigation would have revealed. See Moawad,
143 F.3d at 948; see also Brown v. Dretke, 419 F.3d 365, 375 (5th Cir. 2005); Davis v. Cain, No.
07-6389, 2008 WL 5191912, at *10 (E.D. La. Dec. 11, 2008) (order adopting Report and
Recommendation). Duong has failed to establish that any further investigation was needed or that
the investigation would have uncovered exculpatory evidence as he contends.
Duong does not offer any evidence to support his claim that Nicole had a history of running
away or that she was sexually active. Further, any evidence of the victim’s sexual history would
33

not have been admissible under the circumstances of the case, and defense counsel had no legal
basis to present evidence of Nicole’s prior sexual conduct with other persons. See La. Code Evid.
Art. 412 (prohibiting evidence regarding the past sexual behavior of the victim in sexual assault
cases, except (1) when there is an issue of whether the accused was the source of semen or injury,
“provided that such evidence is limited to a period not to exceed seventy-two hours prior to the
time of the offense,” and (2) when the past sexual behavior is with the accused and there is an issue
of whether the victim consented to the charged sexually assaultive behavior.) Thus, Duong cannot
establish that counsel was deficient in any way nor that counsel’s failure to investigate the victim’s
history, including her past sexual history, prejudiced him at trial.
Duong also claims that his counsel erred in failing to put forth a fabrication defense in light
of the fact that he is actually innocent. A review of the record could not be farther from the truth.
The transcript is replete with efforts by Duong’s counsel to attempt to establish that the victims’
allegations were fabricated. It is clear from the record that counsel attempted to discredit the
allegations and testimony of the victims through cross-examinations in an effort to raise doubt
about the reliability of their testimony and in support of Duong’s claim of actual innocence.
Duong’s counsel utilized the testimony of each of the State’s witnesses on cross-examination,
along with the victims’ CAC interviews, to challenge the veracity of the accusations against
Duong. Duong’s counsel took great strides to point out the inconsistencies in the victims’
allegations. Further, Duong testified on his own behalf and vehemently denied the allegations..
Short of perhaps using the word “fabricated” or the phrase “actual innocence,” Duong’s counsel
did in fact present a fabrication/actual innocence defense. The testimony was presented to the jury,
who as the trier of fact, weighed and considered the testimony. The fact that the jury did not
34

believe the defense does not render counsel’s performance constitutionally deficient or prejudicial.
See Martinez v. Dretke, 99 F. App’x 538, 543 (5th Cir. 2004) (“Again, an unsuccessful strategy
does not necessarily indicate constitutionally deficient counsel”). “[I]t is all too easy for a court,
examining counsel’s defense after it has proved unsuccessful, to conclude that a particular act or
omission of counsel was unreasonable.” Strickland, 466 U.S. at 689 (citations omitted). Duong
has provided no basis to undermine the deference due his counsel’s trial tactics and strategy.
The state courts’ denial of relief on these issues was not contrary to or an unreasonable
application of Strickland. Duong is not entitled to relief on these claims.
B. Prosecutorial Misconduct
Duong claims that the State used its peremptory challenges to systematically eliminate
minorities from his jury. He also claims that the prosecution failed to disclose evidence that proved
Nicole ran away to be with her boyfriend as well as evidence that the family members did not
believe the victims ’ allegations against Duong and that their grand jury testimony was exculpatory
in nature. Duong also claims that the prosecutor threatened and coerced the witnesses to testify
against him at trial and knowingly presented false testimony.
1. Striking Minorities During Jury Selection
Duong claims that the prosecution utilized its peremptory challenges to eliminate
minorities from the jury. As outlined above in this Court’s review of Duong’s claim of ineffective
assistance of counsel for failing to object to the State’s use of peremptory challenges during jury
selection, Duong failed to demonstrate that the State struck any minority venire person let alone
that the State had any discriminatory intent in utilizing its peremptory challenges.

35

The state courts’ denial of relief on this issue was not contrary to or an unreasonable
application of United States Supreme Court precedent. Duong is not entitled to relief on this claim.
2. Suppression of Exculpatory Evidence
Duong claims that the prosecution suppressed exculpatory evidence that proved that Nicole
ran away to be with her boyfriend. Duong also claims that evidence was suppressed showing that
the victims’ family members did not believe the victims’ allegations against Duong and that the
grand jury testimony by the family was exculpatory in nature.
The Fifth Circuit found that Duong failed to provide evidence is support of his allegations
of prosecutorial misconduct, including any evidence that there were inconsistencies between the
grand jury and trial testimonies of the witnesses. 46

It further found that Duong failed to

demonstrate that the State suppressed any evidence in violation of Brady v. Maryland, 373 U.S.
83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963).47 This was the last reasoned opinion on the issue.
The United States Fifth Circuit Court of Appeals has applied the standards set in Brady v.
Maryland, 373 U.S. 83 (1963), to address a habeas petitioner’s claim that the State failed to
disclose potentially exculpatory or impeachment evidence of false or inconsistent statements by
refusing to produce grand jury transcripts. Castillo v. Johnson, 141 F.3d 218, 222 (5th Cir. 1998).
The Brady materiality determination is a mixed question of law arid fact. Cobb v. Thaler, 682 F.3d
364, 111 (5th Cir. 2012). Thus, the question before this court is whether the state courts’ denial
of relief was contrary to or an unreasonable application of United States Supreme Court precedent.

46St. Rec. Vol. 2 of 8, 5thCir. Order, 16-KH-187, p. 2, 4/28/16.
A1ld.
36

In Brady, the United States Supreme Court held “that the suppression by the prosecution
of evidence favorable to an accused upon request violates due process where the evidence is
material either to guilt or to punishment, irrespective of the good faith or bad faith of the
prosecution.” Brady, 373 U.S. at 87. The duty to disclose this kind of evidence exists even though
there has been no request by the defendant. Strickler v. Greene, 527 U.S; 263, 280 (1999) (citing
United States v. Agurs, 427 U.S. 97, 107 (1976)). The prosecution’s duty to disclose includes both
exculpatory and impeachment evidence. Strickler, 527 U.S. at 280 (citing United States v. Bagley,
473 U.S. 667, 676 (1985)).
Brady claims involve “the discovery after trial of information which had been known to
the prosecution but unknown to the defense.” Lawrence v. Lensing, 42 F.3d 255, 257 (5th Cir.
1994) (quoting Agurs, 427 U.S. at 103). Thus, “when information is fully available to a defendant
at the time of trial and his only reason for not obtaining and presenting the evidence to the Court
is his lack of reasonable diligence, the defendant has no Brady claim.” United States v. Brown,
628 F.2d 471, 473 (5th Cir. 1980); see Kutzner v. Cockrell, 303 F.3d 333, 336 (5th Cir. 2002)
(holding that Brady does not require prosecutors to furnish a defendant with exculpatory evidence
if that evidence is fully available to the defendant through an exercise of reasonable diligence);
Rector v. Johnson, 120 F.3d 551, 558-59 (5th Cir. 1997) (holding that the State has no duty to lead
the defense toward potentially exculpatory evidence if the defendant possesses the evidence or can
discover it through due diligence). Brady also does not place any burden upon the prosecution to
conduct a defendant's investigation or assist in the presentation of the defense’s case. United States
Marrero, 904 F.2d 251, 261 (5th Cir. 1990) (citations omitted).
To prove a Brady violation, a defendant must establish that the evidence is favorable to the
accused because it is exculpatory or impeachment, that the evidence was suppressed by the State,

37

VJ

and that prejudice resulted from the non-disclosure. Banks v. Dretke, 540 U.S. 668, 691 (2004)
(citing Strickler, 527 U.S. at 281-82). However, “[t]he prosecution is not obliged to disclose
impeachment evidence unless the evidence is ‘favorable to the accused.’ ” East v. Scott, 55 F.3d
996, 1005 (5th Cir. 1995).
Duong has not demonstrated that the State withheld exculpatory or impeachment evidence
in violation of his constitutional rights. He has not presented any proof from the record, by
affidavit or by other means, that the State had or withheld information about either victim’s history.
While he claims that “the grand jury testimonies of the State’s witnesses are drastically different
from their trial testimonies” and that “[t]he family told Duong that their personal testimonies were
exculpatory in nature”48, his allegations are not supported by any affidavits from the family
members. Rather, his allegations appear to be based upon his assumptions of what transpired
during of the grand jury proceedings.
Where, as here, a petitioner presents no evidence, whatsoever, in support of a contention
that Brady material was in fact withheld from the defense, his claim fails at the initial prong of the
Brady inquiry. Williams v. Cain, Nos. 06-0224 and 06-0344, 2009 WL 1269282, at *5 (E.D. La.
May 7, 2009), aff’d, 359 F. App’x 462 (5th Cir. 2009); Watson v. Cain, Civ. Action No. 06-613,
2007 WL 1455978, at *7 (E.D. La. May 17, 2007); Abron v. Cain, Civ. Action No. 05-876, 2006
WL 2849773, at * 10 (E.D. La. Oct. 3, 2006); Harris v. United States, 9 F.Supp.2d 246, 275
(S.D.N.Y. 1998) (“[T]he government does not bear the burden of establishing that documents were
not withheld; it is [petitioner’s] burden to prove that the government failed to disclose evidence
favorable to [him].”), ajfd, 216 F.3d 1072 (2nd Cir. 2000); see also United States v. Avellino, 136

48Rec. Doc. No. 4-2, p. 25.
38

F.3d 249, 261 (2nd Cir. 1998); Cruz v. Artuz, 97-GV-2508, 2002 WL 1359386, at * 14 (E.D.N.Y.
June 24, 2002).
Duong’s claim that the prosecution withheld favorable evidence is entirely lacking in
factual support. He has not demonstrated a violation of Brady or any constitutional provision
arising from the failure to provide him with a grand jury transcript. The state courts’ denial of
relief was not contrary to or an unreasonable application of Supreme Court law. Duong is not
entitled to relief on this claim.
3. Threatening Witnesses/Presentation of False Testimony
Duong claims that the prosecutor threatened the witnesses to testify against him.49 He
further claims the prosecution knowingly presented false testimony. In the last reasoned opinion
on the matter, the Fifth Circuit found that Duong failed to provide any evidence to support his
allegations.50
A state denies a defendant due process when it knowingly uses perjured testimony at trial
or allows untrue testimony to go uncorrected. Giglio v. United States, 405 U.S. 150, 766, 92 S.Ct.
763, 31 L.Ed.2d 104 (1972); Napue v. Illinois, 360 U.S. 264, 269, 79 S.Ct. 1173, 3 L.Ed.2d 1217
(1959); Faulder v. Johnson, 81 F.3d 515, 519 (5th Cir. 1996). In order to obtain relief, the
defendant must show that: (1) the testimony was actually false, (2) the State knew the testimony
was false, and (3) the testimony was material. Duncan v. Cockrell, 2003 WL 21545926, at *3, 70
F. App’x 741 (5th Cir. July 3, 2003); Kirkpatrick v. Whitley, 992 F.2d 491, 497 (5th Cir. 1993).
False testimony is “material” only if there is any reasonable likelihood that it could have affected

49Rec. Doc. No. 4-2, p. 25.
50 St. Rec. Vol. 2 of 8, 5th Cir. Order, 16-KH-187, p. 2,4/28/16.
39

the jury’s verdict. Duncan, 2003 WL 21545926, at *3, 70 F. App’x 741 (citing Nobles, 127 F.3d
at 415).
Here, it is clear Duong has not met his burden of proving these elements. He has failed to
establish that any of the witnesses’ testimony was actually false. At most, there is evidence that
portions of the victims’ testimony differed from the statements they made at the time of the
allegations 14 years earlier. However, courts have held that conflicting or inconsistent testimony
is insufficient to establish perjury. Kutzner v. Johnson, 242 F.3d 605, 609 (5th Cir. 2001) (citing
Koch v. Puckett, 907 F.2d 524, 531 (5th Cir. 1990)). Thus, merely because the victims’ testimony
at trial differed from their previous statements, does not establish that the testimony was actually
false. Furthermore, Duong’s counsel had the opportunity to question the victims at trial to
determine the veracity of their testimony.
As for his claim that the prosecutor coerced the witnesses to testify against him, Duong
does not explain which witnesses were allegedly threatened. Nor does Duong make any specific
allegations as to what the prosecutor allegedly said to the witnesses to coerce them to testify
against. Duong has not provided any support whatsoever for his allegations that the prosecution
actually threatened or coerced any witnesses. None of the witnesses testified at trial that they had
been coerced or threatened to testify against Duong. Duong has not provided affidavits from any
of the witnesses supporting a claim that they were threatened. Further, while the State presented
the testimony of Carl, Alice and Mary in its case-in-chief, none of the witnesses gave an opinion
regarding the truthfulness of the victims’ allegations. Duong simply has not established that any
threats were ever made and therefore fails to satisfy his burden of proof. Brooks v. Cain, Civ.
Action No. 05-3004, 2007 WL 2900291, at *7 (E.D. La. Sept. 27, 2007). .
40

The state courts’ denial of relief on these issues was not contrary to or an unreasonable
application of Supreme Court precedent. Duong is not entitled to relief on these issues.
VII.

CAC Videos Violated Sixth Amendment Right of Confrontation (Claim No. 3)
Doung claims his Sixth Amendment right to confrontation was denied when the Trial Court

admitted into evidence the CAC videos of Nicole and Janet without requiring strict compliance
with La. Rev. Stat. § 15:440 et seq. Duong claims that the State did not produce the interviewer
as a witness and that Detective Broussard did not “supervise” the interviews and therefore the CAC
videos were not admissible under state law.
The Fifth Circuit addressed the issue on direct appeal and found that the evidence was
sufficient to demonstrate that Detective Broussard was the supervisor of the CAC interviews
within the meaning of Louisiana law.51 Finding no violation of state law, the Fifth Circuit
concluded that there was no violation of the right to confrontation.52 The Louisiana. Supreme Court
denied writs without opinion.53
As the Court has already discussed, federal habeas corpus review is limited to questions of
federal constitutional dimension, and federal courts do not review alleged errors in the application
of state law. See Swarthout, 131 S.Ct. at 861. Any alleged impropriety based on state law does
not warrant federal habeas review or relief.
Duong’s federal law claim does not entitle him to relief as the admission of the CAC videos
did not violate Duong’s Sixth Amendment right to confrontation. In Crawford v. Washington, 541

Duong, 148 So.3d at 639-41; St. Rec. Vol. 6 of 8, 5th Cir. Opinion, 13-KA-763, 8/8/14.
52ld. at 641; St. Rec. Vol. 6 of 8, 5th Cir. Opinion, 13-KA-763, 8/8/14.
Duong, 168 So.3d at 395; St. Rec. Vol. 8 of 8, La. S. Ct. Order, 2014-KO-1883, 4/17/15
41

U.S. 36 (2004), the Supreme Court reiterated that the Sixth Amendment’s Confrontation Clause
gives the accused “[I]n all criminal prosecutions,... the right... to be confronted with the witnesses
against him.” Crawford, 541 U.S. at 59. The Supreme Court held that the Confrontation Clause
permits admission of “[tjestimonial statements of witnesses absent from trial ... only where the
declarant is unavailable, and only where the defendant has had a prior opportunity to crossexamine.” Id., at 53-54. Testimonial statements include “ex parte in-court testimony or its
functional equivalent—that is, material such as affidavits, custodial examinations, prior testimony
that the defendant was unable to cross-examine, or similar pretrial statements that declarants would
reasonably expect to be used prosecutorially.” Id., at 51; see Bullcoming v. New Mexico, 564 U.S.
647, 657-58, 131 S.Ct. 2705, 2713 (2011) (defendant has the right to cross-examine the person
who actually performed testing or examination of evidence); Melendez-Diaz v. Massachusetts,
557 U.S. 305, 310-11 (2009) (expert report is “functionally identical” to testimonial statement).
Whether a defendant’s confrontation right was violated is a mixed question of law and fact.
Fratta v. Quarterman, 536 F.3d 485, 499 (5th Cir. 2008); Horn v. Quarterman, 508 F.3d 306, 312
(5th Cir. 2007). Because Duong’s Confrontation Clause claim was adjudicated on the merits by
the state court, this federal court is “prohibited from granting habeas relief unless the state court's
decision (1) ‘was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court,’ or (2) ‘was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding.’ ”
Buckenberger v. Cain, 471 F. App’x 405, 406 (5th Cir. 2012) (quoting 28 U.S.C. § 2254(d)(1))
(citing Fratta, 536 F.3d at 499).

42

Crawford is premised on a defendant’s right to cross-examine. 541 U.S. at 53—54. No
violation of the Confrontation Clause occurs where the declarant testifies at trial and is subject to
cross-examination. United States v. Owens, 484 U.S. 554, 560 (1988); California v. Green, 399
U.S. 149 (1970); Carson v. Collins, 993 F.2d 461,464 (5th Cir. 1993), cert, denied, 510 U .S. 897
(1993). Duong had a full opportunity to cross-examine Nicole and Janet about the allegations of
sexual abuse and the assertions made to Gordon, the CAC forensic interviewer, in the videotaped
statements. As the Fifth Circuit has held, under these circumstances, “[t]he confrontation clause
requires no more.” Carson, 993 F.2d at 464.
Duong’s claim that his inability to cross-examine Gordon violated his right to confrontation
fares no better. Gordon simply questioned the victims during the interviews. Duong does not
now, and did not before the state courts, claim that Gordon made any testimonial statements during
the interviews. As there is no claim that Gordon’s questions were testimonial in nature, the
introduction into evidence of the videos of the interviews did not violate the confrontation clause.
United States v. Wolford, 386 F. App’x 479, 483 (5th Cir. 2010) (admission of portions of
interview transcript did not violate Sixth Amendment right to confrontation where reporter’s
questions did not speak the truth of any matter but rather gave context to defendant’s statements);
Stoll v. Key, Case No. 3:17-cv-05158-BHS-JRC, 2017 WL 4803909, at *13-14 (W.D. Wash. Aug.
31, 2017) (where videotape of interview of victim was admitted into evidence, unavailability of
detective who interviewed victim did not violate confrontation clause where defendant did not
claim detective’s questions were testimonial), report and recommendation adopted by, 2017 WL
4777012 (W.D. Wash. Oct. 23, 2017).

43

The denial of relief by the state courts was not contrary to or an unreasonable application
of federal constitutional precedent. Duong is not entitled to relief on this claim.
VIII. Failure to Grant a New Trial (Claim No. 4)
Duong claims the Trial Court erred in denying his motion for new trial based on the
references to his post-arrest exercise of his right to remain silent made during the trial.
During trial, and over defense counsel’s objection, the prosecutor questioned Detective
Broussard about his meeting with Duong following his extradition back to Jefferson Parish. The
following exchange occurred:
Q.

When you met with Mr. Duong, Detective, was he informed of his rights?

A.

He was advised of his rights, yes.

Q-

Did you do that?

A.

Yes, I did.

Q.

Did he indicate to you that he understood his rights?

A.

He understood his rights, yes.

Q.

Okay. Did he agree to give you a statement?

A.
No. After I told him that I wanted to talk - after I advised him of his rights,
I wanted to talk to him about the charges, he immediately told me that he and his
family had secured an attorney, Bruce Netterville. And he told me that his attorney
told - advised not to talk to me. I then stopped whatever I - I didn’t interview. I
didn’t ask him any more questions. And I left.54
During closing argument, the prosecutor referenced Detective Broussard’s interview of
Duong. The prosecutor stated:

54St. Rec. Vol. 5 of 8, Trial Transcript (con’t), pp. 283-285, 6/1 1/13.
44

What else did he do when he was on the run? Henry Tony; that’s his alias,
one of the aliases he sued. If he was so innocent, why use an alias? He didn’t talk
to a Lawyer. However, when he was arrested in Wyoming, when the police went
to go interview him at the jail here, he had a lawyer before they even got there. So
at some point, over the 13 years that he was gone, he did learn about the legal
system. Did he call anybody down here? Did he turn himself in? No., He stayed
on the run until he was caught. That’s what he did because he is guilty. That’s why
he fled.55
Defense counsel raised the issue of the references to Duong’s post-arrest exercise of his
right to remain silent in his supplemental motion for new trial, which the Trial Court denied56 The
issue was again raised on appeal and the Fifth Circuit found that the Trial Court clearly erred in
allowing the state to question Detective Broussard regarding Duong’s exercise of his right to
remain silent and that the error was compounded when the prosecution referenced it in closings.57
The Fifth Circuit, however, relying on Doyle v. Ohio, 426 U.S. 610, 96 S.Ct. 2240, 49 L.Ed. 91
(1976), found harmless error due to the “extraordinary strong” and “particularly overwhelming”
evidence.58 The Louisiana Supreme Court denied writs without stated reasons.59
In general, the prosecution is prohibited from using a defendant’s post-arrest silence as
incriminating evidence or for impeachment purposes. Doyle, 426 U.S. at 610. In Brecht v.
Abrahamson, 507 U.S. 619 (1993), the Supreme Court established the standard for determining
whether a Doyle error merits relief on collateral review. The Supreme Court held that a Doyleerror must be assessed in terms of its potential impact on the jury and that a Doyle error can be

5SSt. Rec. Vol. 7 of 8, Closing and Rebuttal Argument Transcript, pp. 10-11, 6/12/13.
56St. Rec. Vol. 1 of 8, Supplemental Motion for a New Trial, 6/18/13; Sentencing Minutes, 6/24/13.
51Duong, 148 So.3d at 626; St. Rec. Vol. 6 of 8, 5th Cir. Opinion, 13-KA-763, p. 32, 35-36, 8/8/14.
58«., at 643-44; St. Rec. Vol. 6 of 8, 5th Cir. Opinion, 13-KA-763, pp. 33-36, 8/8/14.
Duong, 168 So.3d at 395; St. Rec. Vol. 8 of 8, La. S. Ct. Order, 2014-KO-1883, 4/17/15.
45

considered harmless. Id. at 638. An error is harmless when the evidence of the defendant’s guilt
is overwhelming. Taylor v. Cain, 545 F.3d 327, 336 (5th Cir. 2008).
In Brecht, because the prosecution had referred to the defendant’s silence only
infrequently, and because the other evidence of guilt was substantial, the Court concluded that the
Doyle error did not substantially influence the jury’s verdict and that federal habeas corpus relief
was not warranted. Id. at 639.
In United States v. Carter, 953 F.2d 1449 (5th Cir. 1992), the Fifth Circuit considered the
effect of comments by a prosecutor and arresting officer that the defendant would not make any
statements. The court held that although such remarks constituted a Doyle error, the error was
harmless. The court reasoned that the potential for prejudice was insufficient to warrant reversal
because “the prosecutor did not focus or follow up on the response. Indeed, since [the defendant]
had not at that point of the trial offered any exculpatory story, the evidence could have had only a
minor effect as slight substantive evidence or remote impeachment-in-advance.” Id. at 1463. Even
though the error was compounded by the prosecutor’s later impeachment of the defendant with his
silence and by a comment on the defendant’s silence during closing argument, the court
nonetheless held that the error was harmless. Id. at 1465-67.
Insofar that Detective Broussard’s challenge testimony and the prosecutor’s comment
made during closing argument regarding Duong’s post-arrest silence violated Doyle, the errors
were harmless. There was overwhelming evidence of Duong’s guilt including (1) the detailed
recorded statements of the victims taken at the time of the initial allegations; (2) the testimony of
Janet and Nicole who both identified Duong as the perpetrator and recalled the incidences; (3) the
medical evidence relating to the examination of Nicole which was consistent with blunt force
46

trauma to her hymen; (4) Dr. Benton’s testimony that Nicole’s injury was consistent with rape; (5)
the testimony of a representative from Duong’s former employer that Duong resigned his position
and cashed out his retirement savings around the time of the allegations; and (6) family members’
testimony corroborating the circumstances surrounding the victims’ disclosure of the sexual abuse
and Duong’s actions taken thereafter, including that Duong fled the state and lived in a number of
states under an alias. Based on the evidence presented at trial, it cannot be said that the reference
to Duong’s exercise of his right to remain silent had a substantial and injurious effect or influence
in determining the jury’s verdict.
The denial of relief by the state courts was not contrary to or an unreasonable application
of federal constitutional precedent. Duong is not entitled to relief on his claims that the Trial Court
erred in denying his motions for new trial.
IX.

Denial of Motion for Mistrial
Duong’s final claim is that the Trial Court erred in denying his motion for mistrial based

on the prosecutor’s improper reference to “other crimes” his during rebuttal argument.
The record reflects that during rebuttal, the prosecutor, in referring to Mary Duong’s
testimony, stated:
She couldn’t even - “Him, him,” is what she said because he’s had many victims
in his life, more than just two girls.60
Defense counsel objected and the following bench conference was held:
MR. NETTERVILLE:
Now, he’s intimating that there are other victims in this case.

60St. Rec. Vol. 7 of 8, Closing and Rebuttal Argument Transcript, p. 31,6/12/13.
47

MR. HUFF:
There are.
MR. NETTERVILLE:
There are no - Wait.
MR. HUFF:
No, Fm going to explain it.
MR. NETTERVILLE:
Come on. No. That’s THE COURT:
Well, I’ll have him verify.
MR. HUFF:
Okay.
MR. NETTERVILLE:
That’s -1 want some sort of limited instruction. This -61
The bench conference ended and the prosecutor resumed with his argument:
MR. HUFF:
There are multiple victims in this case. And no, Mr. Netterville, I’m not
talking about physical victims; I’m talking about victims of suffering, victims of
emotional abuse. There are only two women in this room that we know of that he
has physically abused.62

61 Id., at pp. 31-32.
62W.,atp. 32.
48

Defense counsel again objected, the Trial Court sustained the objection, and a bench
conference was held during which defense counsel argued that the prosecution’s comments left
the impression that there were other potential victims and moved for a mistrial based on the
prosecution’s reference.63 The Trial Court denied the motion and advised that it would instruct
the jury that there was no evidence of other victims and to disregard the prosecutor’s comment.64
The Trial Court then instructed the jury:
Ladies and gentlemen, let me just say this. The Prosecutor said that there
are no other victims that we know of. You are to disregard that remark. Do you
understand? Okay.65
The prosecutor then proceeded to clarify to the jury that Doung’s wife and the Nicole and Janet’s
parents were the other victims he was speaking of and that they were left with the guilt of knowing
they left Nicole and Janet in harm’s way. 66
When the issue was raised on direct appeal, the Fifth Circuit, relying on Louisiana law,
found that the prosecutor’s comment was not a reference to “other crimes” but rather “misspoken
words regarding defendant’s emotional victimization of the family that were corrected.”67 The
Fifth Circuit further found that the comments did not contribute to the verdict and that the denial

63«„ at pp. 32-36.
MId„ at p. 37.
65Id„ at p. 38.
66M., at p. 39.
67Duong, 148 So.3d at 646; St. Rec. Vol. 6 of 8, 5th Cir. Opinion, 13-KA-763, pp. 36-33, 8/8/14.
49

of the motion for new trial was not an abuse of discretion under Louisiana law.68 The Louisiana
Supreme Court also denied relief without added reasons.69
As an initial matter, Duong’s arguments that the Trial Court erred in failing to grant a
mistrial under state law do not involve consideration of any questions of federal or constitutional
law, and review of such claims is not proper on habeas review. See Lavemia v. Lynaugh, 845 F.2d
493, 496 (5th Cir. 1988) (the failure to grant a mistrial is a matter of state law and not one of a
constitutional dimension); Haygood v. Quarterman, 239 F. App’x 39, 42 (5th Cir. Jun.14, 2007)
(state court’s denial of a motion for a new trial does not necessarily constitute a violation of a
federal constitutional right) (citing Dickerson v. Guste, 932 F.2d 1142,1145 (5th Cir. 1991). Thus,
even the misapplication of state law in denying the motion for mistrial would not entitled Duong
to relief. Thomas v. Ieyoub, No. 93-3757, 1994 WL 286198, at *2 (5th Cir. June 22, 1994)
(“[E]rrors of state law, such as a denial of a mistrial, must rise to a constitutional dimension in
order to merit habeas relief.”); Smith v. Whitley, No. 93-03208, 1994 WL 83777, at *1 (5th Cir.
Mar. 3, 1994) (“Even if the court’s refusal to declare a mistrial was a violation of Louisiana law,
we, as a federal habeas court, are without authority to correct a simple misapplication of state law;
we may intervene only to correct errors of constitutional significance.”); Dickerson v. Guste, 932
F.2d 1142, 1145 (5th Cir. 1991) (petitioner’s claim that the state courts violated state law in
denying his motion for new trial provided no basis for federal habeas relief absent the showing of

68W„ at 644-47; St. Rec. Vol. Vol. 6 of 8, 5th Cir. Opinion, I3-KA-763, pp. 38-40, 8/8/14.
69Duong, 168 So.3d at 395; St. Rec. Vol. 8 of 8, La. S. Ct. Opinion, 2014-KO-1883, 4/17/15.
50

an independent violation of a federal constitutional right). Any alleged impropriety based on state
law does not warrant federal habeas review or relief.
A state court’s denial of a motion for mistrial will trigger federal habeas corpus relief only
if it was “ ‘error ... so extreme that it constitutes a denial of fundamental fairness under the Due
Process Clause.’ ” Hernandez v. Dretke, 125 F. App’x 528, 529 (5th Cir. 2005) (quoting Bridge
v. Lynaugh, 838 F.2d 770, 772 (5th Cir. 1988)). In order to receive federal habeas relief, Duong
must show that “the trial court’s error had a ‘substantial and injurious effect or influence in
determining the jury’s verdict.’ ” Hernandez, 125 F. App’x at 529 (citing Brecht, 507 U.S. at 623).
Duong must show that “there is more than a mere reasonable possibility that [the ruling]
contributed to the verdict. It must have had a substantial effect or influence in determining the
verdict.” Woods v. Johnson, 75 F.3d 1017, 1026 (5th Cir. 1996).
The question of fundamental fairness at trial under the Due Process Clause presents a
mixed question of law and fact. Wilkerson v. Cain, 233 F.3d 886, 890 (5th Cir. 2000); see
Livingston v. Johnson, 107 F.3d 297, 309 (5th Cir. 1997) (whether evidence is admitted or
excluded contrary to the Due Process Clause also is a mixed question of law and fact). The court
must determine whether the denial of relief by the state courts was contrary to or an unreasonable
application of federal law.
The record demonstrates that the state courts’ denial of Duong’s motion did not constitute
a denial of his due process rights, and that the denial had neither a substantial nor an injurious
effect in determining the jury’s verdict. Under federal law, “it ‘is not enough that the prosecutor[‘s]
remarks were undesirable or even universally condemned.’ ” Darden v. Wainwright, All U.S. 168,
181, 106 S.Ct. 2464, 91 L.Ed.2d 144 (1986) (quoting Darden v. Wainwright, 669 F.2d 1031, 1036
51

(8th Cir. 1983)). Instead, a petitioner must establish that the prosecutor’s argument or comments
“so infected the trial with unfairness as to make the resulting conviction a denial of due process.”
Darden v. Wainwright, 477 U.S. 168, 181 (1986); Bell v. Lynaugh, 828 F.2d 1085, 1095 (5th Cir.
1987). The prosecutor’s remarks must be evaluated in the context of the entire trial. Greer v.
Miller, 483 U.S. 756, 765-66 (1987) (citing Darden, All U.S. at 179); Kirkpatrick v. Blackburn,
111 F.2d 272,281 (5th Cir. 1985). To obtain federal habeas relief based on allegations of improper
prosecutorial comment or argument, a petitioner “must demonstrate that the misconduct [was]
persistent and pronounced or that the evidence of guilt was so insubstantial that the conviction
would not have occurred but for the improper remarks.” Jones v. Butler, 864 F.2d 48, 356 (5th
Cir. 1988); Hogue v. Scott, 874 F.Supp. 1486, 1533 (N.D.Tex.1994).
The Trial Court admonished the jury to ignore the comment by prosecutor that there were
are no other victims “that we know of.” The Trial Court also instructed the jury that the statements
of the attorneys was not evidence.70 The prosecutor clarified that his argument that there were
“other victims” related to the emotional suffering of the victims’ parents and aunt as a result of
Duong’s sexual abuse of Nicole and Janet. Even if the comments at issue were improper, they
were brief and were not egregious. Further, there is no evidence that they were made in bad faith
in a deliberate attempt to taint the proceedings or prejudice the jury. Additionally, when the
comments are considered in context of the entire trial, it cannot be reasonably said that they played
a significant factor in the jury’s verdict, especially considering the jury instructions and the
overwhelming evidence of guilt admitted at trial.

70St. Rec. Vol. 1 of 8, Closing Jury Instructions, p. 5, 6/12/13.
52

Duong has not established a due process violation resulting from the denial of the motion
for mistrial based on the prosecutor’s comments during rebuttal argument. The denial of relief on
this issue by the state courts was not contrary to or an unreasonable application of Supreme Court
law. He is not entitled to federal habeas corpus relief.
X.

Recommendation
For the foregoing reasons, it is RECOMMENDED that Duong’s petition for the issuance

of a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 be DISMISSED WITH
PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by
the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. Douglass v. UnitedServs. Auto. Ass’n, 79 F.3d 1415,1430 (5th Cir.
1996).71
New Orleans, Louisiana, this 21st day of September, 2018.

KAREN WELLS R0BY j
CHIEF UNITED STATES MAGISTRATE JUDGE

71 Douglass referenced the previously applicable ten-day period for the filing of objections. Effective
December 1, 2009, 28 U.S.C. § 636(b)(1) was amended to extend the period to fourteen days.
53

dp j^ujrreme drurf x&
STATE EX REL. HAI A. DUONG
NO.

2016-KH-1018

VS.
STATE OF LOUISIANA

IN RE: Hai A. Duong; - Plaintiff; Applying For Supervisory and/or'
Remedial Writ^, Parish of Jefferson,
24th Judicial District Court
Div. K, No.. 12-1285; to the Court of Appeal, Fifth Circuit, No.
16-KH-187 ;

August 4, 2017
Denied. See per curiam.
MRC
JLW
GGG
JDH'
SJC
JTG

4C

Supreme Court of Louisiana
August 4,2017

$hiitmj (L' $yjAAA/y'
Clerk of Court
For the Court

APPENDIX

D

SUPREME COURT OF LOUISIANA
No. 16-KH-1018
STATE EX REL. HAI A. DUONG

AUG 0,4 2017

v.

STATE OF LOUISIANA
ON SUPERVISORY WRITS TO THE TWENTY-FOURTH
JUDICIAL DISTRICT COURT, PARISH OF JEFFERSON

ftV/Zc PER CURIAM:
Denied. Relator fails to show he received ineffective assistance of counsel
under the standard of Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80
L.Ed.2d 674(1984).
Relator has now fully litigated his application for post-conviction relief in
state court. Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana post­
conviction procedure envisions the filing of a second or successive application
t

only under the narrow circumstances provided in La.C.Cr.P. art. 930.4 and within
the limitations period as set out in La.C.Cr.P. art. 930.8. Notably, the legislature in
2013 La. Acts 251 amended that article to make the procedural bars against
successive filings mandatory. Relator’s claims have now been fully litigated in
accord with La.C.Cr.P. art. 930.6, and this denial is final. Hereafter, unless he can
show that one of the narrow exceptions authorizing the filing of a successive
application applies, relator has exhausted his right to state collateral review. The
district court is ordered to record a minute entry consistent with this per curiam.

B>5.3\

HA rr[ff:

Ajyrjfh:: ry

No. 15-KH-662
COURT OF APPEAL, FIFTH CIRCUIT
STATE OF LOUISIANA
r'

• f-*v f

OCTOBER 26, 2015

/r. / '
A

Deputy Clerk

/
! ;

JiAl A DUONG
VERSUS
N. BURL CAIN, WARDEN, LOUISIANA STATE PENITENTIARY
IN RE HAI A DUONG
SUPERVISORY WRIT FROM THE TWENTY-FOUR TH JUDICIAL DISTRICT COURT, PARISH OF
^KtE OF LOUISIANA, DIRECTED TO THE HONORABLE ELLEN SHIRER KOVACH. DIVISION "K".
NUMBER 12-1285
Attorneys for Relator:
Hai A Di ong £613130
Louisian;: Slate Penitentiary
Angola. LA 70712
Attorne vs for Respondent:
Terry M. Boudreaux
Assistant District Attorney
200 Dert ignv Street
Gretna, LA 70053
(504) 368-1020

WRIT DENIED
(SEE ATTACHED DISPOSITION)
Gretna,-Louisiana, this f ^

APPENDIX

E

f'v-

day of December, 2015.

HAIA DUONG

NO. 15-KH-662

VERSUS

FIFTH CIRCUIT

N. BURL CAIN, WARDEN, LOUISIANA
STATE PENITENTIARY.

COURT OF APPEAL
STATE OF LOUISIANA

WRIT DENIED
Relator, Hai A Duong, seeks this Court’s supervisory review of the trial
court’s September 21, 2015 ruling that denied his motion for documents in support
cf his application for post-conviction relief, motion for appointment of counsel,
aind motion for evidentiary hearing. Relator filed these motions in conjunction
with his application for post-conviction relief. The trial court’s ruling ordered the
State to respond to relator’s application with procedural objections, but denied the
accompanying motions as stated above.
In this writ application, relator argues that these denials have deprived him
of his rights to due process and equal protection. The trial court found that
rdator’s application for post-conviction relief failed to show particularized need
Ur the documents such that they should be furnished to him free of charge. The
ruling directs relator to seek the various documents from their custodians.
Relator’s request for the grand jury transcripts was denied. Relator’s motions for
appointment of counsel and evidentiary hearing were denied “at this time.”
On the showing made, we see no error in the trial court’s rulings. Relator
fails to show that he has been denied due process or equal protection. We find no
error in the trial court’s conclusion that relator is not entitled to the grand jury
transcripts. Relator’s application only makes conclusory allegations regarding
alleged inconsistencies in the grand jury testimony with trial testimonies and thus
flails to provide any factual support that he has met an exception for the disclosure
of the grand jury transcripts under La. C.Cr.P. art. 434, et seq. Further, relator has
failed to show particularized need for the other requested documents such that they
s iould be furnished free of charge. Accordingly, this writ application is denied.
Gretna, Louisiana, this

\

day of December, 2015.

7
JUDGE JUDE G. GRAVOIS
/ //./)

is - /..

I

JUDGE MARCfltf. JOHNSON
x) /\ t""V

JUDGE ROBERT A. CHAISSON

GRETNA
DEC 12 2015

HAI A. DUONG

NO. 16-KH-187

VERSUS

FIFTH CIRCUIT

DARREL VANNOY, WARDEN, LOUISIANA
STATE PENITENTIARY

COURT OF APPEAL
STATE OF LOUISIANA

April 28, 2016
Susan Buchholz
First Deputy Clerk

‘‘CONFIDENTIAL**
LSA-RS 46:1844(W)
ATTORNEYS OK RECORD
ONLY

IN RE HAI A. DUONG
APPLYING FOR SUPERVISORY WRIT FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT,
PARISH OF JEFFERSON, STATE OF LOUISIANA, DIRECTED TO THE HONORABLE ELLEN SHIRER
KOVACH, DIVISION "K", NUMBER 12-1285

Panel composed of Judges Stephen J. Windhorst,
Jude G. Gravois, and Hans J. Liljeberg

WRIT DENIED
Relator, Hai A. Duong, seeks review of the trial court’s denial of his
application for post-conviction relief (APCR) and request for documentation and
discovery.
Relator contends that the trial court erred in summarily denying his APCR.
La. C.Cr.P. art. 929 provides that if the trial court determines that the factual and
legal issues can be resolved based on the APCR, answer, and supporting
documents, the court may grant or deny relief without further proceedings. Relator
failed to show that the trial court erred in summarily denying his APCR based on
his APCR, the State’s response, and exhibits.
Claim one:
Relator contends that trial counsel was ineffective. He argues that the
charges were false and counsel failed to investigate the nature of the allegations,
failed to present a plausible defense, failed to object during voir dire when the
State systematically excluded minorities from the jury without race neutral reasons,
and failed to investigate circumstances surrounding the alleged incidents. Relator
also requested copies of the transcripts and documents, including minute entries to
support his APCR.
To the extent relator is seeking to challenge the trial court’s denial of his
request for production of documents, relator’s request is repetitive. This Court
previously considered and denied relator’s challenge to the trial court’s denial of
his motion for production of documents and for D.A. files. See Duong v. Cain. 15662 (La. App. 5 Cir. 12/17/15) (unpublished writ disposition).

To prove ineffective assistance of counsel, a defendant must show that
counsel’s performance was deficient and that the deficient performance prejudiced
the defense. Strickland v Washington. 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed. 2d
674 (1984). Relator failed to demonstrate how the trial court erred in finding that
his allegations were conclusory and without merit. Relator provided only
speculative and conclusory allegations to support his claim. Relator failed to
provide specific facts and evidence to show that counsel was ineffective. Thus, on
the showing made, relator did not show that counsel’s performance was deficient
or that he was prejudiced by counsel’s performance.
Claim two'.
Relator contends that his trial was fundamentally unfair because of
prosecutorial misconduct. Relator argues that the State systematically excluded
minorities from the jury without race neutral reasons, the State suppressed
information revealing that one of the victims ran away from home with her
boyfriend, the State infringed on his right to present a “fabrication defense,” the
State suppressed that fact that the family of the alleged victims did not believe the
victims, the State threatened the family of the victims to testify against relator, the
State suppressed information about one of the victim’s truancy, and the grand jury
testimonies of the State’s witnesses were different from their testimonies at trial.
Relator further contends that he was not granted any of his documents to support
his “factual and meritorious claims.” He specifically requested the grand jury
transcript of every witness, pretrial hearing transcripts with any and all motions
filed by defense counsel and the State, transcripts of voir dire examination, the trial
court’s rulings on the post-trial motions, the entire trial transcript, and the
sentencing transcript. Relator claims he was denied equal protection and due
process when the trial court denied his request for documentation and discovery
which prevented him from proving his claim of prosecutorial misconduct.
To the extent relator is again challenging the trial court’s denial of his
request for production of documents and discovery, this claim is repetitive. The
trial court did not err in denying this request. See Duong, supra.
Relator failed to provide specific facts or evidence that there were
inconsistencies between the grand jury and trial testimonies of the witnesses, as
well as the alleged suppressed evidence concerning one of the victims. Relator
also failed to demonstrate that the State suppressed information concerning the
victim’s prior history in violation of Brady v. Maryland, 373 U.S. 83, 83 S.Ct.
1194, 10 L.Ed.2d 215 (1963). We further find that the trial court did not err in
finding that, as the State pointed out in response, the appellate record reveals that
the voir dire was not transcribed. Relator failed to provide any evidence to support
this allegation. Therefore, on the showing made, relator failed to provide evidence
in support of his allegation of prosecutorial misconduct.
Accordingly, this writ application is denied.
Gretna, Louisiana, this 28th day of April, 2016.
SJW
JGG
HJL

A TRUE COPY
-2-

GRETNA
APR 1 8 2016

ii

TOFAPP

(FIFTH CIRCUIT

i

NO. 12-1285

TWENTY FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON
STATE OF LOUISIANA
DIVISION “K”

Received

STATE OF LOUISIANA

SEP 2 8 2015

VERSUS

legal Programs Department

receded
SEP 2 8 2015

.

W.F.P.S.O.

HAI DUONG

Filed:-Sg,pj~ , Q\. QO\p

'^\ l\) Pa
DEPUTY CLERK $

ORDER
This matter comes before the court on Petitioner’s APPLICATION FOR POSTCONVICTION RELIEF, MOTION FOR APPOINTMENT OF COUNSEL, MOTION TO
Compel answer, motion for evidentiary hearing, motion for
PRODUCTION OF DOCUMENTS. MOTION FOR THE PRODUCTION OF THE
District attorney’s files, all stamped as filed august 28,2015.
On June 12. 2012, Petitioner was convicted of the following:
Count #1 - LSA-R.S. 14:42, aggravated rape, and was sentenced to life imprisonment at
hard labor.
Count #2 - LSA-R.S. 14:(27)42, attempted aggravated rape, and was sentenced to 50 years
imprisonment at hard labor.
Count #3 - LSA-R.S. 14:81.2, molestation of a juvenile, and was sentenced to 15 years
imprisonment at hard labor.
Count #4 - LSA-R.S. 14:81.2, molestation of a juvenile, and was sentenced to 15 years
imprisonment at hard labor.
Count #5 - LSA-R.S. 14:43.4, aggravated oral sexual battery, and was sentenced to 10 years
imprisonment at hard labor.
All sentences were ordered to run concurrently. His convictions were affirmed on appeal.
Stale v.Duong, 13-KA-763 (La. App. 5 Cir. 8/8/14) 148 So.3d 623, writ denied. 2014-KO1883 (La. 4/17/15), 168 So. 3d 395.
Petitioner now files an application for post-conviction relief, alleging the following

claims:

1. Ineffective assistance of counsel.
2. Prosecutorial misconduct.
Post-conviction relief law requires that if an application alleges a claim which, if proven,
would, entitle petitioner to relief, the court shall order the district attorney to file any procedural
objections, or an answer on the merits if there are no procedural objections, within 30 days.
ISA-C.Cr.P. art. 927. A district court may grant a summary disposition on an application for
post conviction relief only after the required answer by the state has been filed. LSA-C.Cr.P. art.
For these reasons, it is the order of this court that the State file a response raising what
ever procedural objections it may have, or if no procedural objections, an answer on the merits to
petitioner’s allegations.
As to Petitioner’s request for trial records, this request should be directed to the Clerk of
Court for Jefferson Parish (200 Derbigny St., Gretna, LA 70053). As the custodian of the court
ideord, the Clerk oi Court is the only office able to produce true and certified copies of the above
re quested information.
Petitioner requests a transcript of the grand jury testimony. Unlike other transcripts that
°.th? 8rand -|ary 1S statutorily secret, and is not to be made available for review. Members of the
g and jury, all other persons present at a grand jury meeting, and all persons bavins confidential
access to information concerning grand jury proceedings; shall keep secret the "testimony of
w itnesses and a other matters occurring at, or directly connected with, a meeting of the grand
jd iy. LSA-C.Ci.I . Art. 434. He is not entitled to this transcript.
- , Petitionei' als° ^quests various pre-trial and trial transcripts. Petitioner is not entitled to
nifen
T‘P ^eqUESt" f01' 311 transcriPts which are not Boykin transcripts require that the
3sh torcomb tl PartlCl‘L7,Zed need'” Particularized need is more than a mere statement of a
w|i to comb the lecoid for errors or a general statement that a right has been violated. The

APPENDIX

F

(eCt

w

1

defendant must be able to point to a particular interchange recorded in the transcript and allege
•tl)e interchange is the grounds for his challenge and the challenge must not be mere harmless
efror, but must be an error of constitutional proportions. Stale ex vet. Payton v. Thiel. 315 So.2d
4D (La. 1975).
|
In State ex ret. Bernard v. Criminal Dist. Court Section,/., 653 So.2d 1174, 94-2247 (La.
4(28/95), the Supreme Court of Louisiana held that an indigent inmate cannot make a showing of
particularized need absent a properly filed application for post-conviction relief which sets forth
the specific claims of constitutional errors which required the requested documentation for
support. The Petitioner has in fact filed an application for post-conviction relief in this case.
However, the Petitioner has made not made a sufficient showing of particular need, and the court
fibds that he is not entitled to relief.
Petitioner seeks review of records from the District Attorney. If the Petitioner wishes to
obtain documents from the District Attorney, the defendant should direct his requests to the
custodian of these records, pursuant to the Public Records Act. (LSA-R.S. 44:1 ct seq.). 11c
should write a letter, containing his specific document requests, to District Attorney, 200
Derbigny St., Gretna, LA 70053.
I
It should be noted that the District Attorney is not required to provide defendant with free
copies of its public records. Foxier v. Kemp, 657 So.2d 681 (La. App. 1st Cir., 1995). Instead,
tl ese records are available to the defendant at a cost of per page. Additionally, the District
Attorney’s office is not required to bear the cost of mailing document. Defendant should send a
friend or family member to the District Attorney’s office to pay for and obtain the records for

hjm.

|
If a request for public records is denied by the custodian, the defendant may institute civil
proceedings for a writ of mandamus at the trial court level. State ex rel. McKnight, 742 So.2d
894 (La. App. 1 Cir. 12/3/98). See La.R.S. 44:35(A).
The court notes that Petitioner has requested appointment of counsel and an evidentiary
hearing. I he court finds that Petitioner is not entitled to appointed counsel or an evidentiary

hearing at this time.
Accordingly,
IT IS ORDERED BY THE COURT that the State file a response within 30 days raising
whatever procedural objections it may have, or if no procedural objections, an answer within 30
days on the merits.
IT IS FURTHER ORDERED BY THE COURT that Petitioner’s Motion for
Appointment of Counsel is hereby DENIED,
IT IS FURTHER ORDERED BY THE COURT that Petitioner’s Motion for
Evidentiary Hearing is hereby DENIED.
:
IT IS FURTHER ORDERED BY THE COURT that Petitioner’s Motion for
Production of Documents is hereby DENIED.
j

|
IT IS FURTHER ORDERED BY THE COURT that Petitioner’s Motion for
Production of D.A. Files is hereby DENIED,
Gretna, Louisiana this cJIfl'j'

JUDGE
PLEASE SERVE:
^v^D^fendant: I-Iai Duong, DOC #613130, Louisiana State Penitentiary, Angola, LA~70712

Tdirry Boudreux, District Attorney’s Office, 200 Derbigny St, Gretna, LA 70053

!

'WFip>!HHfcOKJUINAl
i

'4TB«

f'D!"'

Wcp^wpTtmt (SLnnti nf ilgg^fafe cf Joumana
STATE OF LOUISIANA
NO.

2014-KO-1883

VS.
HAI A. DUONG

(
IN RE: Duong, Hai A.; - Defendant; Applying For Writ of Certiorari
and/or Review, Parish'of Jefferson, 24th Judicial District Court
Div. K, No. 12-1285; to the Court of Appeal, Fifth Circuit, No.
13-KA-7 63; '

April 17, 2015
Denied.
GGG
BJJ
JTK
JLW
MRC
JDH
SJC

tt

Supreme Court•of Louisiana
April/, 17,2015

l[/
Deputy

Clerk of our
For the Court

APPENDIX

G

<

STATE OF LOUISIANA

NO. 13-KA-763

VERSUS

FIFTH CIRCUIT

HAI A. DUONG

COURT OF APPEAL
STATE OF LOUISIANA

ON APPEAL FROM THE TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON, STATE OF LOUISIANA
NO. 12-1285, DIVISION “K”
HONORABLE ELLEN S. KOVACH, JUDGE PRESIDING

!I
i

August 8, 2014

!

FREDERICKA HOMBERG WICKER
JUDGE
Panel composed of Judges Fredericka Homberg Wicker, Marc E. Johnson, and
Robert A. Chaisson

PAUL D. CONNICK, JR.
DISTRICT ATTORNEY
Twenty-Fourth Judicial District
Parish of Jefferson
TERRY M. BOUDREAUX
JULIET L. CLARK
ASSISTANT DISTRICT ATTORNEYS
200 Derbigny Street
Gretna, Louisiana 70053
COUNSEL FOR PLAINTIFF/APPELLEE
| BRUCE G. WHITTAKER
|
ATTORNEY AT LAW
I
Louisiana Appellate Project
P. O. Box 791984
New Orleans, Louisiana 70179-1984
COUNSEL FOR DEFENDANT/APPELLANT

AFFIRMED; REMANDED WITH INSTRUCTIONS
I

f

APPENDIX

H

Defendant, Hai A. Duong, appeals his convictions for aggravated rape
against N.T., attempted aggravated rape against J.T., molestation of a juvenile
against both N.T. and J.T., and aggravated oral sexual battery against J.T.
Defendant raises three assignments of error, two of which we find lack merit.
Defendant, however, in his second assignment of error claims that the trial judge
erred in denying his motion for a new trial on the ground that the prosecuting
attorney improperly questioned a state witness regarding defendant’s post-arrest
silence during trial in violation of Doyle v. Ohio, 426 U.S. 610, 96 S.Ct. 2240, 49
L.Ed.2d 91 (1976). For the reasons which follow, we find that the prosecutor’s
reference to defendant’s post-arrest silence was clearly improper and that the trial
court clearly erred in ruling that the prosecutor could query the investigating
officer regarding defendant’s post-arrest silence. Furthermore, we find that the
prosecutor compounded this clear violation by referring to defendant’s silence in
his rebuttal closing argument. However, in the context of this particular trial, these
errors do not warrant reversal. Accordingly, we affirm defendant’s convictions
and sentences. We remand this matter with instructions for the trial court to notify

-2-

no

defendant of his sex-offender notification requirements and correct defendant’s
uniform commitment order.
PROCEDURAL HISTORY
On June 21, 2012, a grand jury indicted defendant on five counts: counts one
and two charged defendant with committing aggravated rape in violation of La.
R.S. 14:42; counts three and four charged defendant with committing molestation
of a juvenile in violation of La. R.S. 14:81.2; and count five charged defendant
with committing aggravated oral sexual battery in violation of La. R.S. 14:43.4.'
At his arraignment on July 18, 2012, defendant pled not guilty. On August
16, 2012, the trial court granted defendant’s motion for a copy of the video
recordings of the victim interviews at the Children’s Advocacy Center (“CAC”).
This grant was subject to a protective order. On June 10, 2013, a jury was
selected. Trial continued through June 11 and 12, 2013, concluding on June 12,
2013, when the jury returned a verdict finding defendant guilty as charged on
counts one, three, four and five. On count two, the jury found defendant guilty of a
lesser charge, attempted aggravated rape. On the first day of trial, the trial court
granted the state s motion for a second interpreter during instances in which a
witness, in addition to defendant, did not speak English fluently. On the second
day of trial, the trial court overruled defendant’s objection to the admission of the
victims’ CAC video interviews.
On June 17, 2013, defendant filed a motion for new trial, supplementing the
motion on June 18, 2013. On June 24, 2013, the motion for new trial was heard,
then denied. After defendant waived sentencing delays, the trial court sentenced
defendant to imprisonment terms of: life in prison on count one; 50 years on count
Before this indictment, on March 27,2012, a preliminary hearing was held and the trial
court
determined that probable cause existed to hold defendant.

-3-

7/

two; 15 years each counts three and four; and 10 years on count five. These
sentences were to be served at hard labor and concurrently, without the benefit of
parole, probation, or suspension of sentence. On the same date as sentencing,
defendant made an oral motion for appeal and filed a pro se written motion for
appeal, which was granted on June 25, 2013.
FACTS
Preliminarily, for the ease of reading, we have given the victims and their
parents fictitious names in the remainder of this opinion.2 The victims, J.T. and
N.T., will be called Janet and Nicole. The victims’ parents, C.T. and A.T., will be
called Carl and Alice.
j

This is defendant’s appeal from his original trial on five counts charging him
with the molestation, oral sexual battery, and rape of two victims, Janet and Nicole.
Defendant’s crimes against Janet and Nicole occurred in the 1990s when they were
children under the age of twelve. However, this case was not brought to trial until
2013 due to defendant’s flight from Louisiana after Janet and Nicole made their
allegations against defendant. At trial, the jury heard Janet and Nicole, now both
adults, testily. The jury also viewed the CAC interviews of Janet and Nicole
which were recorded on May 17,1999. At trial, the jury also heard testimony
from: Terry Ford, a human resources manager at defendant’s former employer;
Detective Richard Broussard, a detective who investigated the case and supervised
the 1999 victim interviews; Carl and Alice, the victims’ parents; as well as Mary
Doung, a relative of Alice and the wife of defendant. In addition, defendant
testified in his own defense.
Carl testified that he married Alice and had three children: Nicole; Janet; and
a son. Mary married defendant in 1984. Carl testified that during the time period
2 See La. Rev. Stat. Ann. § 46:1844(W)(3)

-4-

72

from 1991 through 1995, he lived with his wife and children in Avondale. From
this address, Carl ran his after-work mechanic shop. Carl testified that during this
time period, he did not hear any complaints from his children that defendant had
touched them inappropriately. In 1995, Carl and Alice divorced.
After the divorce, the girls’ mother, Alice, moved out of the house. The
children primarily lived with Alice and visited their father, Carl, on the weekends.
Also after the divorce, Carl worked with defendant repairing cars on weekends,
and after their primary jobs ended for the day, on weekdays. Nicole and Janet
spent time with Carl and defendant when they visited Carl. In 1999, Carl had a
new girlfriend and therefore did not spend much time with his daughters. Carl
testified that around this time, his daughters spent time and had overnight stays
with Mary and defendant. Carl clarified that defendant had the opportunity to be
alone with his daughters. Nicole and Janet did not report abuse to their father prior
to 1999. Carl testified that after Nicole and Janet alleged that defendant abused
them, defendant left without telling Carl where he was going.
Terry Ford, a human resources manager for the successor company of the
Input/Output Company where defendant worked in 1999, authenticated
defendant s employment records with Input/Output. These records showed that
defendant began working for Input/Output on January 28,1982, and ended his
employment by resignation on May 14, 1999. Mr. Ford clarified that these
documents do not show when defendant gave notice of his intention to resign. On
May 19, 1999, defendant filled out a “payout request form”, requesting a cash
distribution from his company’s “401K” plan. Both defendant and his wife signed
this form. Defendant incurred a tax penalty for taking this cash distribution.
Mary Duong, defendant’s wife, testified that she worked at Alice’s wig store
in the 1990’s. Mary explained that during this time, she lived with defendant at a
-5-

73

house across the street from the Catholic church which Janet and Nicole attended.
The two children went to this church multiple times each week to attend mass and
catechism classes. Janet and Nicole went to defendant’s house when they attended
this church. On Mondays through Saturdays, the days she worked at her wig shop,
Alice regularly dropped off her children at Mary and defendant’s house.
Mary testified that during the time before Alice’s divorce, the majority of the
time that the victims spent at her house, defendant was outside working with Carl
on cars. Mary further testified that the victims rarely spent the night at her house
during this time period. According to Mary, at some point in the 1990s, Alice,
Carl, and their children lived in the house owned by Alice’s mother. Alice’s
family eventually moved out of Alice’s mother’s house and into another house. At
this new residence, Alice began suffering marital trouble when her husband had an
affair and used a credit card for gambling. Alice and her husband eventually
divorced.
Mary testified that after Alice divorced her husband, Nicole began to talk
back to Mary during Nicole’s Saturday visits to Mary’s house. According to Mary,
Nicole would leave the house, without permission, and sleep over at a cousin’s
house.
Mary testified that.one day in 1999, at Alice’s shop, Alice’s daughters, Janet
and Nicole, made serious allegations against defendant. After learning of these
allegations, Mary called defendant to come pick her up from the store and go
home. Mary questioned her husband, defendant, about the allegations which the
victims had made. According to Mary, defendant did not respond to these
questions. Mary admitted to having a follow-up conversation with Alice that
night, but could not recall what was said during that conversation. On May 17,

-6-

1999, police officers came to Mary’s house; Mary did not give a detailed
description of the conversation she had with these officers.
Mary testified that after Janet and Nicole made these allegations, defendant
left their family home, unaccompanied by her and without telling her where he
went. Mary testified that defendant left because the victims’ father threatened to
kill him. Mary testified that not long after the victims made their allegations
against defendant, defendant ended his employment, and she and defendant signed
a form to cash out his 40IK.
A few months after defendant fled, Mary came back into occasional contact
with defendant by telephone. Mary admitted that after a period of time, she flew to
meet and live with defendant in another state. Mary stayed in this other state for
about a month before returning to the New Orleans area. According to Mary,
defendant came back to the New Orleans area to pick Mary up. They then again
left the state, this time by car. According to Mary, she and defendant traveled by
car to New Mexico, where they continued to live together. The couple then
traveled to Cheyenne, Wyoming, where they lived for a short while before
returning to New Mexico. In 2010, while in New Mexico, defendant suffered a
heart attack. After this, Mary testified that she and defendant traveled back to
Cheyenne, Wyoming, together.
Mary testified that while she and her husband were on the run, her husband
would use an alias, “Henry Tony.” Mary testified her husband used this alias
because he was hiding from the government because the government wanted her
husband in connection with the victims’ accusations.
At some point after Mary initially left the New Orleans area, she returned to
attend her father’s funeral. Mary admitted when she saw the victims at that funeral
she cried and told them she was sorry for them. Mary however expressed no
-7-

7S

opinion as to whether she believed the victims had suffered any abuse by
defendant.
After their final move to Cheyenne in 2012, defendant was pulled over for
an alleged traffic violation. When the officer effecting this traffic stop found that
defendant had an outstanding warrant in Jefferson Parish, defendant was taken into
custody and eventually extradited back to Jefferson Parish. Mary stayed in
Cheyenne for several months before selling her belongings and returning home to
the New Orleans area.
Mary testified that she never witnessed defendant commit any of the acts of
which he was accused. Mary testified that defendant and defendant’s mother were
present at their house during the times when Janet and Nicole were there, and Mary
was absent. Mary admitted that she could not be sure that defendant’s mother
would always see what was going on in the house. Mary testified that she feels sad
for Janet and Nicole because of what happened to them. When asked by the
prosecution “who caused all this pain to all the women in this family,” Mary
indicated that it was her husband.
Alice testified, identifying herself as the victims’ mother. During the time
period in the 1990s when she was still married to Carl, Alice would bring the
children over to defendant’s house for social visits, and babysitting when she
needed to go to work. This occurred both on the weekends and weekdays. Janet
and Nicole were ten and twelve years old, respectively, when Alice separated from
Carl. Alice also testified that Janet and Nicole were around the ages of eleven and
twelve by the time she actually became divorced.
After the divorce, Alice usually dropped off the children with their father,
Carl, at his house on Saturdays. Alice testified that when she did this, defendant
was usually there working on cars. Alice testified that she usually stayed for a
-8-

7*

short period of time, but would leave and then pick the children up on Sunday after
church. Alice testified that Nicole would occasionally tell her that she did not want
to go to her father’s house. Alice testified that her children’s former catechism
classes took place at the church on Saturday and Sunday after mass. Alice also
testified that she often dropped her children off at defendant’s house because she
was close with Mary and defendant.
According to Alice, Nicole first told her that defendant had abused her and
Janet during an argument at Alice’s wig shop. According to Alice, this argument
happened because Nicole had become a rebellious child and had been skipping
school. According to Alice, during this argument, “[Nicole] just told me that [s]he just come out and said, ‘Well, my problem is, you know, [defendant], Hai. ..
he molested me since I was little.’ And I went - ‘And raped.’” Nicole told Alice
that her abuse happened only at Carl’s house. Alice testified, “[Nicole] told me
that it happened since they were, like, four or five. I just - -1 said only a monster
could do something to children, you know.”
After this conversation, Alice confronted Mary who was also at the wig
shop. According to Alice, Mary responded that she did not know whether the
allegations were true, and then called defendant to be picked up. Alice then
questioned Janet about Nicole’s allegation. Janet responded, “It happened to me,
Mom.” According to Alice, during a follow-up call, Mary told her that her
husband had told her “about everything, what happened to the children.”
After her daughters made these allegations, Alice sought advice from her
parents; they claimed that it was best to keep the matter in the family. Alice did
not follow that advice, but rather encouraged her children to report the abuse to a
school counselor. The victims did this, and a detective eventually came to their
house to ask questions. As a result of this questioning, on Saturday, May 17
-9-

, 1999,

the detective took the victims for an interview at the CAC and a medical
examination at Children’s Hospital. Alice also confirmed that on this date she
gave a recorded statement to Det. Broussard.
Alice testified that other than the day at her shop, when her daughters
alleged their abuse, she never really pushed them to talk about it. She described
the abuse as hard on the family and awkward to talk about. According to Alice,
her daughters subsequently received eight months of counseling to help them cope
with this abuse.
Det. Broussard of the Jefferson Parish Sheriffs Office testified that he
participated in the investigation of the alleged aggravated rapes of Nicole and
Janet, which ultimately led to defendant’s arrest. Det. Broussard first became
involved in this investigation because of referral by the child protection agency on
May 10,1999. This referral informed Det. Broussard that two children had
complained of sexual abuse, with the most recent incident having occurred two
months before the referral. Pursuant to normal procedure, the children were
interviewed at the CAC.
On May 17, 1999, Det. Broussard met privately with Alice at the CAC
before Nicole and Janet were interviewed there. He explained the interview
procedure to Alice and heard Alice’s description of the allegations. CAC
interviewer Omalee Gordon also met privately at the CAC with Alice in order to
explain the interview procedure. The children were not in the room for this
discussion.
After Det. Broussard explained the procedure to Alice, Nicole was
interviewed at the CAC by Omalee Gordon. During the interview, Nicole and Ms.
Gordon were the only individuals in the interview room. Det. Broussard
monitored that interview in a separate room as it was happening. Det. Broussard
-10-

watched the interview occur on a television screen and was able to talk to Ms.
Gordon through a microphone in his room and an earpiece that Ms. Gordon was
wearing. An audio and video VHS recording of this interview was made. Janet
was also individually interviewed by Ms. Gordon, using the same procedures.
During that interview, Det. Broussard monitored the interview in the separate room
in the same manner as he had done during Nicole’s interview. After these
interviews were complete, Det. Broussard received two VHS tape recordings of the
interviews. One of those VHS tapes became State’s Exhibit 14. This VHS tape,
containing Nicole and Janet’s recorded interviews, was played for the jury. When
played, this video showed that it was recorded on May 17, 1999. Before Ms.
Gordon asked any questions, Ms. Gordon can be heard declaring that Det.
Broussard was “monitoring the equipment.” Ms. Gordon then proceeded with her
interviews of Nicole and Janet. In each of their interviews, Nicole and Janet
detailed substantially the same allegations against defendant which they later
testified to at trial.
In her CAC videotaped interview, Nicole stated that she was thirteen years
old at the time of the interview and that her date of birth was December 13, 1985.
Nicole also stated that defendant began molesting her when she was six years old.
Nicole stated that defendant raped her, which she explained as having intercourse
with her. Defendant also touched her all over her body including her chest. This
occurred at Mary’s house when Mazy was supervising her while her mother
worked. Nicole stated that while she and Janet were sleeping in Mary’s room,
defendant would wake up Nicole, climb on top of her, and touch her all over her

-11-

body. Defendant would also do the same to Janet.3 When Maiy would walk into
the room, defendant would get off of Nicole and go into the bathroom to get ready
to go outside and work.
Nicole further stated that when she was six years old, defendant touched her
chest and vagina with his hands under her clothes. When defendant was on top of
Nicole and touching her, he told her not to tell. Defendant would unbutton
Nicole’s clothes. The incidents occurred in the morning, when defendant was at
the house. The incidents occurred in defendant’s room and also in the computer
room. When Nicole would do research in the computer room, defendant would
touch her chest. She would lock the door when she entered the computer room but
defendant would somehow open it. The incidents occurred during the holidays and
the summer because Nicole did not visit defendant’s house on school days.
One week before Nicole turned eleven years old, defendant raped her.
Nicole stated defendant raped her more than three times throughout the period of
abuse. Nicole detailed the instances where defendant repeatedly raped and
sexually molested her in her testimony at trial. Her trial testimony on these
repeated rapes and instances of abuse was substantially similar to her statements in
her 1999 CAC interview.
At the end of her CAC interview, Nicole told Ms. Gordon that she first
disclosed these incidents to her mother one month before the interview, telling her
mother exactly what she had just stated in the current interview. A week after
Nicole disclosed to her mom, she also disclosed to the school counselor, Ms.
Gorman.

-12-

to

Det. Broussard took a recorded statement from Alice. After taking this
statement, Det. Broussard continued his investigation in the Avondale area with the
intent of interrogating defendant. When he arrived at defendant’s home in
Avondale, defendant’s wife, Mary, answered the door. Det. Broussard testified
that when he asked her about his investigation, she became hostile. Mary claimed
she did not know where her husband was located, and she accused Alice, Nicole,
and Janet of lying. Det. Broussard learned the location of defendant’s employer,
Input/Output, from Mary and then proceeded to that location. At Input/Output,
Det. Broussard spoke to various staff members and discovered that defendant had
quit his job there that day. After Det. Broussard was unable to locate defendant, he
sought an arrest warrant for him.5 On May 25, 1999, an arrest warrant was issued
and Det. Broussard subsequently registered that warrant with the National Crime
Information Center, a nationwide arrest warrant database. With Det. Broussard
Unable to locate defendant, the case went unresolved from 1999 until 2012.
In February 2012, an officer stopped defendant in Cheyenne, Wyoming, for
a suspected traffic violation. That officer subsequently found defendant’s
outstanding warrant from Jefferson Parish and began the procedure to have him
extradited back to Louisiana. On March 12, 2012, Det. Broussard met defendant at
the Jefferson Parish Correctional Center. Defendant did not give a statement.
Janet and Nicole testified in person at the trial. Their testimony at trial,
years after their abuse ended, was substantially similar to their videotaped
interviews taken at the time they first informed their mother of the abuse. Janet
testified she was 26 years old and her birthday was November 20,1986. Janet

Det. Broussard also testified that at the time of this initial investigation in 1999, he did
not take any clothing or DNA samples from the victims because he did not believe he would
have found any useful evidence given the two-month period between the last reported incident
and the date Det. Broussard came to learn of the incidents.

-14-

confirmed that Alice was her mother, that Carl was her father, and that she was
related to Mary, defendant’s wife. In the late 1990s when she and her family were
living in Avondale, her parents divorced and her mother moved out of the family
home. Janet testified that at this time, she and her sister regularly attended a
Catholic church across the street from the house where Mary and defendant lived.
Janet confirmed that when she was a child, her mother worked full-time at her wig
shop and her father worked repairing cars. Janet testified that she and her sister
would go over to defendant’s house so that defendant and Mary could babysit them
and they could attend catechism at the church on Saturday and Sunday. Janet
confirmed that defendant’s mother also lived at this house. Janet testified that her
brother did not regularly go over to defendant’s house with her and her sister.
When Janet’s parents divorced, her mother moved to Metairie. Janet’s father
remained in Avondale and continued his friendship with defendant.
Janet testified that defendant sexually abused her when she was younger at
both his home and her father’s home. The first incident of sexual abuse occurred
at defendant’s house in his bedroom, on his bed. Janet described defendant’s
bedroom as being across from the bathroom, with a bed inside it on the left side of
the room. Janet testified that defendant first abused her in this bed by touching her
both above and under her clothing. According to Janet, defendant touched her
breasts, crotch, and genitals. During this incident, defendant told Janet, “[djon’t
say anything; you’ll get in trouble for it.”
Janet testified that after this first time, defendant repeatedly sexually abused
her throughout her childhood. Janet testified that the molestation by defendant
mainly occurred on Thursdays and Saturdays, the days Janet and Nicole attended
the church across from defendant’s house. Janet explained that defendant would
abuse her when no one else was at the home. Defendant would remove his clothes
-15-

and make Janet touch him. Janet specifically testified that during these instances
of abuse, defendant would insert his fingers inside of her vagina. After defendant
committed these acts, he would offer Janet money in the amount of five, ten, or
twenty dollars, and instruct Janet not to say anything about the incident.
Janet described her molestation as having occurred over the period between
when she was five or six years old and continuing until she was ten or eleven years
old. Janet testified that when Mary was home, defendant would neither molest her
nor show her pornography. Janet contrasted this from when she was home alone
with defendant; she testified that, at those times, “I knew it was coming right
away,” This made her afraid to go over to defendant’s house, but she did not tell
anyone of her fear because she thought she would get in trouble. Janet testified
that Nicole was at the house during the instances of her sexual abuse, but that she
did not remember whether Nicole was in the room during the incidents. Janet and
Nicole typically traveled together. Defendant’s mother was in the house during
these instances of sexual abuse, but she was never in the room.
Describing other instances of sexual abuse, Janet testified that defendant
would occasionally place a large back massager on her “privates.” Defendant was
naked and touching himself while he did this. Janet testified that reflecting back
on this incident, she believed that defendant, when he was placing this back
massager on her privates, was “enjoying the show.” Janet accused defendant of
showing her pornographic videos. As an adult testifying at trial, Janet described
these videos as showing “[njaked men and girls.”
Janet testified that this sexual abuse escalated at the time that she was ten or
eleven years old, when defendant inserted his penis inside of her. Janet testified
that this first occurred at her father’s house when she was alone with defendant.
The first incident of intercourse occurred in the living room on the couch. Janet
-16-

jrv

also described this as the first time defendant put his mouth on her vagina. Janet
explained that this first instance of sex with defendant hurt and felt like it lasted a
long time. Janet testified that after this instance of sex occurred, defendant gave
her money for “junk food” and left the house. She went to church without telling
anyone of what had just occurred.6
Janet testified that after this first incident of sexual intercourse with
defendant, she did not remember whether defendant molested her or had sex with
her again. Janet testified that a few weeks after this instance of sexual intercourse,
her sister, Nicole, “came out to my mom.” Janet testified that this instance of
molestation occurred at her father’s house, probably on a Saturday.
Janet confirmed that after Nicole told their mother that defendant had been
“molesting and raping” them, their mother came to her and asked her whether
Nicole’s allegations were true. Janet testified that she told her mother that Nicole’s
allegations were true. Janet testified that she did not talk with Nicole about the
abuse since it happened because “it’s embarrassing.” Janet testified that after her
first conversation with her mother about her sexual abuse, she never talked about
that abuse with her mother again.
Janet testified that she remembered giving an interview about defendant at
the CAC, and that her answers at that interview were truthful. However, she could
not recall many of the details from her CAC interview. Janet confirmed that after
she and Nicole made their allegations against defendant, he and Mary fled. Janet
did not know of their location after they fled. Janet was angry after defendant fled
and went to two or three counseling sessions. Janet testified that it was a relief to
disclose what defendant had done to her.

, . * Janet. test‘fied that defendant’s mother was always at defendant’s house, including
during the incidents when defendant sexually molested and raped her.

-17-

Janet described herself as feeling “disgusted” and just not wanting to
remember her abuse. Janet testified that the abuse still affects her today and
confirmed that she collects sex-offender registration cards which are sent to her
house. She testified that she collects these cards because “you know what those
people are capable of.”
Nicole also testified at trial. At the time of trial Nicole was 27 years old.
Nicole testified that after her parents divorced, she spent the majority of her time
with her mother, visiting her father primarily on weekends. Nicole described her
father’s relationship with defendant during this post-divorce period as “friendly.”
Nicole admitted that after her parents divorced, there were times when she would
leave her father’s house to spend the night at her cousin’s house. Nicole explained
that this cousin’s house was a block away from her father’s house, and that she
always had her father’s permission to leave to spend the night there. Nicole denied
ever leaving at night with a boyfriend without permission.
Nicole confirmed that defendant and Mary lived in a house across the street
from a church which she and Janet attended and that her parents would entrust
defendant and Mary with the responsibility of babysitting her and her sister.
Nicole confirmed that defendant regularly came over to her father’s house in order
to help him work on cars. Nicole testified that in addition to going to defendant’s
house to be babysat, she and Janet would go to defendant’s house on Thursdays
and Saturdays to attend catechism classes at the church. Nicole confirmed that
defendant had a job and that on the Thursdays she went over to defendant’s house,
she would only see defendant in the evenings.
Nicole testified defendant first sexually abused her by placing a back
massager on her vagina when she was seven years old. In addition to using the
back massager, defendant took off his clothes and touched Nicole’s “bottom” and
-18-

vagina. Nicole testified that over the span of several years, defendant committed
additional acts of sexual abuse that progressed in severity. Describing one
incident, Nicole testified she was sitting on a couch in the salon room on the day of
a school fair when defendant came into the room with a bag of grapes and sat next
to her. Defendant then proceeded to push Nicole’s underwear to the side and insert
the grapes into Nicole’s vagina. Defendant then left without saying anything. This
incident occulted while Nicole’s father was in the garage. Nicole testified that she
has never before told anyone of this grape incident. Nicole also testified that
defendant showed her a pornographic movie which depicted men and women
having sex. Nicole claimed defendant would expose his penis to her and that
defendant had put his mouth on her vagina.
Nicole testified that the first instance of sexual intercourse with defendant
occurred at his home in his bedroom. Nicole’s sister and defendant’s mother were
at the home at the time it occurred, but they were not in the bedroom. Nicole could
not remember the exact date that the defendant first raped her, but she estimated
that she was about seven years old at the time it happened. Nicole could not recall
whether defendant had used a condom, but did believe that defendant had
ejaculated.
Nicole also testified regarding an instance of rape by vaginal sexual
intercourse that occurred around the time of the Vietnamese New Year. Nicole
testified:
He pulled down his - - When he pulled down my panties, he was
pulling down his pants. He started - - he tried to push his penis inside
of me. I told him to stop because it hurt. And he said the pain would
go away. And it never did.
Nicole went on to specifically testify that during this incident defendant eventually
inserted his penis into her vagina.

-19-

Nicole testified that another instance of defendant raping her had occurred at
her father’s house in the salon room.7 Testifying regarding that instance of sexual
intercourse, Nicole stated, “All I remember is him pulling my panties down and his
pants while we were sitting on the couch.” Nicole testified that during this
incident, her sister was with her mother and not at the house. Nicole testified that
her father was in the garage at the time this happened. Nicole described the garage
as not connected to the house, but rather is a separate structure built just a few feet
away from the house. Nicole testified that the instance of rape at her father’s
house occurred on a Saturday afternoon.
Nicole testified that defendant raped her again after this, but she could not
recall many details of these incidents. According to Nicole, after defendant raped
her, he told her not to tell anyone and gave her money in the amounts of five, ten,
twenty, or more dollars. Nicole claimed that she put this money back in his closet
because she knew what happened was wrong. Nicole testified that she did not tell
anyone about this abuse initially because she was embarrassed.
Nicole testified that defendant continued molesting and raping her over a
period of time, with the last incident of intercourse occurring a few weeks before
Nicole disclosed the abuse to her mother. This last incident occurred at
defendant’s house. At the time it occurred, defendant’s mother was on the
property, in the garden. Nicole testified that her sister, Janet, may have been with
their mother at a location other than defendant’s house.
Nicole admitted that she disclosed defendant’s abuse of her to her mother
during an argument the two of them were having. Nicole confirmed that she had
not talked to her sister, Janet, about this abuse since the initial disclosure to their
7 Nicole claimed that there were a “few times” when defendant molested her and one
instance when defendant had sexual intercourse with her at her father’s house.

-20-

mother. Nicole remembered giving her recorded CAC interview, but she did not
remember many of the things she had said during that interview. Nicole testified
that she had undergone a “very short” period of counseling following her reporting
of these incidents.
Dr. Scott Benton, an expert in Pediatric Forensic Medicine and Child Abuse,
including Child Sexual Abuse, was employed at Children’s Hospital in 1999. Dr.
Benton testified on behalf of the State that he treated Janet and Nicole at the
Audrey Hepburn CARE Center at Children’s Hospital on May 17, 1999. Dr.
Benton created medical reports in connection with his evaluations of Janet and
Nicole.8 These medical reports contained the results of Dr. Benton’s examination
of Janet and Nicole, as well as the statements by Janet and Nicole which Dr.
Benton recorded.9 The victims’ statements to Dr. Benton did not differ from their
statements in their CAC interview or from their trial testimony. These statements
further corroborate the victims’ explanation of their abuse.
Dr. Benton conducted a physical examination of Janet and the results were
normal. He also stated that Janet’s hymen was intact. Dr. Benton explained that it
is possible for a child to have been sexually abused by penile intercourse and still
have normal results. According to Dr. Benton, there are many sexual acts that can
be performed that do not cause trauma. Dr. Benton further explained that when the
activities progress over time, the perpetrator can progressively dilate the vagina
until he is able to actually penetrate the vagina. According to Dr. Benton, one
reason there is no injury is because of the gentleness of the perpetrator. He
explained that these are not forced acts but are seduction acts, and also the

The child abuse program forensic medicine referrals and reports for Janet and Nicole
were admitted as State’s Exhibits 18 and 19.
On cross-examination, Dr. Benton admitted that he had no independent recollection of
his examination of Janet and Nicole. Dr. Benton’s trial testimony was based on his medical
reports on Janet and Nicole which he believed were accurate.

-21-

perpetrator could use a lubricant, including saliva. Another reason for a lack of
trauma is that the body is designed to repair itself from injury, especially in areas
such as the vagina, anus and mouth, which are able to rapidly heal. Dr. Benton
explained that events that are beyond the ability to heal, which cause scars, are not
common.
Dr. Benton also stated that there was delayed disclosure in this case. He
explained that the reasons for delayed disclosure include that the child is naive to
what happened to her, external factors such as being threatened or bribed, and
internal factors such as the belief that if she tells, bad things are going to happen,
embarrassment over discussing something intimate, mental health issues, and self­
blame, especially if the child takes bribes. Dr. Benton explained that Janet
exhibited some of these reasons, including embarrassment. Dr. Benton believed
that Janet may have been conflicted regarding her abuse because defendant gave
her money and she spent it on junk food.
Dr. Benton also explained that children are selective about what they
disclose to certain people, and they may disclose different details to different
classes of people. According to Dr. Benton, people will tell doctors things they
will not tell other people.
Regarding Nicole and her statements to him, Dr. Benton explained the
reasons for delayed disclosure that she exhibited were that her family did not talk
about problems, and that defendant offered bribes, although she refused them. Dr.
Benton further explained that demeanor of the child is not indicative as to whether
there was abuse because people react differently. According to Dr. Benton, there
appears to be elements of sequential disclosure, in that Nicole subsequently
disclosed an incident that she had not previously disclosed to anyone else. Dr.

-22-

Benton explained that it is important to focus on what was omitted on the various
occasions, whether it had significance, and the reason for not mentioning it.
After Nicole provided a history, Dr. Benton performed a medical
examination. During the examination, Dr. Benton found a lack of continuity in
Nicole’s hymen, which indicated that Nicole’s hymen had been previously injured
and healed in that position. Dr. Benton believed his findings were consistent with
rape and was definitive of blunt penetrating trauma.
After the state rested, defendant testified on his own behalf. He testified that
before this case, he had never been arrested for a crime. According to defendant,
his wife asked him whether he did something with the victims and he responded in
the negative. His wife appeared to not believe him and an argument ensued. In the
morning, his wife refused to speak to him. Defendant decided that it was stressful
and packed two or three articles of clothing and left home without telling his wife.
He went to work but did not go home afterward and slept in the car for about two
days. Then,, he stayed with his uncle in New Orleans East for a few days until he
found out that the police were looking for him.
Defendant explained that at first he was staying away from home in the
hopes that his wife would miss him and ask him to return. However, when he
realized that the police were looking for him, he became “scared.” Defendant
explained that he did not understand why the police were involved in a family
situation because in Vietnam it was something that was settled inside the family.
Defendant spoke to many people and was told that if he lost his case that he could
die, and therefore, he was really “scared.” He had already quit his job because he
had decided to move away and stay with a friend in the woods in order to show his
wife that nothing happened with him and the victims. According to defendant, he
quit his job before discovering that the police were looking for him. When shown
-23-

his employee records indicating that he quit on May 14, defendant testified that
those records were “very close to right.” When defendant discovered that the
police were looking for him, he decided to run away and move out of town because
it Was better to live a little longer than to die. Defendant explained that he
withdrew money from his IRA and gave everything to his wife to survive.
Defendant drove to Grand Junction, Colorado, to visit a friend, where he
lived for about seven or eight years. He next moved to Las Cruces, New Mexico,
and then to Farmington, New Mexico. Defendant admitted to calling and speaking
to his wife several times while in Colorado and New Mexico.
While defendant was in Farmington, he bought an RV, and his wife came to
stay with him because he had a heart attack. He and his wife then moved to
California for a time, and then he moved back to New Mexico. Defendant then
moved to Wyoming in 2010, and remained there until he was arrested in February
or March of 2012.
According to defendant, he never had sexual intercourse with Nicole. He
acknowledged that he used to work on cars at Carl’s house almost every weekend,
usually on Saturdays. He explained that he worked when Carl was home because
he was the only one with a key to the garage. According to defendant, he did not
have sex with Nicole or Janet while their father was outside working on cars.
Defendant also explained that it was not true that he touched them throughout a
long period of time. According to defendant, he did not place grapes in Nicole’s
vagina. Defendant also denied using his mouth on Nicole or Janet. Defendant
explained that according to Vietnamese customs, kissing is a terrible and dirty
thing. Defendant testified that more than a month before the disclosure, Nicole
told him that she was on James Street and three boys jumped down from a white
van and pulled her into the van. According to defendant, he looked at her sadly,
-24-

and Nicole smiled and told him that it was alright because she liked one of the
boys. Defendant denied doing any of the acts of which he was accused.
Defendant acknowledged that the girls would come to his house to go to
church, which was located across from defendant’s house. He also acknowledged
that his wife helped out at Alice’s wig shop, including on Saturdays. However,
defendant testified that his wife took care of the girls, and he was always working
on the automobiles. Therefore, he did not know when they came and left from his
house. Defendant testified that he never watched the girls because he was busy,
and from 1991 to 1999, he was never alone with them. Defendant did not know
why Nicole said what she said. Defendant explained that when the girls were at
defendant’s house, his wife would not go to the wig shop because she had to
babysit. Defendant’s mother lived with him and she spent time on the couch and
outside gardening. He explained that his mother did not help watch the girls when
they came over.
Defendant admitted to having a pornographic magazine that was only for his
use, but denied having a pornographic video. Defendant acknowledged owning a
back massager that was big and heavy, but denied ever using it on the victims.
According to defendant, he never slept with the girls. Defendant also stated that he
did not consult a lawyer during the time he was still in the New Orleans area.
Defendant explained that he believed the problem arose when Nicole had a
7 boyfriend, did not want to stay home, and kept staying at other people’s houses,
which caused defendant’s wife to worry. According to defendant, the girls were
never alone at his house without his wife. Defendant did not offer a reason to
explain why his wife testified that he had spent time alone with the girls
Defendant did, however, testify that he believed that his wife would do whatever

-25-

she could to protect him. Defendant stated that he never showed any pornographic
magazines to the victims, and he denied raping or molesting them.
DISCUSSION
In this appeal, defendant assigns three errors. First, defendant argues that his
constitutional right to confront witnesses against him was violated by the
admission of video-recorded interviews of Janet and Nicole without proof of strict
compliance with the requirements of La. R.S. 15:440.1, et seq. Second, defendant
argues the trial court erred by denying his motion for a new trial based on the
prosecutor’s reference to defendant’s post-arrest exercise, upon the advice of
counsel, of his right to remain silent. Third, defendant argues the trial court erred
in denying his motion for a mistrial after the prosecutor made an improper
reference to other crimes in the prosecutor’s rebuttal argument. For the following
reasons, we find that defendant’s first and third assignments of error are without
merit. While defendant’s second assignment of error has serious merit, we do not
find that the trial court abused its discretion in the context of this case in denying
defendant’s motion for new trial.
Assignment One
In his first assignment of error, defendant argues the trial court erred in
admitting the recorded CAC interviews of Janet and Nicole without strict
compliance with La. R.S. 15:440.1, et seq. Specifically, defendant argues that the
state failed to meet the requirement of La. R.S. 15:440.5(6) that the “person
conducting or supervising the interview of the protected person in the recording is
present at the proceeding and available to testify or be cross-examined by either
party.” The parties do not dispute that the “person conducting” Janet and Nicole’s
CAC interviews, Ms. Gordon, was not “present at the proceeding” and not
“available.” Defendant asserts that this requirement is not met because Det.
-26-

Broussard, who did testify at trial and who was subject to cross examination, was
not a supervisor of the interviews. Defendant contends that this failure to adhere to
the strict requirements of La. R.S. 15:440.1, etseq., violated his rights under the
Sixth Amendment confrontation clause of the U.S. Constitution.
Under the relevant Louisiana law, certain audio and visual recordings of
interviews of protected persons, such as the victims in this case, are admissible
provided that certain requirements are met.10 The requirements relevant to this
appeal are as follows:
A. A videotape of a protected person may be offered in evidence
either for or against a defendant. To render such a videotape
competent evidence, it must be satisfactorily proved:
(5) That the taking of the protected person’s statement was supervised
by a physician, a social worker, a law enforcement officer, a licensed
psychologist, a medical psychologist, a licensed professional
counselor, or an authorized representative of the Department of
Children and Family Services.
B. The department shall develop and promulgate regulations on or
before September 12, 1984, regarding training requirements and
certification for department personnel designated in Paragraph (A)(5)
of this Section who supervise the taking of the protected person’s
statement.
La. R.S. 15:440.4
A. The videotape of an oral statement of the protected person made
before the proceeding begins may be admissible into evidence if:
*

*

*

(6) The person conducting or supervising the interview of the
protected person in the recording is present at the proceeding and
available to testify or be cross-examined by either party;...
La. R.S. 15:440.5
At the outset, it is clear that Det. Broussard is a law enforcement officer and
is thus within a class of individuals which La. R.S. 15:440.4 permits to supervise a
10 For purposes of this analysis ‘“protected person’ means any person who is a victim of a
crime or a witness in a criminal proceeding and who is either of the following: (1) Under the age
of seventeen years. (2) Has a developmental disability as defined in R.S. 28:451.2(12),” La. R.S.
15.440.2(C).

-27-

recording of an interview of a protected person. State v. Guidroz, 498 So.2d 108,
110 (La. App. 5th Cir. 1986) (stating “La. R.S. 15:440.4 B does not require that
law enforcement officials be certified if they are to supervise the taking of the
victim's statement”). The statute requires that:
[E]ither the interviewer or the person supervising the interview be
available to testify or to be cross-examined by either party. La. R.S.
15:440.5(A)(6). This statutory requirement serves the purpose of
having a witness who can authenticate the video tape, and it serves the
purpose of having a witness to testify in regard to whether the process
of recording and conducting the interview complied with the statutory
requirements.
State v. Roberts, 42,417 (La. App. 2 Cir. 9/19/07), 966 So.2d 111, 123.
Furthermore, Louisiana courts have routinely found that officers who acted
similarly to Det. Broussard were supervisors of protected-person interviews within
the meaning of La. R.S. 15:440.5. See Id., and State v. Hawkins, 11-193 (La. App.
4 Cir. 11/16/11), 78 So.3d293.
In Roberts, the defendant argued that the court erred in admitting a
videotaped interview conducted pursuant to La. R.S. 15:440.1, et seq., because the
state had not produced the interviewer as a witness and because the state did not
prove that the detective who watched the interview was the supervisor of that
interview. Roberts, 966 So.2d at 122. Similar to the current case, in Roberts, the
supervising detective watched and listened to the interview via closed-circuit
television in another room. “The interviewer was wearing an ‘ear bug’” which
allowed the detective to communicate with the interviewer “to suggest questions or
to let her know they could not hear what was being said.” Id. at 116. The state did
not call the interviewer at trial; however, it called the detective who had listened to
the interview." While the Second Circuit did not reach the merits of this

115.

The state also called the child-victim interviewee as a witness. Roberts, 966 So.2d at

-28-

ass ignmerit because they found that the issue had not been preserved for appeal,
that court nevertheless stated that it found “no merit to [the] Defendant’s
contention that [the detective listening in the other room] did not actually supervise
the interview or that she was not properly qualified to do so in accordance with the
statute.” State v. Roberts, 42,417 (La. App. 2 Cir. 9/19/07), 966 So. 2d 111, 12223.
In State v. Hawkins, supra, the Fourth Circuit faced the same challenge to a
similar interview of a child victim. In Hawkins, the detective was not in the
interview room, but was fitted with an earpiece and a microphone that allowed her
to directly communicate with the interviewer. The Fourth Circuit held that, even
without the testimony of the interviewer, the testimony of the supervising detective
was sufficient to satisfy La. R.S. 15:440.4(A)(5) and La. R.S. 15:440.5(A)(6). The
court reasoned that the detective’s testimony as to whether the recorded interview
adhered to the legal requirements served the purpose of the statutory requirement.
The Hawkins court also found that the defendant’s right to confront the witnesses
against him had not been violated.
Similar to the detectives in Roberts and Hawkins, in the present case, Det.
Broussard testified that he observed and viewed the interviews of Janet and Nicole
from a separate room as those interviews occurred. Detective Broussard had a
microphone through which he communicated to Ms. Gordon via an “earpiece” at
least twice. The first instance of this communication is observed at the time
marked “10:02” on the recording. At that time, when a muffled and inaudible
voice is heard on the recording, Ms. Gordon pauses. The second instance is
observed at the time of “10:05” on the recording, when Ms. Gordon again pauses
in her questioning. After both of these pauses, Ms. Gordon asks questions

-29-

intended to clarify the victims’ prior answers.12 In light of this evidence, and
applying the law and jurisprudence of this state, we find that Det. Broussard was
the supervisor of the CAC interviews of Janet and Nicole within the meaning of
La. R.S. 15:440.5(A)(6). In light of our finding that this provision was not
violated, defendant’s argument that the violation of this law violated his rights
under the confrontation clause of the U.S. Constitution also fails. Accordingly, we
find this assignment of error to be without merit.13
Assignment Two
In his second assignment of error, defendant argues the trial court erred
when it denied his motion for a new trial premised upon the prosecutor’s calculated
reference to defendant’s post-arrest exercise of his privilege against selfincrimination, During Det. Broussard’s direct examination by the state, the
following took place:
[In response to the state’s questioning of Det. Broussard regarding
defendant’s actions after he had been extradited back to Jefferson
Parish from Wyoming, defense counsel objected and asked for a
bench conference where the following exchange took place:]
[Defense Counsel]: This [testimony] is going that he went down and
talked to him, and he said, I have an attorney who’s advised me not to
talk to you okay?
[Court]: Uh-huh.
[Defense Counsel]: And I don’t think that’s admissible. It was
against his constitutional right. And it’s within his privilege not to - to remain silent. And I don’t think it can be used as evidence.
They re presenting it as evidence. Since they don’t have a statement
they should stop.

l3 Presuniably, this was done at the instruction of Det. Broussard

ajspSSSSSsSSr
constitutional rights under the

Sixth Amendment’s Confrontation Clause.
-30-

[Court]: You want him to testify as to what his attorney advised him?
[Prosecution]: No. I was just going to ask him if he was informed of
his rights and if he was willing to give a statement.
[Defense Counsel]: And that - - Right. And I don’t think you can do
that. I don’t think that - - He’s under no obligation to give that
statement.
[Prosecution]: He’s informed of his rights, and he is cognizant of his
rights, and he is taking advantage of the constitutional rights that he
understands.
[Court]: I’m going to overrule the objection.
[Defense Counsel]: Note our objection.
(End of bench conference.) [The prosecution resumes examination of
Det. Broussard]
[Prosecution] Q. When you met with [defendant...], was he
informed of his rights?
[Det. Broussard] A. He was advised of his rights, yes.
[Prosecution] Q. Did you do that?
[Det. Broussard] A. Yes, I did.
[Prosecution] Q. Did you need an interpreter?
[Det. Broussard] No, no.
[Prosecution] Q. Did he indicate to you that he understood his rights?
[Det. Broussard] A. He understood his rights, yes.
[Prosecution] Q. Okay. Did he agree to give you a statement?
[Det. Broussard] A. No. After I told him that I wanted to talk - - after
I advised him of his rights, I wanted to talk to him of his rights, I
wanted to talk to him about the charges, he immediately told me that
he and his family had secured an attorney, Bruce Netterville. And he
told me that his attorney told - - advised not to talk to me. I then
stopped whatever I - -1 didn’t interview. I didn’t ask him anymore
questions. And I left.

-31-

In his closing argument, the prosecutor returned to the matter of defendant’s
retention of an attorney and post-arrest exercise of his right to remain silent,
stating:
Really? You know why he left; because he knew he was guilty. He
didn’t want to be punished.
What else did he do when he was on the run? Henry Tony; that’s his
alias, one of aliases he used. If he was so innocent, why use an alias?
He didn’t talk to a lawyer. However, when he was arrested in
Wyoming, when the police went to go interview him at the jail here,
he had a lawyer before they even got there. So at some point, over the
13 years that he was gone, he did learn about the legal system. Did he
call anybody down here? Did he turn himself in? No. He stayed on
the run until he was caught. That's what he did because he is guilty.
That’s why he fled.
Defense counsel entered a timely objection to the above state questioning of
Det. Broussard and filed a motion for new trial on June 17, 2013. Defense counsel
supplemented his motion for a new trial on June 18, 2013. In this supplemental
motion for a new trial, defense counsel argued “[t]he court erred when it allowed
the state to elicit testimony that the defendant refused to make a statement on
advice of counsel.” First, we find this assignment of error is properly preserved for
appeal. Second, we find that the trial court clearly erred in allowing the state to
question Det. Broussard regarding the defendant’s exercise of his right to remain
silent. The state compounded this error when they referenced defendant’s exercise
of his Fifth Amendment Constitutional rights during closing arguments.
Standard of Review
Under La. C.Cr.P. art. 851(2), the trial court shall grant a new trial whenever
“[t]he court’s ruling on a written motion, or an objection made during the
proceedings, shows prejudicial error.” According to La. C.Cr.P. art 851, a new
trial motion “is based on the supposition that injustice has been done the defendant,

-32-

/dO

and, unless such is shown to have been the case the motion shall be denied, no
matter upon what allegations it is grounded.”
The denial of a motion for a new trial is not subject to appellate review
except for an error of law. La. C.Cr.P. art. 858. Further, the ruling on a motion for
a new trial is committed to the sound discretion of the trial judge and will not be
disturbed on appeal absent a clear showing of abuse of that discretion. State v.
Bibbins, 13-875 (La. App. 5 Cir. 4/9/14); State v. Gerard, 96-366 (La. App. 5 Cir.
11/14/96), 685 So.2d 253, 260. The merits of a motion for a new trial must be
viewed with extreme caution in the interest of preserving the finality of judgments.
Id> see also State v■ Rodriguez, 02-334 (La. App. 5 Cir. 1/14/03), 839 So.2d 106,
' 133, writ denied, 03-00482 (La. 5/30/03), 845 So.2d 1061, cert, denied, 540 U.S.
972, 124 S.Ct. 444, 157 L.Ed.2d 321 (2003).
Analysis
In Doyle v. Ohio14, the United States Supreme Court held that reference to a
defendant’s silence at the time of his arrest for impeachment purposes violates his
due process rights.15 Even in cases where a defendant does not testify in his

own

defense, it is improper to reference the fact that an accused exercised his right to
remain silent to ascribe a guilty meaning to his silence or to undermine, by
inference, an exculpatoiy version of events related by the accused. State v. Pierce,
11-320 (La. App. 5 Cir. 12/29/11), 80 So.3d 1267, 1272; State v. Montoya, 340
So.2d 557 (La. 1976).
In State v. George, the Louisiana Supreme Court explained:

\l426 u-s- 610, 96 S.Ct. 2240,49 L.Ed.2d 91 (1976).
because
“eVCry
silence«insolubly ambiguous
because of what the State is required to advise the person arrested.... it would be fundamentally
unfair aid a deprivation of due process to allow the arrested person’s silence to be used to
*
mipeach an explanatmn subsequently offered at trial.” Doyle v. Ohio, 426 U.S. at 617-18, 96

-33-

This court has expressed its disapproval of placing before the jury
evidence that the police advised the defendant of his Miranda rights at
the time of his arrest when the testimony does not establish a predicate
for admitting a subsequent oral or written inculpatory statement and
thereby invites jurors to consider the defendant's post-arrest silence as
an impeachment of an exculpatory account later offered at trial. State
v. Mosley, 390 So.2d 1302 (La.1980); Doyle v. Ohio, 426 U.S. 610,96
S.Ct. 2240, 49 L.Ed.2d 91 (1976).
State v. George, 95-0110 (La.10/16/95), 661 So.2d 975, 979.
Harmless Error
Doyle violations are characterized as trial errors, and are subject to harmless
error analysis. See State v. Alas, 622 So.2d 836, 837 (La. App. 5 Cir. 1993) writ
denied, 629 So.2d 397 (La. 1993); State v. Olivieri, 03-563 (La. App. 5 Cir.
10/28/03), 860 So.2d 207, 215; State v. Longo, 08-405 (La. App. 5 Cir. 1/27/09), 8
So.3d 666, 674.
Here, where there was an objection to the testimony of Det. Broussard on
this point at a bench conference before Det. Broussard testified on this point, we
cannot say that the prosecutor unwittingly fell into pursuing an unconstitutional
line of questioning. Furthermore, the fact that the prosecutor referred to
defendant’s silence again in closing argument indicates a clear intent to pursue the
line of questioning. While a brief reference to a defendant’s post-arrest silence
does not in every case require reversal, it is not permissible for the prosecutor to
intentionally thread the needle by impermissibly laying before the jury a
defendant’s post-arrest silence and then carefully moving away to another line of
questioning.
While this Court has consistently held that “a brief reference to postMiranda silence does not mandate a mistrial or reversal where the trial as a whole
was fairly conducted, the proof of guilt is strong, and the state made no use of the
silence for impeachment purposes, this analysis does not apply where the

-34-

/OX

prosecutor stresses or emphasizes the defendant’s silence at trial. Pierce, supra,
State v. Campbell, supra; See also State v. Smith, 336 So.2d 867 (La. 1976).
(Compare to cases in which post-arrest silence was stressed or emphasized at trial:
State v. Grant, 99-1065 (La. App. 5 Cir. 1/25/00), 761 So.2d 10, 12-14 (wherein
the defendant was repeatedly asked at trial why he didn’t “talk to anybody
else.. .when you [the defendant] first got arrested”), and State v. Montoya, 340
So.2d at 562 (wherein the prosecutor implicitly referenced the defendant’s failure
to testify at trial, argued at trial that the defendant had to “explain his possession
[of stolen property],” and where additional errors further compounded a state
witness’ reference to the defendant’s post-arrest silence)).
However, the evidence of the defendant’s guilt in this case is particularly
overwhelming. Both victims knew their attacker personally and gave clear and
detailed recorded statements during the time period in which their attacks occurred.
As adults, both victims testified to the past abuse in question. The jury was able to
compare their adult testimony with their video statements as children.
Furthermore, several family members and the defendant’s employer were able to
corroborate the circumstances surrounding the abuse. The evidence in this case is
extraordinarily strong. Therefore, in the context of this particular case, we cannot
say that the trial court erred in denying the motion for mistrial.
In this case, the prosecutor’s questions to Det. Broussard regarding
defendant s exercise of his Fifth Amendment privilege against self-incrimination
on the advice of counsel were improper and impermissible. Likewise, the trial
court’s ruling overruling defense counsel’s objection to this impermissible line of
questions was also clearly in error. See State v. Kersey, 406 So.2d 555, 560 (La.
1981), State v. Smith, 336 So.2d 867, 868 (La. 1976); State v. Montoya, 340 So.2d
at 560. As stated above, the prosecutor compounded this error in closing
-35-

/63

argument. Defendant’s conviction stands only because we find defendant’s post­
arrest silence was not stressed or emphasized throughout the entirety of the trial,
and the trial as a whole was fairly conducted and there was patently overwhelming
proof of guilt. See State v. Pierce, 80 So.3d at 1272; State v. Campbell, 97-369
(La. App. 5 Cir. 11/25/97), 703 So.2d 1358, 1361; State v. Smith, 336 So.2d at 869.
Although Det. Broussard testified regarding his further investigation after
defendant invoked his right to be silent, there was no necessity for Det. Broussard
to testily to this invocation of silence to explain the next steps in his investigation.
While we clearly disapprove this improper line of questioning designed to elicit
inadmissible evidence, we do not find the error warrants reversal nor a new trial
under the unusually strong evidence presented in this particular case. See State v.
Pierce, 80 So.3d at 1272; State v. Campbell, 97-369 (La. App. 5 Cir. 11/25/97),
703 So.2d 1358, 1361; State v. Smith, 336 So.2d at 869. Accordingly, we find that
this clear error did not, in this particular case, mandate that the trial court grant a
new trial.
Assignment Three
In his third assignment of error, defendant argues the trial court erred in
failing to grant his June 17, 2013 motion for a mistrial premised upon the
prosecutor’s improper reference to other crimes evidence in his rebuttal argument.
Specifically, defendant argues the prosecutor impermissibly asked the jury to
consider the evidence of other crimes when, in his rebuttal to defendant’s closing
argument, he made two statements. First, the prosecutor stated:
You know, this trial, we're in day three of this trial, and there's been a
lot of tears from this witness stand, a lot of tears in a lot of unexpected
places; because there's more victims in this case. There's Mary, his
wife. I don't know about you. Maiy's a victim.
[The love between defendant and his wife, Mary,] is strong [. ...]
But you know what breaks love? You know what's stronger than that
-36-

M

love? The truth, the truth about what happens to innocent little girls.
They both said that she looked at these girls almost as if she was their
own mother.... And that's why she got on the stand and she told you
the truth.
She told you the pain that it has caused her, the pain that it has caused
her entire family. And she — I said in the last question I asked her as
she was crying, she was sobbing here in front of you, saying “I wish,”
you know, ‘I'm sorry, I wish.’ I said, ‘It’s not your fault.’ I said, ‘You
didn't cause this pain. The girls didn’t cause this pain. [Alice] didn't
cause this pain.’ I said, ‘Whose fault is all of this?’ She couldn't even
‘Him, him,’ is what she said; because he's had many victims in his
life, more than just the two girls.
At this point, defense counsel objected to what he perceived as the
prosecution’s reference to other crimes. The prosecutor argued to the court that he
was simply making reference to other “emotional” victims of defendant’s actions.
The trial court allowed the prosecutor to clarify this point to the jury, at which
point, the prosecutor then stated to the jury:
There are multiple victims in this case. And no, Mr. Netterville, I'm
not talking about physical victims; I'm talking about victims of
suffering, victims of emotional abuse. There are only two women in
this room that we know of that he has physically abused.
Defense counsel again objected on the grounds that the prosecutor was implying to
the jury that defendant had physically abused other victims. The trial court
sustained defense counsel s objection. At a bench conference which immediately
followed, defense counsel argued that the prosecutor’s reference to other crimes
was impermissible and moved for a mistrial. The trial court denied defense
counsel’s motion for mistrial, stating:
I don't think that the statement that ‘there are no other victims that we
know of says that there are other victims out there. In fact, it says we
don t know. And I'm going to make — I will do an instruction to the
jury that there is no evidence of other victims and they are not to
consider that. And I think that his argument was, if I understood it
correctly, that there are other victims in the family.... Any emotional
victims.... Not victims of sexual abuse. So I'll ask that [the
prosecutor] clarify that.

-37-

The trial court then instructed the jury that it was to disregard the
prosecutor’s statement “that there are other victims that we know of’ and allowed
the prosecutor to continue his rebuttal argument. In the portion of his rebuttal
argument that followed, the prosecutor explained to the jury, “there are victims that
we do know of... . there’s Mary .... There’s [Carl], a hard working father, [and .

;r

. . Alice, who is] also another victim in this case.”16
La. C.Cr.P. art. 775 provides for a mistrial if prejudicial conduct inside or
outside the courtroom makes it impossible for the defendant to obtain a fair trial, or
when authorized under La. C.Cr.P. arts. 770 or 771.17 A mistrial under La. C.Cr.P.
art. 775 is discretionary and is warranted only when trial error results in substantial
prejudice to the defendant depriving him of a reasonable expectation of a fair trial.
SfMe v. Davis, 07-544 (La. App. 5 Cir. 12/27/07), 975 So.2d 60, 68, writ denied,
08-380 (La. 9/19/08), 992 So.2d 952.
La. C.Cr.P. art. 770 provides in pertinent part that:
Upon motion of a defendant, a mistrial shall be ordered when a
remark or comment, made within the hearing of the jury by the judge,
district attorney, or a court official, during trial or in argument, refers
directly or indirectly to:
(2) Another crime committed or alleged to have been
committed by the defendant as to which evidence is not admissible.
An admonition to the jury to disregard the remark or comment
shall not be sufficient to prevent a mistrial. If the defendant, however
requests that only an admonition be given, the court shall admonish
individ^S^
inter nlin
L?' ^CrP’ T' 771 *3 miStnai ls dlscreti°nary when a comment is made by
hi scope oftfCcTp'T 770
,P!fCe ^ defendant When 11131 comment « ou<sid’e of
the scope of La. C.Cr.P art. 770. Article 771 gives the trial court the option to either admonish
jin-y, upon motion of the defendant, or, if an admonition does not appear sufficient to declare
lS^(La1/l/l n 60'So 5^m8(LA APP' 5,Cir' 10/12/10)’ 52 So'3d 110’ 124’
denied,

-38-

/6(o

the jury to disregard the remark or comment but shall not declare a
mistrial.
A mistrial is a drastic remedy and is warranted only when trial error results
in substantial prejudice to a defendant that deprives him of a reasonable
expectation of a fair trial. Whether a mistrial should be granted is within the sound
discretion of the trial court, and the denial of a motion for mistrial will not be
disturbed absent an abuse of discretion. State v. Lagarde, 07-123 (La. App. 5 Cir.
5/29/07), 960 So.2d 1105, 1113-14, writ denied, 07-1650 (La. 5/9/08), 980 So.2d
684.
Louisiana Code of Criminal Procedure article 770, subsection 2, is not
applicable unless the inference clearly constitutes a comment on other crimes
committed or alleged to have been committed by the defendant. State v. Rhodes,
95-54, p. 4 (La. App. 5 Cir. 6/28/95), 657 So.2d 1373, 1376-77, writ denied, 952265 (La. 3/14/97), 690 So.2d 28. Here, there was no distinct or recognizable
reference to any other crime. After examining the prosecutor’s remarks in context,
it is clear that he referenced the emotional victims in the family and not other
sexual abuse victims. See Rhodes, 657 So.2d at 1377; and State v. Blueford,
48,823, 2014WL880367, at 6-7 (La. App. 2 Cir. 3/5/14). The prosecutor’s
comment was not a reference to other crimes but merely misspoken words
regarding defendant’s emotional victimization of the family that were corrected.
The prosecutor’s comment was explained and corrected, and did not contribute to
the jury finding defendant guilty. State v. Daniels, 01-545 (La. App. 5 Cir.
11/27/01), 803 So.2d 157, 166, writ denied, sub. nom State ex rel. Daniels v. State,
02-215 (La. App. 5 Cir. 11/27/02), 831 So.2d 272. We find that the trial court did
not abuse its discretion in denying defendant’s motion for a mistrial on this ground.
See State v. Chairs, 12-363 (La. App. 5 Cir. 12/27/12), 106 So.3d 1232,1244 writ

-39-

/a7

denied sub nom. State ex rel. Chairs v. State, 2013-0306 (La. 6/21/13), 118 So.3d
413. Accordingly, we find this assignment of error to be without merit.
ERRORS PATENT

We have reviewed the record for errors patent in conformity with La.
C.Cr.P. art. 920; State v. Oliveaux, 312 So.2d 337 (La. 1975); and State v. Weiland,
566 So.2d 175 (La. App. 5 Cir. 1990). The record reflects two errors patent which
require corrective action.
First, the record does not reflect that defendant was notified of Louisiana's
sex offender registration requirements in accordance with La. R.S. 15:540, et seq.
Defendant was convicted of aggravated rape upon Nicole, committed between
December 13, 1991, and December 12, 1997; attempted aggravated rape upon
Janet, committed between November 20, 1992, and November 19, 1998;
molestation of a juvenile upon Nicole committed between December 13, 1991, and
May 17,1999; molestation of a juvenile upon Janet, committed between November
20, 1992, and May 17,1999; and aggravated oral sexual battery upon Janet,
committed between November 20, 1992, and November 19, 1998. See La. R.S.
15:542(E).
La. R.S. 15:540, et seq., requires registration of sex offenders and La. R.S.
15:543(A) requires the trial judge to provide written notification of the registration
requirements of La. R.S. 15:542 and La. R.S. 15:542.1 to defendant. The trial
court's failure to provide this notification constitutes an error patent and warrants a
remand for written notification. State v. Lampkin, 12-391 (La. App. 5 Cir.
5/16/13), 119 So.3d 158, 168 writ denied sub nom. State ex rel. Lampkin v. State,
2013-2303 (La. 5/23/14), 140 So.3d 717 (citing State v. Pierce, 11-320 (La. App. 5
Cir. 12/29/11), 80 So.3d 1267, 1279-80). This is the case even where a life

A .

sentence has been imposed. State v. Videau, 13-520 (La. App. 5 Cir. 12/27/13),
-40-

10*

131 So.3d 1070, 1089, (citing State v. Williams, 09-48 (La. App. 5 Cir. 10/27/09),
28 So.3d 357, 368-69, writ denied, 09-2565 (La. 5/7/10), 34 So.3d 860).
Accordingly, we remand the matter to the trial court for purposes of
providing defendant with appropriate written notice of his sex offender notification
and registration requirements, using the form contained in La. R.S. 15:543.1.
Second, the “State of Louisiana Uniform Commitment Order,” incorrectly
reflects the date of defendant’s offenses as March 7, 2012. However, the record
reflects that there were multiple offense dates between 1991 and 1999. The
practice of this Court is to remand a case for correction of the Uniform
Commitment Order in its error patent review when the Uniform Commitment
Order is inconsistent with the minute entry and transcript. See State v. Long, 12184 (La. App. 5 Cir. 12/11/12), 106 So.3d 1136, 1142. Accordingly, we remand
this matter for correction of the Uniform Commitment Order error regarding the
offense dates and further direct the Clerk of Court to transmit the original of the
Uniform Commitment Order to the officer in charge of the institution to which
defendant has been sentenced and the Department of Correction’s Legal
Department. See Id. (citing La. C.Cr.P. art. 892(B)(2); and State ex rel. Roland v.
State, 06-224 (La. 9/15/06), 937 So.2d 846 (per curiam)).
CONCLUSION
For the reasons assigned, defendant's convictions and sentences are
affirmed. The matter is remanded to the trial court for compliance with the
instructions set forth in our errors patent review.

AFFIRMED: REMANDED WITH INSTRUCTIONS

-41-

Current with amendments received through January 1, 2014
UNIFORM APPLICATION FOR POST-CONVICTION RELIEF
HaiA. Duong
NAME OF PETITIONER

No.

613130
PRISON NUMBER

TWENTY-FOURTH JUDICIALDISTRICT

Lonisiana State Penitentiary
PLACE OF CONFINEMENT

IN THE PARISH OF JEFFERSON
STATE OF LOUISIANA

(To be filled in by the clerk)

VS.
N. BURL CAIN. Warden
Lonisiana State Penitentiary

Please Serve CUSTODIAN and Paul D. Connick, Jr., DISTRICT ATTORNEY, TWENTYFOURTH JUDICIALDISTRICT, STATE OF LOUISIANA.
INSTRUCTIONS — READ CAREFULLY
(1)

This application must be legibly written or typed, signed by the applicant and sworn
to before a notary public or institutional officer authorized to administer an oath.
Any false statement of a material fact may serve as the basis for a criminal
prosecution. All questions must be answered concisely in the proper space on the
form. Additional pages are not permitted except with respect to the facts which
you rely upon to support your claims for relief. No citation of authorities or legal
arguments are necessary.

(2)

Only one judgment may be challenged in a single application except that convictions
on multiple counts of a single indictment or information may be challenged in one
application.

> (3)

YOU MUST INCLUDE ALL CLAIMS FOR RELIEF AND ALL FACTS
SUPPORTING SUCH CLAIMS IN THE APPLICATION.

(4)

When the application is completed, the original must be mailed to the clerk of the
district court in the parish where you were convicted and sentenced.

(5)

You must attach a copy of the court order sentencing you to custody. You may
obtain a copy of that order from the clerk of the district, court of the parish where
you were sentenced or from the institution where you are confined. If a copy of
the court order is not attached, you must allege what steps were taken in an effort
to obtain the order.

(6)

Applications which do not conform to these instructions will be returned with a
notation as to the deficiency.

APPENDIX

I

//6

APPLICATION
1.

Name and location of court which entered the judgment of conviction challenged:
Twenty-Fourth Judicial District Court. Government Building. 200 Derbienv
Street Gretna. LA 70434-1090.

2.

Date of judgment of conviction: June 12. 2013.

3.

Length of sentence: Count one life: count two 50 years: counts three and four IS
years; and count five ten years, all without the benefits of parole, probation or
suspension of sentence.

4.

Nature of offense involved (all counts) aggravated rape, attempted aggravated
rape, two counts of molestation of a juvenile, and aggravated oral sexual
battery.

5.

What was your plea? (check one)
(A) Not guilty (X)
(B)
Guilty ( )
(C) Not guilty and not guilty by reason of insanity ( )
If you entered a guilty plea to one or more counts and not guilty to other counts, give
details: N/A.
(D)

Name and address of the lawyer representing you at your plea (if you had
no lawyer please indicate): Bruce Netterville 929 4th Street Gretna LA 70053.

(E)

Was the lawyer appointed ( ) or hired (X)? (check one)

6.

Kind of trial: (check one)
(A) Juiy (X)
(B)
Judge only ( )

7.

(A)

Name and address of lawyer representing you at trial: Bruce Netterville 929
4th Street Gretna LA 70053.

(B)

Was the lawyer appointed ( ) or hired (X)? (check one)

8.

Did you testify at trial? Yes ( ) No (X)

9.

(A)
Give the name and address of the lawyer who represented you at sentencing for
the conviction being attacked herein: Bruce Netterville 929 4th Street Gretna LA
70053.
(B)

Was the lawyer appointed ( ) or hired (X)? (check one)

10.

Did you appeal from the judgment of conviction? Yes (X) No ( )

11.

If you did appeal, give the following information:
(A)
Citation, docket number, and date of written opinion by the Supreme Court or
Court of Appeal (if known) LA. Supreme Court Docket No. 2014-KO-1883. Killing
date April 17. 2015; Fifth Circuit Court of Anneal. #13-KA-0763. State v. Duong.
13-763. (La-App. 5 Cir. 8/8/141.148 So.3d 623.
(B)

Name and address of lawyer representing you on appeal: Bruce Whittaker
Attorney at Law 3801 Canal Street Suite 325 New Orleans LA 70119.

(C)

Was the lawyer appointed (X) or hired ( )? (check one)

12.

Other than direct appeal from the judgment of conviction and sentence, have you
previously filed any application for post-conviction relief with respect to this
judgment in any state or federal court? Yes ( ) No (X).

13.

If your answer to 12 is "yes", give the following information:
(A) (1)
Name of court________________________________________
(2)
Nature of proceeding____________________________
(3)
Claims raised:___________ '
__________________
(4)
Did you receive an evidentiary hearing on your application? Yes ( )
No ( )
(5)
Was relief Granted or denied?
(6)
Date of disposition:_______
-2///

(B)

Citation of opinion (if known)__________________________
(7)
Name and address of lawyer representing you: (if none, so stale)
(8)
Was the lawyer appointed ( ) or hired ( )? (check one)
(9)
As to any second application give tire same information:
(1)
Name of court______________ '_________________________
(2)
Nature of proceeding
________________________
(3)
Cl aim s raised:_______________________________________
(4)
Did you receive an evidentiary hearing on your application? Yes ( )
No ( )
(5)
Was relief Granted or denied?__________________________
(6)
Date of disposition:__________ ____________________
(7)
Citation of opinion (if known)__________________________
(8)
Name and address of lawyer representing you: (if none, so state)
(9)

(C)
(D)

(E)
(F)

Was the lawyer appointed ( ) or hired ( )? (check one)

Have you filed any other applications for post-conviction relief with respect
to challenged conviction? Yes ( ) No ( )
Did you appeal or seek writs of review from the denial of any post-conviction
application?
(1)
First petition, etc. Yes ( )No( ).
(2)
Second Petition, etc. Yes ( ) No ( ).
If you did not appeal or seek writs from the denial of any post-conviction
application, explain briefly why you did not:___________________________
Name of the lawyer who represented you on appeal from the denial of any
post-conviction application (if none, so state):___________________ _
(1)
First petition___________________________________
Second petition__ :____________________________________
(2)
CLAIMS FOR RELIEF

State concisely facts supporting your claim that you are being held unlawfully. If necessary,
you may attach extra pages stating additional claims and supporting facts. Do not argue points
of law.
For your information, the following is a list of the most frequently raised claims for relief in
post-conviction applications. You may raise any claim which you may have other than those
listed. However, YOU MUST RAISE IN THIS APPLICATION ALL AVAILABLE CLAIMS
RELATING TO THIS CONVICTION.
(A)

Denial of right of appeal.

(B)

Conviction obtained by plea of guilty which was unlawfully induced or not made
voluntarily with understanding of the nature of the charge and the consequences of the
plea

(C)

Conviction obtained by use of coerced confession.

(D)

Conviction obtained by use of evidence gained pursuant to an unconstitutional search
and seizure.

(E)

Conviction obtained by use of evidence pursuant to an unlawful arrest.

(F)

Conviction obtained by a violation of the privilege against self-incrimination.

(G)

Conviction obtained by the unconstitutional failure of the prosecution to disclose
to the defendant evidence favorable to the defendant.

(H)

Conviction obtained by a violation of the protection against double jeopardy.

(I)

Conviction obtained by action of grand or petit jury which was unconstitutionally
selected and impaneled.

(J)

Denial of effective assistance of counsel.

-3-

//<£

A REMINDER:
YOU MUST SET FORTH ALL OF YOUR COMPLAINTS ABOUT
YOUR CONVICTION IN THIS APPLICATION. YOU MAY BE BARRED FROM
PRESENTING ADDITIONAL CLAMS AT A LATER DATE. Remember that you
must state the FACTS upon which your complaints about your conviction are based.
DO NOT JUST SET OUT CONCLUSIONS.
CLAM I
Claim: Hai’s trial was rendered fundamentally unfair because he was denied
theeffecUveassistanceQfcsunseI.in\IolationofArtideI.Sgl,2.13.16,
and 22 of the Louisiana Constitution of 1974 and the Fifth. Sixth and
Fourteenth Amendments to the United States Constitution.
(A)

Supporting FACTS (tell your story briefly without citing cases or law): Trial
counsel failed to investigate the nature of the false allegations against Hai and also
failed to mount a fabrication defense. Trial counsel also failed to impeach the
state's witnesses. See original memorandum in support.

(B)

List names and addresses of witnesses who could testify in support of your claim.
If you cannot do so, explain why: Because of the nature of the charges. Hai will not
list the names and addresses of the alleged victims mid the family. But they are the
witnesses who can testify to support this claim; Bruce Netterville 929 4th Street
Gretna LA 70053.

(C)

If you failed to raise this ground in the trial court prior to conviction, on appeal, or in a
prior application, explain why: A claim of ineffective assistance is a claim best raised
on an application for post-conviction rdief.
CLAM II
Claim: Hai's trial was rendered fundamentally unfair as a result of
prosecutorial misconduct, in violation of Article I. 66 1, 2. 3. 13.16. and 22
of the Louisiana Constitution of 1974 and the Fifth. Sixth, and Fourteenth
Amendments to the United States Constitution.

(A)

Supporting FACTS (tell your story briefly without citing cases or law): The state
s3gtea!Latically_-ex;clud-el-Jainorities from the jury without assigning any race
neutral reasons as to whv. The state also suppressed information revealing that
Nicole ran away from home to be with ho- boyfriend. The state also suppressed the
fact that the family of the allege victims did not believe the stories told bv Nicole
and Janet. The prosecutor threatened the family of Nicole and Janet to testify
against Hai in this matter. The family told the state that they did not want to have
anything to do this matter because they did not believe the lies told bv the alleged
victims. The state knew about Nicole’s truancy, and chose to suppress this
information. The state also suppressed the grand jury testimonies witnesses who
testified differently at trial. See original memorandum in support.

(B)

List names and addresses of witnesses who could testify in support of your claim.
If you cannot do so, explain why: Because of the nature of the charges, Hai will not
list the names and addresses of the alleged victims and the family. But they are the
witnesses who can testify to support this claim: Bruce Netterville 929 4th Street
Gretna LA 70053.

(C)

If you failed to raise this ground in the trial court prior to conviction, on appeal, or in a
prior application, explain why: This claim Is best raised on an application for post­
conviction rdief because the full record is not available without an evidentiary
hearing.

A.

Do you have in a state or federal court any petition or appeal now pending as to the
judgment challenged? Yes ( ) No (X). If "yes”, name the court.________ __________

B.

Do you have any future sentence to serve after you complete the sentence
imposed by the judgment, challenged? Yes ( ) No (X).
(1)

If so, give name and location of court which imposed sentence to be served in
-4-

//I

o

o

the future:________________________________________________
(2)
Give dale and length of sentence to be served in the future:__________
(3)
Have you filed, or do you contemplate filing, any petition attacking the
judgment which imposed the sentence to be served in the future? Yes ( ) No ( ).
C.

If a copy of the court order sentencing you to custody is not attached, explain why. Hal
never received a copy of any of the record. He docs not even have the court
minutes.

WHEREFORE, applicant prays that the Court grant applicant relief to which he may be
entitled.
Signature ofApplicant
______ August 201S
Day / Month / Year
APPLICATION FOR APPOINTMENT OF COUNSEL
I am unable to employ counsel to represent me in this matter because I have no assets
or funds except: NONE.
(Write “None” above if you have nothing; otherwise, list your assets including funds in prison
accounts.)

Signature of Applicant

-5-

IN

AFFIDAVIT
STATE OF LOUISIANA
PARISH OF WEST FELICIANA
Hal A. Duong, being first duly sworn says that he has
(Name of Applicant)
read the foregoing application for post-conviction relief and
swears or affirms that all of the information therein is true and
correct! He further swears or affirms that he is unable to employ
counsel because he has no assets or funds which could be used to
hire an attorney except as listed above.

Signature of Applicant

SWORN TO AND SUBSCRIBED before me this

day of August, 2015 at

Angola, Louisiana

Ex Officio Notary

-6-

US

IP

CP
IN THE

TWENTY-FOURTH JUDICIAL DISTRICT COURT
PARISH OF JEFFERSON

NUMBER 12-1285, Div. “K”

HAI A. DUONG
Petitioner
Vs.
N. BURL CAIN, Warden
Louisiana State Penitentiary
Respondent

ORIGINAL MEMORANDUM IN SUPPORT OF APPLICATION
FOR POST-CONVICTION RELIEF AND REQUEST FOR
SUPPORTING DOCUMENTATION AND DISCOVERY

PREPARED BY AN OFFENDER COUNSEL SUBSTITUTE AT THE
LOUISIANA STATE PENITENTIARY ON BEHALF OF
HAI A DUONG PRO SE PETITIONER

TITLE XXXI-A
OF THE
LOUISIANA CODE OF CRIMINAL PROCEDURE
PETITIONER REQUESTS AN EVIDENTIARY HEARING

Respectfully submitted:

Hai A Duong
#613130, Cypress-4
Louisiana State Penitentiary
Angola, LA 70712

TABLE OF CONTENTS
PAGE
Application for Post-Conviction Relief
Cover Page
Table of Contents.....................................

11

Exhibit List................... ...........................

11

Table of Authorities.................................

iii

Constitutional Provisions.......................

1

Jurisdictional and Statutory Provisions.

1

Statement of the Case.............................

2

Statement of Facts............... ...................

3

Unavailability of THal Record...............

9

Legal Precedent........................ ;.............

11

Argument...............................................

13

1.

2.

Hal's trial was rendered fundamentally unfair because he was
denied the effective assistance or counsel, in violation of Article I,
§§1,2, 13, 16, and 22 of the Louisiana Constitution of 1974 and the
Fifth, Sixth and Fourteenth Amendments to the United States
Constitution.......................................................................................................

13

Hai's trial was rendered fundamentally unfair as a remit of
prosecutorial misconduct, in violation of Article L §§ 1, 2, 3, 13, 16,
and 22 of the Louisiana Constitution of 1974 and the Fifth, Sixth, and
Fourteenth Amendments to the United States
Constitution........................................................................................................

15

Pro Se Litigant Consideration....

17

Conclusion.....................................

17

Affidavit/Certificate of Service.

18

Attachments
Motion for Appointment of Counsel
Motion to Compel Answer
Motion for Evi dentiary Hearing
Motion for Production of Documents
Motion for Production of Documents (D.A. Files)
Exhibits

(Attached)

A

Affidavit of Hai A. Duong

B

Arrest History of “Nicole.”

-li-

f/7

TABLE OF AUTHORITIES
PAGE
United States Constitution
Fifth Amendment....

passim

Sixth Amendment.........

passim

Fourteenth Amendment

passim

Louisiana Constitution of 1974
Article I, § 2....

passim

Article I, § 13..

passim

Article I, § 16..

passim

Article I, § 19..

passim

Article V, § 16.

1

Statutes
La. C.Cr.P. Art. 92.

12

La. C.Cr.P. Art. 774

15

La. C.Cr.P. Art. 776

15

La. C.Cr.P. Art. 924

1

La. C.Cr.P. Art. 925

.2

La. C.Cr.P. Art. 930....

1,17

La. C.Cr.P. Art. 930.2

17

La. C.Cr.P. Art. 930.3

1

La. R.S. 14:34.4.

2

La. R.S. 14:42

.2

La. R.S. 14:81.2.

2

La. R.S. 46:1844

.3

Federal Cases
Banks v. Dretke, 540 U.S. 668 124 S.Ct. 1256 (2004)............................

15

Bums v. Ohio, 360 U.S. 252, 79 S.Ct. 1164 (1959)................................

12

Draper v. Washington, 372 U.S. 487, 83 S.Ct. 774 (1963)......................

12

Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763 (1972)....................

16

Griffin v. Illinois, 351 U.S. 12, 76 S.Ct. 585 (1956)...............................

12

Lane v. Brown, 372 U.S. 477, 83 S.Ct. 768 (1963).„........................ .....

12

Maine v. Moulton, 474 U.S. 159,106 S.Ct. 477 (1985)...... ....................

13

Napue v. People of State of Illinois, 360 U.S. 264, 79 S.Ct. 1173 (1959).

16

Nero v. Blackburn, 597 F.2d 991 (5th Cir. 1979).....................................

13

Pavel v. Pattison, 24 F.Supp. 915 (W.D.La. 1938).................................

11

-III*

///

Smith v. Bennett, 365 U.S. 708, 89 S.Ct. 895 (1969)........... .....

12

Ross v. Moffitt, 417 U.S. 600, 94 S.Ct. 2437 (1974).................

12

Strickland v. Washington, 466 U.S. 668,104 S.Ct. 2052 (1984).

13

U.S. v. MacCollom, 426 U.S. 317, 96 S.Ct. 2086 (1976)..........

9,10

State Cases
In re Toups, 00-0634 (La. 11/28/00), 773 So.2d 709....................................

15

People v. Sawides, 1 N.Y.2d 554, 154 N.Y. S.2d 885,136 N.E.2d 853.......

16

State v. Barton, 315 So.2d 289 (La. 1975)...................................................

11

State v. Duong, 13-763, (La.App. 5 Cir. 8/8/14), 148 So.3d 623...............

.2,3

State v. Stovall, 363 So,.2d 658 (La.1978)...................................................

15

State ex rel. Bernard v. Criminal District Court, 653 So.2d 1174 (La. 1995).

10, 11

State ex rel. Egana v. State, 00-2351, (La. 9/22/00), 771 So.2d 638.............

17

State v. King, 06-2383, (La. 4/27/07), 956 So.2d 562..................................

15

State ex rel. Lee v. Whitaker, 521 So.2d 1141 (La. 1988)............................

13

State ex rel. Nash v. State, (La. App. 1st Cir. 1992) 604 So .2d 1054............

10

-iv-

//?

MAY IT PLEASE THE COURT:
NOW INTO COURT comes Petitioner, Hai A. Duong (hereinafter “Hai”), pro

se, respectfully submitting the following in support of his Application for Post
Conviction Relief, pursuant Jo Title XXX-1 A. relative to Post-Conviction Relief
Procedures,1 requesting supporting documentation and discovery to demonstrate
violations of Rights guaranteed by Article 1, § 2, 3, 13, 16, and 22, of the Louisiana
Constitution, and the Fifth, Sixth, and Fourteenth Amendments to the United States
Constitution by respectfully showing the following.
CONSTI TUTIONAL PROVISIONS
The Fifth Amendment to the United States Constitution provides in pertinent part
that no person “shall be compelled in any criminal case to be a witness against himself.”
The Sixth Amendment to the United States Constitution provides in pertinent that
a criminal defendant cannot be deprived of his right “to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his defense.”
The Fourteenth Amendment to the United States Constitution provides in
pertinent part, “nor shall any State deprive any person of life, liberty or property,
without due process of law; nor deny any person within its jurisdiction the equal
protection of the laws.”
In this memorandum in support of his application for post-conviction relief, Hai
respectfully asserts that the Court shall grant relief when “[t]he conviction was obtained
in violation of the Constitutions of the State of Louisiana and/or the United States.”2
Because there are questions of fact that cannot be resolved on this record, an
evidentiary hearing is warranted for the taking of testimony or other evidence.3
JURISDICTIONAL AND STATUTORY PROVISIONS
Jurisdiction is vested in this Honorable Court by virtue of Article V, § 16 of the
Louisiana Constitution of 1974, as amended, which provides that the District Courts
shall have original jurisdiction over all civil and criminal cases.
*La C.CrJP. Art. 924 et. seq.
2La. C.CrJP. Ait. 930.3(11
3La. C.CrP. Art. 930(AV
-1-

“An application for post conviction relief shall be by written petition addressed
to the district court for the parish in which the petitioner was convicted.”4
STATEMENT OF THE CASE
On June 21, 2012, Hai was formally charged by a five count indictment. On
counts one and two, he was charged with aggravated rape. On counts three and four he
was charged with molestation of a juvenile in violation. And on count five Hai was
charged with aggravated oral sexual battery, all in violation of Louisiana law.5
On July 18, 2012, Hai entered a plea of not guilty at arraignment. A twelvemember jury was selected on June 10, 2013. The trial on the merits began on June 11,
2013, and continued until June 12, 2013, with the jury returning a verdict of guilty as
charged on counts one, three, four and five. On count two, the jury found Hai guilty of
the lesser charge of attempted aggravated rape.
Hai filed a motion for new trial on June 17, 2013. On June 18, 2013, Hai filed a
motion to supplement the motion for new trial. The Court denied Hai's motion on June
24, 2013. After waiving sentencing delays, Hai was sentenced by the Court to
imprisonment terms of: life on count one; 50 years on count two; 15 years each on
counts three and four; and ten years on count five. These sentences were to be served at
hard labor and concurrently without the benefit of probation, parole, or suspension of
sentence.
Hai then made an oral motion for appeal, and filed a pro se written motion for
appeal. The Court granted Hai's motion on June 25, 2013. Hai's conviction and
sentenced was affirmed by the Fifth Circuit Court of Appeal on August 8, 2014.6
On September 4, 2014, Hai timely filed an application for writ of certiorari to the
Louisiana Supreme Court, that was denied April 17,2015. This original application for
post-conviction relief with memorandum and request for supporting documentation
and discovery timely follows.

*La C.Cr.P. Art. 925.
5See La R.S. 14:42: La R.S. 14:81 2: La R.S. 14:34.4.
*State v. Duong. 13-763, (LaApp. 5 Cir. 8/8/14) 148 So.3d 623.
-2-

/<£/

STATEMENT QF THE FACTS
Hai adopts the Fifth Circuit Court of Appeal's statement:
Preliminarily, for the ease of reading, we have given the victims and their
parents fictitious names in the remainder of this opinion.7 The victims, J.T.
and N.T. will be called Janet and Nicole. The victims' parents, C.T. and
A.T. will be called Carl and Alice.8
For further ease of reading, Hai's wife “M” will be called “Monica.”
Carl testified that he was previously married to Alice.9 Monica - Alice's sister lived with the couple for a time.10 Carl and Alice have three children together - Nicole,
Janet, and a son.11 Carl told the jury he is acquainted with Hai from his (Hai's)
relationship with Monica, Carl's ex-wife's sister.12 Carl and Alice divorced in 1995.13
Their daughters, Nicole and Janet, stayed with their mother Alice, and visited Carl on
title weekends.10 When the girls were with Carl, the group would sometimes visit at Hai's
house.15 Sometimes, Hai would visit Carl's home when the girls were there.10
Carl trusted Hai around his children, and never saw him abuse his children in
anyway. Janet or Nicole never told him about any alleged abuse - sexual or otherwise.17
Even so, around 1999 Alice told Carl that Hai had sexually abused the girls.18 After the
allegations of abuse were made, Hai “disappeared.»19
Monica testified that Hai is her husband.20 They had been married twenty-three
years as of the day of trial.21 Monica identified Alice as her older sister.22 Monica
identified Carl as Alice's ex-husband.23 In the late 1990's Monica worked part-time with

?See La.Rev.Stat. Ann. § 46:1844(W)(3).
8State v. Duong. 13-763, (LaApp. 5 Cir. 8/8/14) 148 So.3d623, 626; La R.S. 46:1844(WX3).
9R. p. 191.
10R. p. 192.
nR. p. 192.
12R. p. 193.
13R. p. 196.
I4R. p. 196.
15R. p. 196.
1<SR. p. 197.
17R. p. 199.
18R. p. 199.
19R. p. 199.
“R. pp. 255-257.
21R. p. 258.
22R. p. 258.
23R. p. 259.
-3-

/J.JL

her sister Alice at Alice's wig drop.24 Carl worked by fixing cars35 Alice would drop her
children off at Monica's house on Saturday mornings. Monica would babysit while
Alice worked at her place of business.26 At the time, Hai worked for an electrical
company mostly Monday through Friday.27
Monica was questioned about a particular “day at the wig shop where [her] niece
told [her] sister [Alice] some troubling information concerning [her] husband”28 That
“news” upset her.29 As a result, Monica telephoned Hai, who drove to the wig shop
where he was confronted by Alice.30 Monica could not remember the specifics of what
was said by the daughter that upset Alice so.31
The state was nonetheless able to ask Monica leading questions: “Do you
remember telling your sister [Alice] on the phone that night that you spoke with
your husband Hai and that he'd admitted to you that it was true what he did to
those girls?”32 Monica replied, “Okay. That time, at that time I don’t know. I just
kind of say that to my sister, just something - -”33 Later, the state got Monica to
say that Hai told her “[h]e had to leave because his brother - - my brother-in-law
is threatening to kill him whenever he see him and that he was afraid that they're
going to electrocute him.”34 Monica had no idea where Hai relocated to until ten
years later.35 At some point after leaving, Hai returned to draw out his retirement
money.36 Monica accompanied him to draw out his retirement money at work, and
was told by Hai that he had been fired by his boss.37

24R. pp. 259-260.
25R. p. 260.
MR. pp. 263-264.
^R. pp. 267-268.
28
R. p. 272.
^R. p. 272.
^R. p. 272.
31R. p. 273.
32R. p. 278.
33R. p. 278.
34R. p. 287.
3SR. pp. 289-290.
mR. p. 299.
37R. p. 291.
-4-

/Ay

When Monica next learned of Hai's whereabouts, he was in New Mexico where
he had suffered a heart, attack..38 Monica joined Hai in New Mexico, and traveled with
him to Wyoming.39 She later received a call from Hai after he was arrested, and learned
he was wanted by law enforcement in Louisiana.*10 Monica testified that at no time did
she observe anything wrong or inappropriate in Hai's behavior around Nicole and
Janet.41
On re-direct, Monica told the jury that when she and Hai were out of state, he
told her he wanted to go by the name “Henry Tony.”43 He told her it was to help him
hide from (he government who wished to speak to him about his nieces.43
Alice testified that Hai was formerly her brother-in-law.44 She identified her three
children by Carl as Nicole, Janet, and A.45 Her sister Monica married Hai when die was
about 19 years old.44 Alice told the jury die used to bring her young children to Monica
and Hai’s home on Saturdays so she could be free to run her wig shop.47 Alice said die
left the children at Monica and Hai's home “pretty often .’,48
Alice said her daughter Nicole was rebellious, prompting her into a discussion
with Nicole one day wherein Nicole exclaimed, “[w]ell, my problem is, you know, your
brother-in-law, Hai, she - - he molested me since I was little...,[a]nd raped.”49 Upon
hearing Nicole's words, Alice “froze.”50 Nicole started crying and proceeded to tell
Alice “everything.”51
Nicole told her “ it happened since they were four or five.”53 Alice later
confronted her daughter Janet, who cried and told her, “[i]t happened to me, mom.»S3
sR. p. 296.
^R. p. 308.
"“R. pp. 310-311.
41R. p. 322.
"R. p. 353.
'“R. p. 354.
44R. p. 375.
"R. p. 376.
46R. p. 377.
“"R. pp. 381-382.
"R. p. 383.
49R. p. 384.
^R. p. 384.
51R. p. 385.
52R. p. 386.
53R. p. 387.
-5-

Alice spoke to Monica on the phone and learned from her that she had spoken to Hai,
and he allegedly told her “about everything, what happened to the children.”54 Alice
consulted with her parents who instructed her to “keep it in the family.”55 However, the
children spoke of the alleged abuse to the school authorities, the police, and medical
staff at Children's Hospital.56 From the date of the disclosure, Alice never saw Hai again
until die took the stand to testify against him in trial.57
Detective Richard Broussard testified that in May of 1999, he participated in the
investigation of the aggravated rapes of Nicole and Janet, resulting in Hai's arrest .58 The
girls were 12, and 13 years old at the time, and stated that over a seven or eight year
period they had been “sexually molested by an uncle, both digital and penile.”59
Broussard met with tire girls, as well as their mother.60 Omalee Gordan conducted
separate video-taped interviews with the two girls. The interviews were monitored by
Broussard from a location separate of the girls61 Broussard explained, “[w]ell, Omalee
puts on a earpiece. And I can talk into a mike, and she can hear me. And I can - -1 can
hear the interview. I can see the interview on the monitor.”62
A videotape of the interviews were played for the jury in open court over trial
counsel's objection.63 Following the interviews, the girls were taken to Children's
Hospital for medical examinations.64 Broussard noted the last incident of alleged abuse
occurred two months prior to disclosure.65 As a result, he took no steps to secure die
girls clothing, or other physical evidence from die alleged crime scenes.66

*R. p. 387.
55R. p. 388.
^R. pp. 389-390.
57R. pp. 392-393.
58R. p. 422.
^R. p. 423.
60R. pp. 425-426.
61R. pp. 426-427.
62R. p. 426.
63R. pp. 361-371; R. pp 428-431.
“^R. p. 431.
65R. p. 438.
66R. p. 438.
-6-

A*5

Broussard obtained an arrest warrant for Hai.67 Hai was arrested on the warrant,
and formally charged on March 12, 2012.68
Janet told the jury she was bom November 20, 1986. She testified that she was
26 years old at the time of trial .<9 She knew Hai as the husband of her aunt Mon ica.70 As
a child, she was often left at Monica and Hai's home on Saturdays while her parents
worked.71 Janet nodded her head affirmatively in response to the state's leading
questions indicating that Hai sexually abused her.72 She then verbalized that Hai would
“touch” her “above and under” her clothing, on her “chest and around my genitals.”73
According to Janet’s testimony, the activity happened “multiple times.”74
According to Janet, it specifically included Hai inserting his finger into her
vagina.75 At around the age of eleven, she dated that Hai put his penis inside her.74 She
also said that Hai put his mouth on her vagina at that age.77 She further testified that Hai
used a massager on her and showed her pornographic videos.78 Janet stated that the
activity, in one form or the other, started when she was five or six and persisted until
she was eleven.79 On cross-examination, Janet adamantly claimed that penile/vaginal
intercourse occurred only once.80
Nicole told the jury that she was bom December 13,1985, and was twenty-seven
years old at the time of trial.81 Nicole testified that she remembered a time when die
was seven years old, when her uncle Hai used a back massager on her “private part.»82
Nicole said the abuse progressed to Hai putting his penis in her vagina.83 According to
6?R. p. 434.
^R. p. 435.
69
R. p. 474.
**R. p. 475.
7,R. pp. 476-477.
72R. pp. 480-481;
73R. pp. 481-482.
74R. p. 482.
73R. p. 483.
76R. p. 484.
""R. p. 484.
reR. pp. 487-489.
’’R. p. 489.
80
R. p. 501.
81R. p. 520.
82R. pp. 521-522.
WR. p. 522.
-7-

Nicole, the penile/vaginal activity started when she was about eight and went on for
“years.»84 She said that he also used his hands on her naked vagina.85 Nicole testified
that one particular incident of intercourse she recalled happened around the time of the
Vietnamese New Year, a week before she turned eleven.86 She said that Hai would show
her pornographic videos of men and women engaging in sexual activity.87
Dr, Scott Benton testified as an expert in pediatric forensic medicine and child
abuse. He told jury he examined Janet and Nicole on May 17, 199988 Dr. Benton said
Janet told him, her uncle “Hai Duong” “raped” her. He stated she meant, “[l]ike, the
boy puts his thing in girl's private.”89 He also said Janet told him the last incident
occurred in April of 199990 Janet's physical exam was unremarkable91
Dr. Benton also examined Nicole92 According to Dr. Benton, she also identified
her uncle by “Hai Duong,” and told him she “was molested when I was six; but when I
turned 11, he started raping me.”93 By rape die meant “he put his private inside of me,
inside of mine.”94 When pressed, Nicole specified his “penis?’ into her “vagina,»95 Hie
last incident was two months prior to the examination by D. Benton.96 The physical
exam on Nicole revealed findings that were “consistent with rape.”97
Hai testified on his own behalf. He told the jury he was 53 years of old at the
time of trial.98 His wife asked him if he “did something with his niece,” and a short time
later, he discovered that the police were looking for him. Hai said he was told if he lost
his case he would die99. Hai said that fear got die best of him and caused him to leave

84R. pp. 521-522.
85R. p. 523.
86
R. p. 524.
87R. p. 526.
*®R. pp. 549-551.
^R. p. 554.
”R. p. 555.
91R. pp. 558-559.
92R. p. 577.
WR. p. 578.
94R. p. 578.
95R. p. 578.
MR. p. 579.
97R. pp. 583-585.
"R. p. 599.
"R. pp. 602-604.
-8-

/*7

the area.100 He told the jury he decided to quit his job, and move away for a while. Hai
testified that he wanted to be in a better position to return and prove his innocence to his
wife concerning his nieces.101 Eventually, Hai was arrested in Wyoming, and extradited
to face diarges in Louisiana.102 Hai emphatically denied any sexual activity with Nicole,
and Janet, and insisted that the allegations were “absolutely” false. 103 This original
memorandum in support of Hai's application for post-conviction relief with request for
supporting documentation and discovery timely follows.
UNAVAILABILITY OF TRIAL RECORDS
Hai is not in possession of the trial record in this matter and is attempting to
perfect his memorandum in support of his application for port-conviction relief from
memory. After due consideration, Hai prays that this Honorable Court will grant him a
copy of the record, or in the alternative, loan him a copy for 30 days for the purpose of
further perfecting his memorandum in support of his application in order to protect his
rights, and to fully and fairly present all of his constitutional claims before the Court so
that it may make a just ruling in this matter.
In order to demonstrate that the errors set forth herein are not harmless requires
addressing all the testimony presented at the hearings in the trial court. It is necessary
for Hai to have die record to make the required showing in support of his claims.
Otherwise he would be deprived of an adequate opportunity to present his claims fairly.
Under the particularized need doctrine,104 Hai needs the grand jury transcript of
every witness whose testimony contains exculpatory information. Hai needs these
transcripts to adequately argue his ineffective assistance of counsel claim based on trial
counsel's failure to impeach the state's witnesses, and his failure to investigate, Hai also
needs these transcripts to adequately argue his prosecutorial misconduct claim based on
tlie prosecutor allowing knowingly false testimony to be presented to the jury
uncorrected.
100R. pp. 602-604.
l01R. p.604.
102
R. p. 613.
103
R.pp. 613; 615-616; 638-639.
‘MSee United States v. MacCollom 426 U.S. 317, 96 S.Ct. 2086,48 L.E<L2d 666 (1976).
-9-

AXt

Hai also needs the pretrial hearings associated with any and all motions filed by
trial counsel and the state. Hai was severely prejudiced by the state being allowed to
circumvent justice in order to obtain a tainted conviction.
Hai also needs the transcripts of voir dire examination where the state backstruck
and/or excluded several minorities from the jury and trial counsel failed to object. Hie
state eliminated several minorities from Hai's jury and did not give any race neutral
reason as to why.
Finally, Hai needs the Court's ruling on post trial motions, and the sentencing
transcript to assist him in seeking a non-frivolous collateral review in post-conviction
relief proceedings. Hai asserts that only a “colorable need” be shown, and therefore he
should be given the requested documents. Hai respectfully requests that this Honorable
Court, after reviewing his show of particularized need, would grant the same and direct
the Office of the Clerk and/or the Court Reporter to furnish him with the specific
documentation requeued so that he may fairly and adequately present his conrtitutional
claims for review.
The Louisiana Supreme Court articulated a standard for indigent inmates to
obtain free copies of documents of their criminal proceedings, provided they show a
particularized need* A particularized need is defined as a showing that the suit for which
the transcript is desired is not frivolous, and that the transcript is necessary to decide the
issues presented.103
The Court held:
In this case, relator has identified with factual specificity three
constitutional claims he argues will entitle him to post conviction relief.
Relator may therefore file an application which lacks any supporting
documentation without fear of summary dismissal under La. C.Q-.P. art.
926(E). He may renew his request for documents in that application, and it
will remain for the district court to determine in the firrt instance, subject
to review, whether the documents are necessary to resolve relator's claims
fairly under either (1) the provisions of La. C.Or.P. art. 929, which allow
the court to grant or deny relief summarily on the pleadings and/or
relevant transcripts or other documents submitted by the parties or
“available to the court,” or (2) the provisions of La. C.OP. art.. 930,
losSee State ex rel. Nash v. State, 604 So.2d 1054 (La App. 1 Cir. 1992); U.S. v. MacCollom
426 U.S. 317, 96 S.Ct. 2086,48 L.Ed.2d 666 (1976).
-10-

/Af

which allow for an evidentiary hearing at which the court may receive
duly authenticated records, documents, or transcripts in addition to live
testimony before ruling on the merits of the claims.10*
In applying these principles to this raise, Hai is alleging several factually
meritorious claims that, if established, would entitle him to post-conviction relief.
Specifically, Hai alleges that his trial was rendered fundamentally unfair through
ineffective assistance of counsel, prosecutorial misconduct.
Hai has demonstrated a particularized need for supporting documentation and
discovery by establishing - to the best of his ability - that his fact-allegations are not
frivolous. He has presented a genuine and material factual dispute that cannot be
resolved on the record. Accordingly, the specific records are needed to fairly present his
fact-allegations for review, consideration, and resolution.
Hai is requesting the following documents to support his factual, and meritorious
claims; the grand jury transcript of all testimonies that contain exculpatory information;
a transcript of all pre-trial hearings; the jury voir dire; a complete copy of the trial
transcript; and opening statements, and closing arguments of trial counsel and the
prosecution.
Hai was never granted any of his records. He was represented by retained
counsel during trial, and the Louisiana Appellate Project on direct review. Hai did not
file a motion to supplement and therefore did not receive a free copy of the record in
tliis matter. This also presents a challenge for Hai to go into specific details the lay out
his claims before this Court properly.
LEGALPRECEDENT
The State and Federal Constitutions mandate equal protection of law. 107 The
equal protection of our State's Constitution was intended as a restatement of the federal
Equal Protection Clause. 108
In criminal trials, a State can no more discriminate on account of religion, race,
creed or color. The U.S. Supreme Court opened the door to equal protection attacks on
106State ex rel. Bernard v. Criminal District Court. 653 So.2d 1174 (La. 1995).
l07La. Const. Art. 1. § 3 (1974); United States Const. Amend. XIV.
108State v. Barton, 315 So.2d 289 (La 1975); Pavel v. Pattison. 24 F.Supp. 915 (W.D.La 1938).
-11-

/?<9

procedures that are non-discriminatory on their face, but in effect confront the indigent
with the illusion of a 'choice' in paying a fee he cannot afford or forfeiting an
opportunity available to those who can pay.109 The U.S. Supreme Court held that a state
with an appellate system that makes trial transcripts available to those who could afford
them was constitutionally required to provide a means of affording adequate and
effective appellate review to indigent defendants.110 The Court extended this principle to
apply to indigents seeking &ate collateral proceedings.111 The Court also said that “in
criminal cases, it may not foreclose indigents from access to any phase of that
procedure because of their poverty.»1I2
This principle is no less applicable when the state has afforded an indigent access
to the first phase of its appellate procedure but has effectively foreclosed access to the
second phase at the state collateral review level solely because of his poverty.113 The
Court made it clear that these principles were not to be limited to direct appeals from
criminal convictions, but as in Lane v. Brown, extended to state post-conviction
proceedings.114 Respecting the state's grant of a right to test their detention, the Court
said that “it extends as far to each.”115 These decisions applies to Hai's case.
The Fourteenth Amendment guarantees Hai the constitutional right of access to
state courts, and assures the indigent defendant an adequate opportunity to present his
claims fairly.114 Hai has demonstrated a colorable need for the above-referenced
documents, and is entitled to them so that he may adequately present his claims to the
Court in an orderly fashion with the assistance of a trained Offender Counsel Substitute.
Hai’s poverty is the only obstacle preventing him from acquiring the requeued records,
and his right to access should insure his non-frivolous, constitutional claims can be
properly "tested on the same basis by the reviewing court” as is available for the rich.117
109See Griffin v. Illinois. 351 U.S. 12, 76 S.Ct. 585,590,100 L.Ed. 891 (1956).
“°See Griffin, supra, 351 U.S., at 20.
“‘See Lane v. Brown. 372 U.S. 477, 83 S.Ct. 768, 9 L.Ed.2d 892 (1963).
mSee Bums v. Ohio. 360 U.S. 252, 79 S.Ct. 1164, 3 L M2d 1209 (1959).
113La C-Cr.P. Art. 92: Bums, supra. 365 U.S- at 257.
“'‘Smith v. Bennett. 365 U.S. 708, 89 S.Ct. 895, 6 L.Ed.2d 39 (1969).
llsSmith v. Bennett, supra, 365 U.S., at 714.
114See Ross v. Moffitt. 417 U.S. 600, 94 S.Ct. 2437,41 L.Ed.2d 341 (1974).
“’See Drapery. Washington. 372 U.S. 487, 499, 83 S.Ct. 774, 9 L.Ed.2d 899 (1963).
-12-

tv

However, if this Court find that Hai has failed to show a sufficient need, then he
respectfully ask that the Court allow him to review the requested documents through
Mrs. Tfish Foster, Supervisor of the Legal Programs Department, Louisiana Stale
Penitentiary, Angola, Louisiana 70712. She will assume responsibility for return of the
records. In State ex rel. Lee v. Whitaker, the Louisiana Supreme Court, granted a
mandamus and ordered the District Court to furnish Lee with the Record to be reviewed
through the Legal Programs Supervisor at the prison.118
ARGUMENT
Claim No. 1
Hal's trial was rendered fundamentally unfair because he was
denied the effective assistance of counsel, in violation of Article I,
§§ 1, 2, 13, 16, and 22 of the Louisiana Constitution of 1974 and the
Fifth, Sixth and Fourteenth Amendments to the United States
Constitution.
A criminal defendant's right to the effective assistance of counsel guaranteed by
the Sixth and Fourteenth Amendments “is indispensable to the fair administration of our
adversarial system of criminal justice.»U9
The standard of review for a claim of ineffective assistance of counsel requires a
reviewing court to reverse a conviction if the defendant establishes: (1) that counsel's
performance fell below an objective standard of reasonableness under prevailing
professional norms; and (2) but for counsel's deficient performance, there is a
reasonable probability that the outcome of the proceeding would have been different.120
This reasonable probability standard does not require a defendant to show that counsel's
deficient conduct more likely than not altered the outcome in the case.121 While a
reviewing court must examine the “totality of circumstances and the entire record” to
assess counsel's performance, “[sjometimes a single error is so substantial that it alone
causes the attorney's performance to fell below the Sixth Amendment standard.”122

118See State ex rel. Lee v. Whitaker. 521 So.2d 1141 (La 1988).
110Maine v, Moulton. 474 U.S. 159,168,106 S.Ct. 477,88 L.Ed.2d 481 (1985).
120Strickland v. Washington. 466 U.S. 668, 688, 694,104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).
12lstrickland v. Washington. 466 U.S., at 693,104 S.Ct., at 2068.
l22Nero v. Blackburn. 597 F2d 991,994 (5th Cir. 1979).
-13-

nx

Nicole's false allegations began after she told Hai about her getting into a vehicle
with three unknown males. Hai asked Nicole about her well-being. He then questioned
her about her behavior. After Nicole's open rebellion and pattern of sneaking away from
her father's house was noticed, Nicole began telling lies about Hai molesting her, and her
sister Janet, to take attention away from what she was doing.
The truth of the matter is, the charges that Hai are convicted of are false. Trial
counsel failed to investigate the nature of these false allegations and thereby failed to
mount a plausible defense. This claim, if established, would entitle Hai to post­
conviction relief.
Hai's trial counsel failed to object during voir dire examination when the state
systematically excluded minorities from the jury. The state did not give any race neutral
reasons for the exclusions. Hai's trial counsel had a duty to object to the date's racial
profiling of the jury.
Hai's trial counsel failed to investigate the circumstances surrounding Nicole's
running away from home to be sexually involved with her boyfriend. Trial counsel also
failed to mention that Nicole also had a history of running away from home. Hai told
trial counsel that Nicole had asked him (Hai) was it okay for her to “have a boyfriend.”
Hai became concerned and asked Nicole why would she be interested in a boyfriend.
Nicole told Hai that one night when she was walking to her cousins home, a van with
three males stopped her. Nicole told Hai that although she was at first afraid, die got in
the vehicle with them. Nicole told Hai that one of the three males eventually became
her “boyfriend.” After relating this story to Hai, Nicole began telling the lies that has
caused an innocent man to lose his freedom.
On April 19, 1999, Nicole was arrested as a local runaway. Nicole had been
running away since about March of the same year - this is at least the time when her
absence began to be noticed by adults. When her actions caught up to her, Nicole began
telling her “uncle Haf’ dories, and recruited Janet for to the same. Nicole created lies
about her uncle to cover up the fact that she was already sexually active, and she feared

-14-

m

that die would get in trouble. Hai's trial counsel failed to investigate this situation. Trial
counsel should have mounted a fabrication defense because Hai is actually innocent of
the crimes he has been convicted of.
Hai respectfully asserts that the transcripts and documents requested herein,
and the complete court minutes for his case are vital to assist him in seeking a nonfrivolous collateral review in post-conviction relief proceedings.
Claim No. 2
Hai's trial was rendered fundamentally unfair as a result of
prosecutorial misconduct, in violation of Article I, §§ 1, 2, 3, 13, 16,
and 22 of the Louisiana Constitution of 1974 and the Fourth, Fifth,
Sixth, and Fourteenth Amendments to the United States Constitution.
The United States Supreme Court has several times underscored the “special role
played by the American prosecutor in the search for truth in criminal trials.”123
Unfortunately, from the moment Hai's trial began, the Assistant District Attorney
revealed that his interest in the prosecution of this raise was not that justice should be
done, but that Hai be convicted at any cost - even if costs an innocent man his freedom.
-v

Louisiana Code of Criminal Procedure Art. 776 provides that the state's opening
statement “shall explain the nature of the charge, and set forth, in general terms, the
nature of the evidence by which the state expects to prove the charge.” Louisiana Code
of Criminal Procedure Art. 774 “specifically commands that the argument 'shall not
appeal to prejudice. ml24
“A district attorney should not harbor any personal feelings toward an accused
that might, consciously or unconsciously, impair his ability to conduct the accused's
trial fairly and impartially, »UJ because “[i]n our system of justice, we intrust vast
discretion to the prosecutor in deciding which cases to pursue, whether to dismiss the
charges, whether to offer a plea bargain, what any plea bargain will entail, and how the
trial will be conducted.”126

123Banks v. Dretke. 540 U.S. 668,696,124 S.Ct. 1256, 1275, 157 L.Ed.2d 1166 (2004).
1MState v. Stovall. 363 So.2d 658,660 (La.1978).
125SMp v. King, 06-2383, (La. 4/27/07), 956 So.2d 562, 570.
126State v- King, 956 So.2d at 570; quoting In re Touos. 00-0634 (La 11/28/00), 773 So.2d
709,715.
-15-

It, is also well established that “a conviction obtained through the use of false
evidence, known to be such by representatives of the State, must fall under the
Fourteenth Amendment. The same result obtains when the State, although not soliciting
false evidence, allows it to go uncorrected when it appears, »12? The rule forbidding the
state's use of “false evidence, including false testimony, to obtain a tainted conviction,
implicit in any concept of ordered liberty, does not cease to apply merely because the
false testimony goes only to the credibility of the witness.”128 This is because the “jury's
estimate of the truthfulness and reliability of a given witness may well be determinative
of guilt or innocence, and it is upon such subtle factors as the possible interest of the
witness in testifying falsely that a defendant's life may depend.125
It does not matter if “'the falsehood bore upon the witness’ credibility rather than
directly upon the defendant's guilt. A lie is a lie, no matter what its subject, and, if it is in
any way relevant to the case, the district attorney has the responsibility and duty to
correct what he knows to be false and elicit the truth. »>130 Even if the “'district attorney’s
silence was not the result of guile or a desire to prejudice matters little, for its impact was
the same, preventing as it did, a trial that could in any real sense be termed fair."’131
Consequently, Hai is entitled to a new trial “'if the false testimony could, in any
reasonable likelihood have affected the judgment of the jury. p>132
The state systematically excluded minorities from the jury without assigning any
race neutral reasons as to why. The state also suppressed information revealing that
Nicole ran away from home to be with her boyfriend.133 This calls Hai's conviction into
question. The state infringed on Hai's right to present a fabrication defense. The state
also oppressed the fact that the family of the allege victims did not believe the stories
127Naoue v. People of State of Illinois. 360 U S. 264, 269, 79 S.Ct. 1173, 1177, 3 L.Ed.2d
1217(1959).
12*Napue, 360 U.S., at 269, 79 S.Ct., at 1177.
129Napue. 360 U.S., at 269, 79 S.Ct., at 1177.
l30Napue. 360 U.S., at 269-270, 79 S.Ct. 1177; quoting People v. Sawides. 1 NY. 2d 554,
557,154 N.Y S.2d 885, 887, 136 N.E.2d 853, 854- -855.
131Napue, 360 U.S., at 269-270, 79 S.Ct. 1177; quoting People v. Sawides. supra.

xnc
citing Napue v. People of Sf
L.Ed.2d 1217 (U.S. Ill. 1959).
133See Exhibit - A.

tic
:e oi

ieQ( 154( 92 s ct 763> 766> 31 L.Ed2d 104 (1972);
inois. 360 U.S. 264, 271, 79 S.Ct. 1173, 1178, 3

-16-

/3 5

told by Nicole and Janet. The prosecutor threatened the family of Nicole and Janet to
testify against Hai in this matter. The family told the state that they did not want to have
anything to do this matter because they did not believe the lies told by the alleged
victims. The state knew about Nicole's truancy, and chose to suppress this information.
This claim, if established, would entitle Hai to post-conviction relief.
The grand jury testimonies of the state's witnesses is drastically different from
their testimonies at trial. The family expressed to Hai that their personal testimonies
were exculpatory in nature. However, the state suppressed this information as well.
LIBERAL CONSTRUCTION
As a pro se litigant, Hai's application for post-conviction relief should be
liberally construed in the interest ofjustice.134
CONCLUSION
Hai has a made a colorable showing of the denial of several constitutional rights,
however, there are questions of facts that cannot be properly resolved based upon the
pleadings.135 Due process requires that an evidentiary hearing be held so that the facts
may be more fully developed.
Additionally, because Hai is the petitioner and the burden of proof is on him, Hai
expressly reserves the right to traverse the state's Answer. This will ensure full and fair
development of the issues presented herein and a just resolution of this case.

Respectfully submitted,

Hai A Duong
#613130, Cypress-4
Louisiana State Penitentiary
Angola, LA 70712

134See State ex rel. Eganav. State. 00-2351, 771 So.2d 638 (La 2000).
l35See La C.Cr.P. Art. 930.2: La. C.Cr.P. Art 930.
-17-

s
AFFIDAVIT/CERTIFICATE OF SERVICE
I, Hai A. Duong, do hereby affirm and certify that the foregoing is true and
correct to the best of my knowledge and belief, and has been served upon:
Opposing Counsel:
Paul D. Connick, Jr.
District Attorney
200 Derbigny Street, 5th Floor
Gretna, LA 70053-5850
by placing a copy of same in a properly addressed envelope into the hands of the
Classification Officer assigned to my unit, along with a Withdrawal form made out
to the General Fund, LSP, Angola, LA 70712 for the cost of postage and a properly
filled out Inmate's Request for Indigent/Legal Mail form, receiving receipt for same
in accordance with the institution's rules and procedures for the sending of legal mail.
Done this

, 2015.

day of

Hai A Duong

-18-

>31

HAI A. DUONG

24TH JUDICIAL DISTRICT COURT

VERSUS

PARISH OF JEFFERSON

N. BURL CAIN, Warden
Louisiana State Penitentiary

STATE OF LOUISIANA
DOCKET NO.: 12-1285, DIV. “K”

DEPUTY CLERK

FILED:

MOTION FOR PRODUCTION OF DOCUMENTS
UNDER PARTICULARIZED NEED
Because of his incarceration, Duong is indigent and without means to purchase the
documents requested in his Memorandum in Support of his Application for PostConviction Relief.1 These records are necessary so that Duong may further substantiate
and develop his claims before this Court, as Duong has met the requisite showing of
particularized need via the claims outlined in his Application for Post Conviction Relief
and Memorandum in Support.
In State ex rel. Bernard v. Orleans Criminal District Court J.; the Louisiana
Supreme Court held that an indigent inmate has a conrtitutional right to free copies of
documents to which the inmate is not entitled to as of right only in those instances where
the inmate shows that the denial of the request will deprive the inmate of art adequate
opportunity to present his claims fairly. Meeting that constitutional threshold requires a
showing of what has been called “particularized need.”3
Access to courts for prison inmates entails not only freedom to file pleadings, but
also freedom to employ those accessories without which legal claims cannot be
effectively asserted.
In this instance, Duong is relying on a prison system that experiments with a law
library and trained Offender Counsel Substitutes. However, because the prison's Offender
‘See Memorandum in Support, pp..
*Stgte ex reL Bernard v. Orleans Criminal District Court J. 94-2247, (La.4/28/95), 653 So.2d 1174
See. United States v. MacCollotn 426 U.S. 317,324, 96 S.Ct. 2086, 2091,48 L.Ed.2d 666
(1976) (quoting Ross y, Mffiffrfl, 417 U.S. 600, 616, 94 S.Ct. 2437, 2447,41 L.Ed.2d 341
(1974).

APPENDIX

J

73/

Counsel Substitutes were not at Duong's trial, their impediment of an unavailable trial
record and Duong's reliability on his memory severely disadvantages them to hejp Duong
prepare an Application for Post Conviction Relief. In this case, it is more likely than not,
Duong will not have an adequate collateral review unless, this Court will aid him.
The Louisiana Supreme Court has judiciously determined that, “One of the goals
of Louisiana's system of justice is to provide both the accused and the state fair and
prompt trials, appeals, and further proceedings to correct error.”4
WHEREFORE, Duong prays that after a thorough review of his Application for
Post Conviction Relief and Memorandum in Support that this Honorable Court will order
tliat he be provided a free copy of the trial record so that he may more fully develop and
present his claims before the Court.
Respectfully submitted this

day of Augu^, 2015.

Hai A Duong
#613130, Cypress - 4
Louisiana State Penitentiary
Angola, LA 70712

1,660 So. 2d 1189.
-2-

rn

HAI A. DUONG

24TH JUDICIAL DISTRICT COURT

VERSUS

PARISH OF JEFFERSON

N. BURL CAIN, Warden
Louisiana State Penitentiary

STATE OF LOUISIANA
DOCKET NO.: 12-1285, DIV. “K”

DEPUTY CLERK

FILED:

ORDER
THE ABOVE AND FOREGOING MOTION CONSIDERED:
IT IS HEREBY ORDERED that, the Clerk of Court and/or Court Reporter
furnish Hai A. Duong a free copy of the grand jury transcripts of the testimonies of
individuals whose testimony contains exculpatory information and/or contradicts their
trial testimonies; transcripts of all pretrial hearings and discovery including police
reports; the voir dire examination transcripts, the Court's rulings on post-trial motions;
and the sentencing transcript by forwarding the same to Hai A. Duong, 613130, Cypress
\

- 4, Louisiana State Penitentiary, Angola, LA 70712.
IT IS HEREBY ORDERED that Petitioner's Application for Post Conviction
Relief and Memorandum in Support is due

days after receipt of the trial record

in this matter, or no later than allowed by equitable tolling.
Gretna, Louisiana this

day of

,2015.

JUDGE - TWENTY-FOURTH JUDICIAL DISTRICT COURT

-3-

m

HAI A. DUONG

24TH JUDICIAL DISTRICT COURT

VERSUS

PARISH OF JEFFERSON

N. BURL CAIN, Warden
Louisiana State Penitentiary

STATE OF LOUISIANA
DOCKET NO.: 12-1285, DIV. “K”

DEPUTY CLERK

FILED:

MOTION FOR PRODUCTION
OF THE DISTRICT ATTORNEY’S FILES
MAY IT PLEASE THE COURT:
NOW INTO COURT conies Hai A. Duong, (hereinafter “Duong”), respectfully
requesting this Honorable Court to issue an order directing the Jefferson Parish District
Attorney's Office to provide him with free copies of the public records in his
possession and custody surrounding Duong's arrest, prosecution, and conviction. This
will allow Duong to fairly and adequately litigate his factually meritorious claims
presented in his application for post-conviction relief with memorandum in support.1
Duong respectfully shows the following:
Duong is serving concurrent imprisonment terms of life without benefits; 50
years; 15 years; and ten years.2 Duong's conviction and sentence became final on July
16, 2015, after the Louisiana Supreme Court denied certiorari.
Duong's first application for post-conviction relief with memorandum in support
is currently pending before this Honorable Court. In it he alleges several factually
meritorious claims that set forth contested facts with real credibility issues that, if
resolved in Duong's favor, would entitle him to relief.
Specifically, Duong alleged that his trial was rendered fundamentally unfair as a
result of prosecutorial misconduct when the prosecutor appealed to the sympathy,
passion, and prejudice of the jury in his opening statement. The prosecutor also went
‘See La R.S. 44:31.1.
2Duong was convicted for violations of La R.S. 14:42: La. R.S. 14:81.2: La. R.S. 14:34.4.The
50 year sentence is modified for attempted aggravated rape.
-1-

Nt

beyond the scope of an opening statement by giving commentary and his personal
opinion. The prosecutor mischaracterized and misstated the law, facts, and the evidence
to the jury throughout the trial. The prosecutor also allowed knowingly false testimony
go to the jury without correcting it.3
With respect to the factual and meritorious allegations contained herein, and also
briefed in the memorandum in support of Duong's application for post-conviction relief
- there is good cause for requesting free copies of the public records from the District
Attorney's Office to resolve these factual disputes. Duong has the right to request and
obtain free copies of the public records surrounding the investigation, arrest, and
prosecution in this case in order tofairly and adeqtiatety litigate his claims.4
Duong maintains that a full disclosure of the requested public records would
provide him with a meaningful opportunity to resolve his genuine, material, and factual
disputes that will ultimately lead to a just determination of his claims.
CONCLUSION
Duong has made a sufficient showing of a particularized need for the requested
public records by demonstrating that a genuine and material factual dispute exists on
the constitutional claims outlined herein, and briefed in his original application for post­
conviction relief with memorandum in support.
Finally, Duong respectfully requests that this Honorable Court direct the
Jefferson Parish District Attorney's Office to provide him with free copies of public
records of the investigation, arrest, and prosecution associated with this case.

Respectfully submitted

Hai A Duong
#613130, Cypress-4
Louisiana State Penitentiary
Angola, LA 70712
3See Memorandum in Support, pp..
4See La R.S. 44:31.1: Landis v. Moreau. 779 So.2d 691 (La 2001); State ex rel. Leonard v.
State. 695 So.2d 1325 (La 1997); State ex rel. Bernard v. Criminal District Court. 653 So.2d
1174 (La 1995); State,m rel. Tessin v. Whitley. 602 So.2d 721 (La 1992); State v. Jean. 847
So.2d 780 (La App. 3 Cir. 2003).
-2-

NJl

l.

-1

HAI A. DUONG

24TH JUDICIAL DISTRICT COURT

VERSUS

PARISH OF JEFFERSON

N. BURL CAIN, Warden
Louisiana State Penitentiary

STATE OF LOUISIANA
DOCKET NO.: 12-1285, DIV. “K”

DEPUTY CLERK

FILED:

ORDER/SHOW CAUSE
Based on the foregoing “Motion for Production of the District Attorney's
Files:”
IT IS HEREBY ORDERED that the Office of the District Attorney in and for
the Parish of Jefferson provide Hai A. Duong copies of the public records of the
Investigation, arrest, and prosecution in this case within thirty (30) days, or show
, 2015, at

cause on the__ day of

o'clock_.m., and

show cause why your office should not provide copies.
IT IS HEREBY ORDERED that if the Office of the District Attorney in and for
the Parish of Jefferson does not comply with this order within thirty (30), or appear
before this Honorable Court on the
at

o'clock

day of

, 2015,

.m., and show cause why the District Attorney's Office did not comply

with this order.
IT IS FURTHER ORDERED that N. Burl Cain, Warden, Louisiana State
Penitentiary, Angola, Louisiana produce the body of Hai A Duong, 613130, before this
Honorable Court on the__ day of_____________

, 2015, at

o'clock

Done and signed in chambers this__ day of

jn.

, 2015.

JUDGE - TWENTY-FOURTH JUDICIAL DISTRICT COURT

-3-

m

